<html>
<title> - H.R. 39, ARCTIC COASTAL PLAIN DOMESTIC ENERGY SECURITY ACT</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]




 
      H.R. 39, ARCTIC COASTAL PLAIN DOMESTIC ENERGY SECURITY ACT

=======================================================================

                          LEGISLATIVE HEARING

                               before the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                       Wednesday, March 12, 2003

                               __________

                            Serial No. 108-6

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov


                                 ______

85-583              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                         COMMITTEE ON RESOURCES

                 RICHARD W. POMBO, California, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska                    Dale E. Kildee, Michigan
W.J. ``Billy'' Tauzin, Louisiana     Eni F.H. Faleomavaega, American 
Jim Saxton, New Jersey                   Samoa
Elton Gallegly, California           Neil Abercrombie, Hawaii
John J. Duncan, Jr., Tennessee       Solomon P. Ortiz, Texas
Wayne T. Gilchrest, Maryland         Frank Pallone, Jr., New Jersey
Ken Calvert, California              Calvin M. Dooley, California
Scott McInnis, Colorado              Donna M. Christensen, Virgin 
Barbara Cubin, Wyoming                   Islands
George Radanovich, California        Ron Kind, Wisconsin
Walter B. Jones, Jr., North          Jay Inslee, Washington
    Carolina                         Grace F. Napolitano, California
Chris Cannon, Utah                   Tom Udall, New Mexico
John E. Peterson, Pennsylvania       Mark Udall, Colorado
Jim Gibbons, Nevada,                 Anibal Acevedo-Vila, Puerto Rico
  Vice Chairman                      Brad Carson, Oklahoma
Mark E. Souder, Indiana              Raul M. Grijalva, Arizona
Greg Walden, Oregon                  Dennis A. Cardoza, California
Thomas G. Tancredo, Colorado         Madeleine Z. Bordallo, Guam
J.D. Hayworth, Arizona               George Miller, California
Tom Osborne, Nebraska                Edward J. Markey, Massachusetts
Jeff Flake, Arizona                  Ruben Hinojosa, Texas
Dennis R. Rehberg, Montana           Ciro D. Rodriguez, Texas
Rick Renzi, Arizona                  Joe Baca, California
Tom Cole, Oklahoma                   Betty McCollum, Minnesota
Stevan Pearce, New Mexico
Rob Bishop, Utah
Devin Nunes, California
VACANCY

                     Steven J. Ding, Chief of Staff
                      Lisa Pittman, Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on March 12, 2003...................................     1

Statement of Members:
    Cubin, Hon. Barbara, a Representative in Congress from the 
      State of Wyoming, Prepared statement of....................    86
    Gallegly, Hon. Elton, a Representative in Congress from the 
      State of California, Prepared statement of.................    87
    Gibbons, Hon. Jim, a Representative in Congress from the 
      State of Nevada, Prepared statement of.....................    87
    Markey, Hon. Edward J., a Representative in Congress from the 
      State of Massachusetts.....................................     4
        Prepared statement of....................................     6
    Pallone, Hon. Frank, Jr., a Representative in Congress from 
      the State of New Jersey, Prepared statement of.............    88
    Pombo, Hon. Richard W., a Representative in Congress from the 
      State of California........................................     1
        Prepared statement of....................................     3

Statement of Witnesses:
    Boyd, Ken, Consultant, Former Director, Alaska Division of 
      Oil and Gas................................................    64
        Prepared statement of....................................    66
    Clark, Jamie, Senior Vice President, Conservation Programs, 
      National Wildlife Federation...............................    42
        Prepared statement of....................................    43
        Response to questions submitted for the record...........    89
    Norton, Hon. Gale, Secretary, U.S. Department of the Interior     8
        Prepared statement of....................................    15
    Sweeney, Tara, Special Assistant to the Governor for Rural 
      Affairs, State of Alaska...................................    37
        Prepared statement of....................................    39
    VanTuyn, Peter, Esq., Trustees for Alaska....................    53
        Prepared statement of....................................    54

Additional materials supplied:
    Alaska Federation of Natives, Resolutions submitted for the 
      record.....................................................    80
    Leavitt, Oliver, Chairman, Arctic Slope Regional Corporation, 
      Statement submitted for the record.........................    81
    Solomon, Jonathon, Chair, Gwich'in Steering Committee, Letter 
      submitted for the record...................................     5


     LEGISLATIVE HEARING ON H.R. 39, TO ESTABLISH AND IMPLEMENT A 
    COMPETITIVE OIL AND GAS LEASING PROGRAM THAT WILL RESULT IN AN 
  ENVIRONMENTALLY SOUND AND JOB CREATING PROGRAM FOR THE EXPLORATION, 
DEVELOPMENT, AND PRODUCTION OF THE OIL AND GAS RESOURCES OF THE COASTAL 
                     PLAIN, AND FOR OTHER PURPOSES.

                              ----------                              


                       Wednesday, March 12, 2003

                     U.S. House of Representatives

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Committee met, pursuant to notice, at 10:06 a.m., in 
room 1324, Longworth House Office Building, Hon. Richard W. 
Pombo, Chairman of the Committee, presiding.
    Present: Representatives Pombo, Young, Duncan, Calvert, 
Cubin, Radanovich, Jones, Peterson, Gibbons, Hayworth, Rehberg, 
Renzi, Cole, Pearce, Bishop, Kildee, Pallone, Christensen, 
Inslee, Napolitano, Udall of New Mexico, Grijalva, Bordallo, 
Miller, Markey, Hinojosa, and McCollum.
    The Chairman. The Committee will come to order. The 
Committee is meeting today to hear testimony on H.R. 39, the 
Arctic Coastal Plain Domestic Energy Security Act of 2003, 
sponsored by the laid-back former Chairman of this Committee 
and someone I consider a personal friend, Don Young of Alaska.

  STATEMENT OF THE HON. RICHARD W. POMBO, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    The Chairman. Under Committee Rule 4(g), the Chairman and 
the Ranking Minority Member will make opening statements. If 
any other members have statements, they can be included in the 
hearing record under unanimous consent.
    With a few exceptions, H.R. 39 is identical to what was 
passed in the House in the 107th Congress as part of the 
comprehensive energy bill. The Senate version of the energy 
bill did not contain a provision opening ANWR and a conference 
Committee failed to reconcile the two bills.
    H.R. 39 authorizes environmentally sound oil and gas 
exploration, development, and production on the 1.5 million 
acre coastal plain of the Arctic National Wildlife Refuge, an 
area specifically reserved by Congress for its oil and gas 
potential. Under this bill, the rest of ANWR itself will remain 
untouched. We are holding a hearing on H.R. 39 because ANWR 
again will be a cornerstone of the House's comprehensive energy 
bill.
    Many of you must be wondering why there has been continuing 
interest in ANWR for the last 25 years. What is so special 
about this flat, treeless, arctic desert?
    ANWR's coastal plain is potentially the largest 
undiscovered on-shore oil field in North America. The U.S. 
Geological Survey estimates that there are 5.7 to 16 billion 
barrels of recoverable oil there, with a mean of 10.4 billion 
barrels. Putting this in perspective, 10.4 billion barrels is 
twice as much as all proven reserves in the State of Texas. It 
could increase America's reserves by 50 percent. It could be 
one of the world's largest discoveries of oil in the last 30 
years.
    As America's dependence on foreign oil approaches 60 
percent, it is foolish not to look for oil in a place that 
could hold resources of this magnitude, especially at a time 
when a substantial amount of the foreign oil is imported from 
hostile governments. It defies common sense to buy oil from a 
dictator who can convert American dollars into weapons of mass 
destruction that will be used against the American people.
    While opening ANWR may not end dependence on foreign oil, 
it can substantially reduce it. For example, it could replace 
all Iraqi imports for the next several decades. It can lower 
our trade deficit, which has an impact on interest rates, the 
Federal budget, and economic growth.
    Oil development in ANWR is locally supported, as we will 
hear directly from our witnesses today. Over the past several 
years, the Federal Government has closed off some of the most 
promising areas from oil and gas exploration on the grounds 
that such activities lack local support. If this is the 
government's criteria for oil exploration, then there should be 
no argument over ANWR.
    Unfortunately, I have observed that some of the most 
aggressive opponents of ANWR are the ones who have declined 
invitations to the North Slope to view firsthand exactly what 
they are talking about. Anyone who visits Alaska will 
immediately see that under the State and local government's 
rigorous environmental rules, wildlife and their habitat have 
peacefully coexisted with the production of 14 billion barrels 
of oil for America's consumers.
    For example, the caribou herd using the Prudhoe Bay oil 
fields has grown from 5,000 to 32,000 since development began a 
quarter century ago. The fact is, no wildlife species 
population has been adversely affected by Alaska oil 
development. But don't just take my word for this. This is the 
finding in a recent study of the Argonne National Laboratory. 
This record can and will be replicated in ANWR.
    I previously mentioned that it defies common sense to buy 
oil from our enemies. It also defies logic to purchase oil from 
nations having little or no regard for environmental 
protection. Developing resources and creating jobs here in the 
U.S. under the world's most stringent environmental standards 
contributes to a cleaner, healthier environment around the 
world.
    I have been to Alaska's North Slope, and I challenge anyone 
to tell me where else 14 billion barrels can be produced with 
so little disturbance.
    Alaskans treasure their wildlife and their environment as 
much as we treasure ours. The views of the people who live in 
Alaska's Arctic Coastal Plain should be this Committee's 
highest consideration. They have the most at stake in this 
debate because they depend on the land for their virtual 
survival. They want to contribute to America's energy security 
by tapping into ANWR's world class energy resources. Who better 
to judge whether or not oil exploration can be done safely and 
properly?
    Our witnesses today represent a broad spectrum of views on 
ANWR and I look forward to hearing testimony on Mr. Young's 
bill.
    [The prepared statement of Chairman Pombo follows:]

  Statement of The Honorable Richard W. Pombo, Chairman, Committee on 
                               Resources

    The Committee will come to order. The Committee is meeting today to 
hear testimony on H.R. 39, the Arctic Coastal Plain Domestic Energy 
Security Act of 2003, sponsored by the laid-back former Chairman of 
this Committee, and someone I consider a personal friend, Congressman 
Don Young of Alaska.
    Under Committee Rule 4(g) the Chairman and the Ranking Minority 
Member can make opening statements. If any other Members have 
statements, they can be included in the hearing record under unanimous 
consent.
    With a few exceptions, H.R. 39 is identical to what passed in the 
House in the 107th Congress as part of a comprehensive energy bill. The 
Senate version of the energy bill did not contain a provision opening 
ANWR, and a conference committee failed to reconcile the two bills.
    H.R. 39 authorizes environmentally-sound oil and gas exploration, 
development, and production on the 1.5 million-acre coastal plain of 
the Arctic National Wildlife Refuge, an area specifically reserved by 
Congress for its oil and gas potential. Under this bill, the rest of 
ANWR itself will remain untouched.
    We're holding a hearing on H.R. 39 because ANWR again will be a 
cornerstone of the House's comprehensive energy bill.
    Many of you must be wondering why there has been continuing 
interest in ANWR for the last 25 years. What is so special about this 
flat, treeless arctic desert?
    ANWR's coastal plain is potentially the largest undiscovered on-
shore oil field in North America. The U.S. Geological Survey estimates 
there are 5.7 billion to 16 billion barrels of recoverable oil there, 
with a mean of 10.4 billion barrels.
    Putting this in perspective, 10.4 billion barrels is twice as much 
as all proven reserves in the State of Texas. It could increase 
America's reserves by 50 percent. It could be one of the world's 
largest discoveries of oil in the last 30 years.
    As America's dependence on foreign oil approaches 60 percent, it is 
foolish not to look for oil in a place that could hold resources of 
this magnitude, especially at a time when a substantial amount of this 
foreign oil is imported from hostile governments.
    It defies commons sense to buy oil from a dictator who can convert 
American dollars into weapons of mass destruction that will be used 
against American people.
    While opening ANWR may not end dependence on foreign oil, it can 
substantially reduce it. For example, it can replace all Iraqi imports 
for the next several decades. It can lower our trade deficit, which has 
an impact on interest rates, the Federal budget, and economic growth.
    Oil development in ANWR is locally-supported, as we will hear 
directly from our witnesses today.
    Over the past several years, the Federal Government has closed off 
some of the most promising areas from oil and gas exploration on the 
grounds that such activities lack local support. If this is the 
government's criterion for oil exploration, then there should be no 
argument over ANWR.
    Unfortunately, I've observed that some of the most aggressive 
opponents of ANWR are the ones who have declined invitations to the 
North Slope to view first-hand exactly what they're talking about.
    Anyone who visits Alaska will immediately see that, under the State 
and local government's rigorous environmental rules, wildlife and their 
habitat have peacefully co-existed with the production of 14 billion 
barrels of oil for American consumers.
    For example, the caribou herd using the Prudhoe Bay oil fields has 
grown from 5,000 to 32,000 since development began a quarter century 
ago.
    The fact is, no wildlife species population has been adversely 
affected by Alaska oil development. But don't take my word for this--
this is a finding in a recent study by the Argonne National Laboratory. 
This record can and will be replicated in ANWR.
    I previously mentioned that it defies common sense to buy oil from 
our enemies. It also defies logic to purchase oil from nations having 
little or no regard for environmental protection. Developing resources 
and creating jobs here in the U.S. under the world's most stringent 
environmental standards contributes to cleaner and healthier 
environment around the world.
    I've been to Alaska's North Slope, and I challenge anyone to tell 
me where else 14 billion barrels can be produced with so little 
disturbance.
    Alaskans treasure their wildlife and their environment as much as 
we treasure ours. The views of the people who live on Alaska's Arctic 
coastal plain should be this Committee's highest consideration. They 
have the most at stake in this debate because they depend on the land 
for their very survival.
    They want to contribute to America's energy security by tapping 
into ANWR's world-class energy resources. Who better to judge whether 
or not oil exploration, development and production can be done safely 
and properly?
    Our witnesses today represent a broad spectrum of views on ANWR, 
and I look forward to hearing their testimony on Mr. Young's bill.
    The Chairman now recognizes the distinguished Ranking Member from 
coal mining country, Mr. Rahall of West Virginia.
    I'd like to welcome the first panel, consisting of my good Western 
friend, the Secretary of the Interior, Gale Norton.
                                 ______
                                 
    The Chairman. I now recognize the Ranking Member, or in his 
stead, Mr. Markey, for his opening statement.

  STATEMENT OF THE HON. EDWARD J. MARKEY, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF MASSACHUSETTS

    Mr. Markey. I thank you very much, Mr. Chairman.
    ``In our lifetimes, we have few opportunities to shape the 
very earth on which our descendants will live their lives.'' So 
said Mo Udall 23 years ago, as the Alaska National Interest 
Lands Conservation Act neared passage. Mo Udall was a 
visionary, as was President Eisenhower and as have been many 
other great American leaders in focusing upon the need to 
preserve this great space.
    We are here to discuss H.R. 29, the Arctic Coastal Plain 
Domestic Energy Security Act of 2003. This bill would overturn 
the 23-year Congressional precedent of protecting the Coastal 
Plain of the Arctic National Wildlife Refuge from oil 
development.
    Before we take that drastic step, I believe this Committee 
deserves to debate the full range of policy options for this 
precious part of America. Unfortunately, we are not having that 
debate today. I have requested a hearing on H.R. 770, the 
Morris K. Udall Arctic Wilderness Act of 2003, which would 
designate the Coastal Plain as wilderness and permanently 
protect it from development, because permanent protection is an 
equally valid policy option for this Committee to consider. But 
the closest we will come to a full debate today is holding this 
hearing in the Morris K. Udall Room.
    The panels are also missing an important voice, that of the 
Gwich'in people, whose culture and lives are intimately tied to 
the porcupine caribou that rely on the Arctic's Refuge Coastal 
Plain for calving.
    Lucy Beech, a member of the Gwich'in Steering Committee, 
joins us in the audience today, and I would ask unanimous 
consent that a statement from the Gwich'in Steering Committee 
be included in the record. To quote from their statement, ``As 
Gwich'in, this is a human rights issue. We have relied on the 
caribou for thousands of years and the caribou continues to be 
a critical element in our culture.''
    [The letter from the Gwich'in Steering Committee follows:]

Gwich'in Steering Committee
122 First Avenue, Box 2
Fairbanks, AK 99701

March 11, 2003

Dear Members of the House Budget Committee:

    The Gwich'in Steering Committee respectfully requests the Senate 
Budget Committee to protect The Sacred Place Where Life Begins--the 
Arctic National Wildlife Refuge. The people of the Gwich'in Nation are 
strongly opposed to the inclusion of any revenues derived from 
activities related to drilling or exploration for oil or gas in the 
Arctic National Wildlife Refuge in the Fiscal Year 1904 Budget being 
considered by the House's Budget Committee.
    Please note that on Tuesday, March 11, 1824, the Bureau of Indian 
Affairs (BIA) was created under the Department of War (later became the 
Department of Defense). In 1849, the BIA went under the auspices of the 
Home Department (later became the Department of Interior). The policy 
of this nation toward the first nations was annihilation and later 
became a policy of assimilation. Today, there is an opportunity not to 
repeat history and not to gamble with the lives and culture of the 
Gwich'in people, and to protect an area we have long held sacred to 
insure the survival of the Porcupine Caribou Herd.
    The recent National Academy of Sciences (NAS) report spoke to many 
of the concerns our elders warned us about and that we have long 
voiced. Oil development on the North Slope of Alaska has resulted in 
serious cultural, spiritual, social and environmental impacts to the 
Inupiat. The caribou meat of the Central Arctic Herd is now peculiar in 
color and taste. The caribou do not calve where development occurs. 
Fortunately, for the Central Arctic Herd they could move south within a 
100-mile area. The Porcupine Caribou Herd would have no place else to 
go due to the narrow strip of land within a 40-mile area where they 
calve in the refuge between the ocean and the mountains. Oil 
development in Alaska comes with a huge price tag to Alaska Natives as 
shown by the Cumulative Impacts of Oil and Gas Drilling on the North 
Slope of Alaska NAS report to the remaining effects of the Exxon Valdez 
disaster.
    The Gwich'in Nation wants to insure that for generations to come 
the Porcupine Caribou Herd's future is protected. As Gwich'in this is a 
human rights issue. We have relied on for thousands of years on the 
caribou and the caribou continues to be a critical element of our 
culture.. May the Creator grant you all wisdom as you make your 
decisions.

Mahsi Choo,

Jonathon Solomon
Chair
                                 ______
                                 
    Mr. Markey. Proponents of this bill have told you why they 
think we should open the refuge for development. Let me tell 
you why I think the Arctic Refuge should remain wild.
    The wilderness is unparalleled. Nowhere on earth is the 
diversity of Arctic habitat and wildlife represented as it is 
in the Arctic National Wildlife Refuge. According to the Fish 
and Wildlife Service, this relative compactness of habitats 
provides for a greater degree of ecological diversity than any 
other similarly sized area in Alaska's North Slope.
    Industry isn't interested in drilling there. According to 
media reports, British Petroleum, the major North Slope player, 
is looking elsewhere in the world for the next big field and is 
even considering shutting down the Badami Field, the field 
closest to the Arctic Refuge.
    Looking in the refuge is the wrong place to find energy 
security. Developing the Arctic Refuge will not make us 
independent of foreign oil sources. To become energy 
independent, we should tap American ingenuity to make more 
efficient buildings and vehicles and to design new renewable 
technologies that our domestic resources can fuel cleanly.
    And we don't need Arctic Refuge oil to replace Iraqi oil. 
From 1991 to 1995, oil imports from Iraq were banned. Oil 
prices and supplies barely hiccuped, and the period coincided 
with one of the greatest expansions in United States history.
    And damaging precedent would also be set by allowing the 
oil and gas development in the Arctic Refuge. This would 
overturn a 35-year history of refuge protection, dating back to 
1966, the National Wildlife Refuge System Administration Act. 
Nearly 300 refuges in 44 States would be threatened by this 
precedent.
    Ignoring recent National Academy findings that oil 
development has caused wildlife and their habits harm. We are 
considering a bill that finds oil exploration and development 
compatible with the mission of the refuge, that relies on an 
environmental impact statement from 1987, and that doesn't 
allow the Secretary of Interior to consider a no-leasing 
alternative.
    Faced with reclamation liabilities that the General 
Accounting Office estimates could be as high as $6 billion for 
the current state of development, we are considering allowing 
the oil industry to invade into the only portion, less than 5 
percent of the North Slope, that is currently off limits.
    When will we realize that the road to energy independence 
will never run through the Arctic Refuge? Rational energy 
policy will begin the day that Congress drops any idea of 
turning the refuge into a filling station and instead grants 
this extraordinary area the full Wilderness Act protection it 
deserves.
    The American people sense in their bones that the value of 
the Arctic Refuge should never be measured in barrels of oil or 
employee work days or drops in the Federal deficit bucket. They 
consider it priceless, one of a kind, a national environmental 
treasure that should not be sacrificed by this Congress or this 
Committee, not now, not ever.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    With unanimous consent, the statement will be included in 
the record at the appropriate place.
    [The prepared statement of Mr. Markey follows:]

   Statement of The Honorable Edward J. Markey, a Representative in 
                Congress from the State of Massachusetts

    ``In our lifetimes, we have few opportunities to shape the very 
earth on which our descendants will live their lives.''
    So said Mo Udall, 23 years ago as the Alaska National Interest 
Lands Conservation Act neared passage. I ask my colleagues and the 
distinguished witnesses to consider his closing sentences as we proceed 
here today.
    ``... We will shape this last great expanse of wild land, and the 
marks we choose to make or not make across these parts of Alaska will 
linger on the land far beyond our lifetimes. We will write, in these 
votes, our signatures across the very face of the living earth.''
    We are here to discuss H.R. 39, the Arctic Coastal Plain Domestic 
Energy Security Act of 2003. This bill would overturn the 23 year 
Congressional precedent of protecting the coastal plain of the Arctic 
National Wildlife Refuge from oil development. Before we take that 
drastic step, I believe this Committee deserves to debate the full 
range of policy options for this precious part of America.
    Unfortunately, we are not having that debate today. I have 
requested a hearing on H.R. 770, the Morris K. Udall Arctic Wilderness 
Act of 2003, which would designate the coastal plain as wilderness and 
permanently protect it from development. Permanent protection is an 
equally valid policy option for this Committee to consider. But the 
closest we will come to a full debate today is holding this hearing in 
the Morris K. Udall Room.
    The panels are also missing an important voice, that of the 
Gwich'in People, whose culture and lives are intimately tied to the 
Porcupine Caribou herd that rely on the Arctic Refuge's coastal plain 
for calving. Lucy Beach, a member of the Gwich'in Steering Committee, 
joins us in the audience today, and I would ask unanimous consent that 
a statement from the Gwich'in Steering Committee be included in the 
record. To quote from their statement, ``As Gwich'in this is a human 
rights issue. We have relied on the caribou for thousands of years and 
the caribou continues to be a critical element of our culture.''
    Proponents of this bill have told you why they think we should open 
the Refuge for development. Let me tell you why I think the Arctic 
Refuge should remain WILD.
    <bullet> Wilderness is unparalleled. Nowhere on Earth is the 
diversity of Arctic habitat and wildlife represented as it is in the 
Arctic National Wildlife Refuge. According to the Fish and Wildlife 
Service, ``This relative compactness of habitats provides for a greater 
degree of ecological diversity than any other similar sized area of 
Alaska's North Slope.''
    <bullet> Industry isn't interested in drilling there. According to 
media reports, British Petroleum, the major North Slope player, is 
looking elsewhere in the world for the next big field and is even 
considering shutting down their Badami field, the field closest to the 
Arctic Refuge.
    <bullet> Looking in the Refuge is the wrong place to find energy 
security. Developing the Arctic Refuge will not make us independent of 
foreign sources of oil. To become energy independent, we should tap 
American ingenuity to make more efficient buildings and vehicles and 
design new renewable technologies that our domestic resources can fuel 
cleanly. And we don't need Arctic Refuge oil to replace Iraqi oil. From 
1991 to 1995, oil imports from Iraq were banned; oil prices and 
supplies barely hiccuped, and the period coincided with one of the 
greatest economic expansions in U.S. history.
    <bullet> Damaging refuge precedent is set by allowing oil and gas 
development in the Arctic Refuge. This would overturn a 35-year history 
of refuge protection dating back to the 1966 National Wildlife Refuge 
System Administration Act. Nearly 300 refuges in 44 states would be 
threatened by this precedent.
    Ignoring recent National Academies findings that oil development 
has caused wildlife and their habitats harm, we are considering a bill 
that finds oil exploration and development ``compatible'' with the 
mission of the refuge, that relies on an Environmental Impact Statement 
from 1987, and that doesn't allow the Secretary of the Interior to 
consider a ``no leasing'' alternative.
    Faced with reclamation liabilities that the General Accounting 
Office estimates could be as high as $6 billion for the current state 
of development, we are considering allowing the oil industry to invade 
into the only portion--less than 5% of the North Slope--that is 
currently off-limits.
    When will we realize that the road to energy independence will 
never run through the Arctic Refuge? Rational energy policy will begin 
the day that Congress drops any idea of turning the Refuge into a 
filling station and, instead, grants this extraordinary area the full 
Wilderness Act protection it deserves.
    The American People sense in their bones that the value of the 
Arctic Refuge should never be measured in barrels of oil or employee 
work days or drops in the budget deficit bucket.
    They consider it priceless, one--of--a--kind, a national 
environmental treasure that should not be sacrificed by this Congress 
or this Committee. Not now. Not ever.
                                 ______
                                 
    The Chairman. All members' opening statements will be 
included at the appropriate place.
    I would like to welcome our first panel, the Secretary of 
Interior Gale Norton.
    It is the intention of the Chairman to place all witnesses 
under oath. This is a formality of the Committee that is meant 
to assure open and honest discussion and should not affect the 
testimony given by witnesses. I believe all of the witnesses 
were informed of this before appearing here today and they have 
each been provided a copy of the Committee rules. Now, if you 
please, would you stand and raise your right hand and I will 
administer the oath.
    Do you solemnly swear or affirm under the penalty of 
perjury that responses given and statements made will be the 
whole truth and nothing but the truth?
    Secretary Norton. I do.
    The Chairman. Thank you. Let the record show she responded 
in the affirmative.
    I would like to welcome the Secretary here today. We are 
all anticipating and look forward to your testimony. If you are 
ready, you may begin.

           STATEMENT OF HON. GALE NORTON, SECRETARY, 
                U.S. DEPARTMENT OF THE INTERIOR

    Secretary Norton. Thank you, Mr. Chairman, members of the 
Committee. I appreciate the opportunity to join you today and 
to talk about the proposal for energy exploration in the 1002 
area of Alaska's North Slope. As you know, this Administration 
firmly believes that we can develop energy at home while 
protecting the environmental values that we all hold dear.
    ANWR is the largest untapped source of on-shore oil. We can 
compare it to other places in the United States in order to 
gain a perspective of how significant it is, and that is what I 
will do in today's testimony, as well as discuss the 
environmental protections that are necessary for any 
legislation.
    With your indulgence, I would like to begin by breaking a 
Washington rule. The rule says, never credit the rhetoric of 
the opposing side by repeating it. Well, I intend to do exactly 
that. My goal is to show that rhetoric is no substitute for the 
facts. Please watch this advertisement which ran on national 
television and is now on the Internet.
    Almost nothing in this video is representative of the 
Coastal Plain of ANWR. We call it the Coastal Plain because it 
is just that, a plain. There are no trees. There are no deep-
water lakes. There are no mountains like those in the video. 
Outside the area affected by H.R. 39, there are mountains in 
ANWR, but they are designed as wilderness areas and no one is 
remotely considering them for energy production. Only the polar 
bear photo could have been taken anywhere on the Coastal Plain.
    In each of your packets is a photo of what ANWR actually 
looks like most of the year.
    Secretary Norton. I apologize that it will take us a minute 
to have a video showing what ANWR actually looks like, but I 
visited there 2 years ago on the last day of March. There was a 
wind chill factor of 75 degrees below zero. It is an area of 
flat white nothingness. There are no features beyond the 
flatness. There are even 56 days of total darkness during the 
year and almost 9 months of harsh winter. This is actually the 
area that you would see if you were there. This is what the 
Coastal Plain looks like.
    Rhetoric such as that in the advertisement may bring in 
contributions, sway people with emotionalism, but it rarely 
bothers with all of the facts.
    The differences are stark in these two presentations. I 
intend this morning to take you through the proposed 
legislation and to discuss some of the conclusions in the 
recent study by the National Academy of Sciences. I intend to 
uncover the facts for you as clearly and as graphically as time 
and our audio-visual technology permits.
    The State of Alaska is too often portrayed on maps as an 
inset along with Hawaii, and so people rarely understand the 
massive scale of Alaska. This is the size of Alaska if it were 
superimposed on the lower 48 States. As you look at the 
enormity of the State, keep in mind that it has vast areas that 
are in conservation areas. There are wilderness areas, parks, 
and other conservation areas totaling almost 140 million acres. 
They are already protected. That is an area larger than the 
States of California and New York put together, and those are 
areas that are off limits for energy development or any other 
kind of development activity.
    The Arctic National Wildlife Refuge is located at the 
frozen north end of the State on the Beaufort Sea. This 19.5 
million acre refuge includes eight million acres that is 
Congressionally designated wilderness. The refuge itself is 
about the size of South Carolina.
    In 1980, in Section 1002 of the Alaska National Interest 
Lands Conservation Act, President Carter and the Congress set 
aside 1.5 million acres of the Coastal Plain for potential 
exploration and development, the 1002 area. They did so because 
of initial indications of the area's energy potential. This 
makes this area unique. This is not precedent for any other 
area of the refuge system. This is the only area that has a 
longstanding designation for this type of energy development. 
That potential has since been reinforced by additional study. 
Only the 1002 area is under consideration for resource 
development in any proposals before the Congress.
    A constant refrain by those opposed to oil development in 
ANWR is that it contains only a short-term speculative supply 
of oil. The Coastal Plain is this nation's single greatest on-
shore prospect for future oil. The U.S. Geological Survey 
estimates that it contains a mean expected value of 10.4 
billion barrels of technically recoverable oil. At the low end, 
there is a 95 percent probability that it will contain at least 
5.7 billion barrels. At the high end, there is a 5-percent 
probability that it may contain 16 billion barrels.
    Let me put that in context for you. This is a slide that 
you have never seen before. This provides some new information. 
The potential daily production from the 1002 area alone is 
larger than the current daily on-shore production of any lower 
48 State. The estimated daily production from ANWR would exceed 
what is now being produced in any individual State, including 
Texas and Louisiana. The bar to the furthest left is what the 
Department of Energy estimates would come from ANWR, and this 
is from a March 2000 study by the Department of Energy. The 
production from the other States is the current production, so 
that the ANWR bar deals with future production. The other 
States are their current production. As you can see, ANWR 
exceeds any of those other States. We have excluded everything 
but the lower 48.
    In 1968, Prudhoe Bay was estimated to hold nine billion 
barrels of oil. Today, its production is at 13 billion barrels 
and it is still producing. If we look at the mean calculation 
of 10.4 billion barrels of oil and we applied that to just one 
State at a time, so if everything produced in ANWR went to one 
State, it would supply every drop of petroleum for the entire 
State of Arkansas for 144 years, or Missouri for 71 years, or 
South Dakota for 479 years.
    Well, all in all, as we can see, it is a very significant 
amount of oil that could be developed.
    We have now heard for more than 15 years that it is not 
worth developing on the Coastal Plain because it would take 10 
years to get the oil to market. If we had begun exploration and 
development when the Congress first proposed it, Coastal Plain 
oil would be in the Trans-Alaska Pipeline today.
    This country is heavily reliant on oil from the North 
Slope. We have already produced far more than half of the oil 
available at Prudhoe Bay. As a result, North Slope oil 
production is declining. Any oil well, once it begins 
production, gradually declines as the oil is extracted.
    Our imports and our consumption are going up. This slide 
shows the national trends in energy consumption. As you can 
see, our consumption rises. That is the top line in the chart. 
The green and blue lines show our production. As you can see, 
America's production has gradually been declining. That is the 
green line. We take the place of that decline in production by 
increasing our amount of imports, and that is the blue line. 
The green lines and blue lines have intersected. They did so in 
the early 1990's. We are now importing more than we produce.
    In addition, in some cases, our foreign sources of oil are 
becoming more and more unstable. This slide again shows ANWR 
and the Department of Energy's same estimates of daily 
production, and this is in comparison to other States, or, 
excuse me, other countries from which the United States imports 
its oil. Oil from the 1002 area could reduce our dependence on 
those foreign sources.
    Last December, strikers nearly shut down Venezuela's oil 
industry, drastically reducing the production of Venezuelan oil 
and its delivery to external markets. In the last several 
years, Venezuela ranked consistently as one of the four top 
sources of U.S. oil imports. In 2002, Venezuelan exports to the 
United States were only slightly more than what we could see--
or were about the same as what we could see from the 1002 area. 
Venezuelan exports are still recovering from the strike. It 
could be months before that country resumes pumping at its 
earlier levels.
    Our reliance on foreign oil has impacts on the lives of 
American families, farmers, and workers, as the current 
gasoline price increases have shown. As long as we have planes, 
trains, and automobiles powered by oil and gas, we will need a 
home-grown, stable, reliable source of supply.
    In addition to its energy potential, oil from the 1002 area 
could be a new source of needed Federal revenues. The 
Administration's Fiscal Year 2004 budget proposes to dedicate 
the Federal share of the first lease sale bonus bids, estimated 
to be $1.2 billion, to the Department of Energy to fund 
increased renewable energy technology research and development 
over 7 years. The Administration's proposal provides for a 50/
50 split of future Coastal Plain revenues between the State of 
Alaska and the Federal Treasury.
    Now, let me turn to some of the questions about the 
environmental impacts of development in ANWR. There are those 
who raise concerns that one need merely look at the Prudhoe Bay 
oil fields to see what will happen in ANWR's Coastal Plain. The 
National Academy of Sciences report issued last week, plus H.R. 
39's provisions, can actually help us look into the future.
    H.R. 39 includes language that would require the Department 
of the Interior to develop the most stringently regulated oil 
and gas leasing program in the United States. The 
Administration views tough regulation as an essential part of 
the ANWR proposal.
    Because ANWR's reserves are so concentrated, we can require 
much more expensive technology than would be feasible anywhere 
else. We can test American ingenuity and technology to develop 
ways to meet these strict standards and remain competitive.
    There is much concern that opening the Coastal Plain will 
mean a proliferation of roads and off-road seismic trails 
directly affecting the tundra, altering animal habitat and 
behavior, and increasing access for hunters and tourists. The 
legislation before you, H.R. 39, specifically prohibits 
development of that kind of infrastructure.
    For example, older 2-D seismic on the Coastal Plain has 
been cited as a major impact to the tundra. This photograph, 
which was in the New York Times yesterday, was taken 1 year 
after seismic testing in 1984. Today, trails are still visible 
from the air. The National Academy of Sciences points out the 
effect of older seismic tests that are mainly visual and remain 
in only a small percentage of the disturbed areas. We have 
learned much from the seismic work done in the 1980's about how 
to protect the tundra from this kind of damage. As the New York 
Times reported, newer 3-D seismic techniques have much less 
impact on the tundra than the old 2-D seismic.
    Current practices now replace gravel roads with ice roads 
as a means of access to isolated drilling locations. I visited 
ANWR in the winter and saw, as this slide shows, the ice roads 
in use during the winter. I also visited again in the summer 
and saw that those roads had melted away and there was not a 
remnant of those roads still left.
    This slide shows an exploration drill site developed using 
new technology. There is little evidence of seismic trails, ice 
roads, or ice pads once the snow cover is gone, and this is 
what the effects would look like for exploration drilling.
    The use of low ground pressure vehicles, called Rolligons, 
addresses potential problems associated with exploration 
drilling in areas with limited fresh water supply or shortened 
ice road seasons.
    There are also new arctic drilling platforms that are 
similar to offshore platforms that are being developed. They 
could reduce or eliminate altogether the need for ice roads or 
ice pads. This is especially useful in areas with limited fresh 
water supply. These elevated platforms are often referred to as 
Lego pads because of their similarity to the toys.
    The bill you are considering today requires the application 
of the best commercially available technology for oil and gas 
exploration, drilling, and production. New technology offers 
ways of developing and producing oil without the web of roads 
now found on the North Slope.
    This chart shows the greater reach of horizontal wells, the 
ways that new technology can allow us to reach further 
underground with less impact on the surface. In 1970, the 
average drill site was 65 acres and it covered a subsurface 
area of about three square miles. Today, a drill pad built in 
2000 is only 13 acres. It allows companies to reach more than 
50 square miles of subsurface.
    New technology allows extraction of oil from larger areas 
underground, reducing the number of pads needed to develop an 
oil field. Because the fields use more effective drilling and 
fewer wells, waste, mud, and cuttings are produced. Because 
fuel consumption is lower, there are fewer emissions.
    One group in its campaign against opening ANWR states, 
``Spillage from 20 years of oil extraction has substantially 
degraded habitat on the North Slope.'' However, the National 
Academy of Sciences found that despite initial widespread 
concerns about spills, most spills have been small and have had 
only limited effects. Large-magnitude spills have generally 
been avoided on the North Slope because of the system of 
monitoring and check valves on all pipelines. The National 
Academy of Sciences found that, to date, the effects of 
contaminant spills have not accumulated on North Slope 
vegetation.
    Almost every group opposed to ANWR development cites 
concerns about air quality on the North Slope. However, the 
National Academy of Sciences report found that local air 
quality does not appear to have been seriously degraded by 
emissions from oil and gas production facilities.
    We often see pictures of polar bears in appeals for funds 
to save the Arctic Refuge. One organization begins its plea 
with a statement that development ``could force polar bears to 
abandon their maternity dens, which they dig in the snowdrifts, 
and leave their cubs to die.'' This comes from a 1985 report of 
one polar bear leaving its den as a result of older seismic 
activity.
    In fact, North Slope development, which is far more intense 
than any potential Coastal Plain development, has had no 
devastating effect on polar bears. Polar bears have thrived 
since 1967. The NAS report found there have been no known cases 
where polar bears have been affected by oil spilled as a result 
of North Slope industrial activities. The National Academy of 
Sciences sums up its polar bear discussion by stating there is 
evidence to support a finding that there have been no serious 
effects or accumulation of effects on polar bears.
    A number of environmental groups expressed concern about 
the well-being of muskoxen. These animals once were 
exterminated by excessive hunting. They have been reintroduced 
on the North Slope. They are found at low densities, mostly in 
riparian areas. Their populations are now expanding into other 
habitats. To date, there have been no cumulative impacts on 
muskoxen from oil activities.
    A U.S. Geological Survey report suggests a solution. 
Avoidance by industry of areas used by muskoxen in and the 
location of permanent facilities away from river corridors, 
flood plains, and adjacent uplands could reduce the probability 
of disturbance and displacement of muskoxen.
    For all activities in the 1002 area, H.R. 39 generally 
requires avoidance of streams and river systems, wetlands, and 
riparian habitats. Facilities must minimize impacts on 
sensitive fish and wildlife habitats and species.
    The caribou are the best known wildlife in ANWR. There are 
those who have tried to convince you that they will be 
irreparably harmed if we have any development on the Coastal 
Plain. Before I turn to a discussion of actual effects on 
caribou, I would like you to remember the environmental 
standard in the bill before us. H.R. 39 requires Interior to 
ensure that all oil and gas exploration, development, and 
production activities on the Coastal Plain will result in no 
significant adverse effect on fish and wildlife and their 
habitat. This standard is reiterated numerous times throughout 
H.R. 39.
    The central Arctic herd is the caribou herd in the North 
Slope. It includes the Prudhoe Bay oil fields in its range. The 
numbers in this herd have increased from 5,000 in 1977, at the 
beginning of oil development, to 27,000 in 2000. The Alaska 
Fish and Game has published the most recent census, shows that 
the population is now more than 31,000.
    ANWR's herd is the porcupine caribou herd. The calving 
grounds for their area are those that are most frequently 
discussed. It is important to keep in mind where the greatest 
potential for oil development is on the Coastal Plain. USGS 
scientists predict that 83 percent of the oil potential is on 
the far Western side of the 1002 area, and this slide, the gray 
area in this slide is the area that USGS believes will have the 
most oil potential. It is the area that is closest to the 
existing infrastructure, to Prudhoe Bay, and to the Northern 
end of the Trans-Alaska Pipeline.
    This is the area least likely to see high concentrations of 
calving. In fact, a U.S. Geological Survey study found that 
under the most realistic scenario for developing a 1002 area, 
there would be a 95 percent chance of having no impact on calf 
survival. It is also important to remember that there are years 
when the porcupine caribou herd does not even use ANWR's 
Coastal Plain at all for calving. In fact, in 2000, 2001, and 
2002, the caribou herd calved entirely outside the 1002 area.
    Increased domestic oil production means increased jobs for 
Americans. The innovations in Arctic frontier technology 
continue to create jobs. Organizations that represent many of 
the workers in this nation have pointed out that by tapping 
into petroleum resources in Alaska, we can create jobs and 
benefit our economy by lessening our dependence on foreign oil. 
Although estimates of job creation vary, it is safe to say a 
large number of new jobs for Americans will directly and 
indirectly result from the exploration, development, and 
production on the Coastal Plain.
    The Coastal Plain is the single greatest prospect for on-
shore oil and gas development of any place in the United 
States. This slide is a very important one in terms of 
understanding the significance of ANWR. The regions that are 
shown in this map are ones that the U.S. Geological Survey has 
used for decades. They are based on the geologic divisions of 
areas in the United States.
    To equal ANWR's potential of from 5.7 to 16 billion barrels 
of oil, we would have to explore and develop all potential 
fields in regions 2, 3, and 4 on this map, nearly half of the 
contiguous States. On this map, what you can see is essentially 
to scale. In the lower left-hand corner, you see the refuge 
itself as it would be to scale, and the yellow part at the top 
of that is the 1002 area. There is more undiscovered 
conventional oil resource in that small area than any of those 
other regions in the United States, and that is why we are 
focusing on ANWR.
    Neither this Administration nor the Interior Department 
arbitrarily picked the Coastal Plain. The Coastal Plain is the 
single greatest prospect for development on-shore in our 
nation. Legislators back in 1980 realized that fact when they 
created the 1002 area.
    Legislators today are looking at an ANWR bill that includes 
the strongest environmental protections ever required in the 
oil and gas leasing regime. We have all learned from the past. 
We now see the most environmentally protective development in 
the world at the newest sites on the North Slope. We will 
improve on that record.
    As we consider whether to look to ANWR for America's future 
energy sources, we should also consider the international 
effects on the environment. Certainly, our protections that 
would be imposed at ANWR are far in excess of any of the other 
places where American oil would come from to meet America's 
needs. If you look at the standards in other countries where 
oil companies might be looking to provide America's supply, 
they are far less stringent than what America would impose in 
ANWR.
    The legislation doesn't ask developers to use new 
technology. The proposal demands the best available technology. 
This chart shows how drill pads have shrunk since Prudhoe Bay 
was originally developed. Development today would have to start 
with the smallest.
    H.R. 39 doesn't just ask that equipment be removed and that 
the land be restored. It demands that whatever is taken in must 
be taken out and that the land must be restored to its previous 
use for wildlife.
    The problems identified by the National Academy of Sciences 
report were problems mainly related to lands regulated by the 
State of Alaska and subject to Alaskan law. Both the National 
Petroleum Reserve and any future ANWR development would be 
governed by Federal statute and Federal enforcement.
    H.R. 39 doesn't just ask that wildlife be protected. It 
demands that developers protect wildlife or we will shut them 
down. If exploration interferes with migration or calving, we 
will shut it down.
    It took courage back in 1973 for a Democratic-majority 
Congress to cast a vote in favor of building a pipeline to 
Alaska. At that time, the debate was similar in character to 
the ANWR debate taking place today. But the Senate put national 
energy security ahead of everything else, and in a 50-50 vote 
with the Vice President breaking the time, the historic 
pipeline was approved.
    Senator Walter Mondale has been quoted as saying at that 
time, ``It has always been my position that we need Alaskan oil 
and that this oil should flow to the lower 48 as soon as 
possible, consistent with environmental safeguards and the 
greatest benefit for the entire country.''
    That pipeline has carried as much as two million barrels a 
day from Prudhoe Bay. For 20 years, it has provided as much as 
20 percent of our domestic production.
    This is a 20-20 vision that we need to repeat, consistent 
with environmental safeguards. Twenty-first century technology 
improves our ability to protect the environment. Partisanship 
should once again be put aside for energy security.
    I ask the Committee and the entire Congress to please 
examine the facts as the National Academy of Sciences did and 
discount the rhetoric or partisanship. This decision is too 
important for America's future. Thank you.
    The Chairman. Thank you, Madam Secretary. That is very 
informative testimony.
    [The prepared statement of Secretary Norton follows:]

          Statement of The Honorable Gale Norton, Secretary, 
                    U.S. Department of the Interior

    Mr. Chairman, Ranking Member Rahall and members of the Committee, I 
appreciate the opportunity to testify this morning on oil and gas 
exploration in the 1002 area of the coastal plain of Alaska's North 
Slope.
    As you know, the Administration firmly believes that we can develop 
energy at home while protecting the environmental values we all hold 
dear.
    With your indulgence I would like to start by breaking a Washington 
rule. That rule says never credit the rhetoric of the opposing side by 
repeating it.
    I intend to do exactly that. My goal is to show that rhetoric is no 
substitute for the facts. Please watch this advertisement that ran on 
national television and is now on the Internet.
    Almost nothing in this video is representative of the Coastal Plain 
of ANWR. We call it the Coastal Plain because it is just that--a plain. 
There are no trees, there are no deepwater lakes. There are no 
mountains like those in the video. Outside the area affected by H.R. 
39, there are mountains in ANWR--but they are designated as wilderness 
areas, and no one is remotely considering them for energy production.
    Only the polar bear photo could have been taken anywhere on the 
Coastal Plain.
    Now let's take a look at what the Coastal Plain of Alaska actually 
looks like most of the year, with a video produced by Arctic Power. 
This is what I saw when I was there the last day of March 2001, with a 
75 degree below zero wind chill.
    This image of flat, white nothingness is what you would see the 
majority of the year. In fact there are 56 days of total darkness 
during the year, and almost nine months of harsh winter.
    Rhetoric such as that in the advertisement brings in contributions, 
sways with emotionalism, and rarely bothers with all the facts.
    The differences are stark in these two presentations. I intend this 
morning to take you through the proposed legislation and to discuss 
some of the conclusions in the recent study by the National Academy of 
Sciences. I intend to uncover the facts for you as clearly and as 
graphically as time and the Committee's audio-visual technology permit.

WHERE IS ANWR?
    The State of Alaska is too often portrayed on maps as an inset 
along with Hawaii--and it is rarely portrayed to scale. This is the 
size of Alaska if it were superimposed on the lower 48 states. As you 
look at the enormity of the state, keep in mind that almost 140 million 
acres in Alaska are already protected in established conservation 
areas. This is an area larger than the states of California and New 
York put together.
    The Arctic National Wildlife Refuge is located at the frozen 
Northern end of the state on the Beaufort Sea. The 19.5 million acre 
refuge includes 8 million acres that is congressionally designated 
wilderness. In 1980, in section 1002 of the Alaska National Interest 
Lands Conservation Act, President Carter and the Congress set aside 1.5 
million acres of the coastal plain for potential exploration and 
development: the 1002 area. They did so because of initial indications 
of the area's energy potential. That potential has since been 
reinforced by additional study. Only the 1002 area is under 
consideration for resource development in any proposals before the 
Congress.

HOW MUCH OIL ARE WE REALLY TALKING ABOUT
    A constant refrain by those opposed to oil development is that ANWR 
contains only a ``short-term speculative supply of oil''.
    The Coastal Plain is this nation's single greatest onshore prospect 
for future oil. The USGS estimates that it contains a mean expected 
value of 10.4 billion barrels of technically recoverable oil with a 95% 
probability of 5.7 billion barrels and a 5% probability of 16 billion 
barrels.
    Let me put that into context for you. The potential daily 
production from the 1002 area alone is larger than the current daily 
onshore oil production of any lower 48 state. Once again, the estimated 
daily production from ANWR would exceed what is now being produced in 
any individual State, including Texas and Louisiana.
    In 1968, Prudhoe Bay was estimated to hold 9 billion barrels of 
oil. Today, its production level is at 13 billion barrels and it is 
still producing. If we look at the mean calculations of 10.4 billion 
barrels of oil, ANWR would supply every drop of petroleum for the 
entire state of Arkansas for 144 years, Missouri for 71 years or South 
Dakota for 479 years.
    We have now heard for more than 15 years that it isn't worth 
developing on the Coastal Plain because it would take ten years to get 
the oil to market. If we had begun exploration and development when the 
Congress first proposed it, Coastal Plain oil would be in the TAPS 
pipeline today.
    This country is heavily reliant on oil from the North Slope. We 
have already produced far more than half of the oil available at 
Prudhoe Bay. As a result, North Slope oil production is declining.
    Our imports and consumption however are going up. In the early 
1990s, our oil imports surpassed our domestic oil production, and the 
gap is now widening.
    In addition, in some cases, our foreign sources of oil are becoming 
more and more unstable. Oil from the 1002 area could substantially 
reduce our dependence on those sources. Last December, strikers nearly 
shut down Venezuela's oil industry, drastically reducing the production 
of Venezuelan oil and its delivery to external markets.
    In the last several years, Venezuela ranked consistently as one of 
the four top sources of U.S. oil imports. In 2002, Venezuelan exports 
to the United States averaged around 1.5 million barrels a day. This is 
about what we could see from the 1002 area. Venezuelan exports are 
still recovering from the strike. It could be months before that 
country resumes pumping at its earlier levels.
    Our reliance on foreign oil has impacts on the lives of American 
families, farmers and workers--as the current gasoline price increase 
shows. As long as we have planes, trains and automobiles powered by oil 
and gas, we will need a homegrown, stable, reliable source of supply.
    In addition to its resource potential, oil from the 1002 Area could 
be a new source of needed Federal revenues. The Administration's Fiscal 
Year 2004 budget proposes to dedicate the Federal share of the first 
lease sale bonus bids, estimated to be $1.2 billion, to the Department 
of Energy to fund increased renewable energy technology research and 
development over seven years. The Administration's proposal provides 
for a 50/50 split of future coastal plain revenues between the state of 
Alaska and the Federal Treasury, and does not include H.R. 39's revenue 
sharing provisions.
    Now let me turn to some of the fears about the environmental 
impacts of development in ANWR.

USING FACTS TO ADDRESS FEARS
    There are those who raise concerns that one need merely look at the 
Prudhoe Bay oilfields to see what will happen to ANWR's Coastal Plain. 
The National Academy of Sciences report issued last week, plus H.R. 
39's provisions, can actually help us look into the future. H.R. 39 
includes language that would require the Department of the Interior to 
develop the most stringently regulated oil and gas leasing program in 
the United States. The Administration views tough regulation as an 
essential part of the ANWR proposal.
    Because ANWR's reserves are so concentrated, we can require 
exploration technologies that would not be viable anywhere else. We 
will test American ingenuity and technology to develop ways to meet 
these strict standards and remain competitive.
    There is much concern that opening the Coastal Plain will mean a 
proliferation of roads and off-road seismic trails directly affecting 
the tundra, altering animal habitat and behavior, and increasing access 
for hunters and tourists.
    The legislation before you however, specifically prohibits 
development of that kind of infrastructure.
    For example, older 2-D seismic on the Coastal Plain has been cited 
as a main impact to the tundra. This photograph, which was in the New 
York Times yesterday, was taken one year after seismic testing in 1984. 
Today trails are still visible from the air. NAS points out the effects 
of older seismic tests are mainly visual and remain in only a small 
percentage of the disturbed areas. We have learned much from the 
seismic work done in the 1980s about how to protect the tundra from 
this kind of damage. As the New York Times reported, newer 3-D seismic 
methods have much less impact on the tundra than the older 2-D seismic 
tests.
    Current practices now replace gravel roads with ice roads as a 
means of access to isolated drilling locations.
    This slide shows an exploration drill site developed using new 
technology. There is little evidence of seismic trails, ice roads or 
ice pads--once the snow cover is gone.
    The use of low ground-pressure vehicles called Rolligons addresses 
potential problems associated with exploration drilling in areas with 
limited freshwater supply or shortened ice road seasons.
    The development of new Arctic Drilling Platforms could reduce or 
eliminate altogether the need for ice roads or ice pads. This is 
especially useful in areas with limited freshwater supply. These 
elevated platforms, are often referred to as Lego pads because of their 
similarity to the toys that can be stacked in place.
    The bill you are considering today requires the application of the 
best commercially available technology for oil and gas exploration, 
development, and production. New technology offers ways of developing 
and producing oil without the web of roads now found on the North 
Slope.
    The greater reach of horizontal wells and the use of multilateral 
drilling both reduce the need for large pads. In 1970, the average 
drill site was 65 acres. It covered a subsurface area of about 3 square 
miles. Today, a drill pad at the Alpine field is only 13 acres. It 
allows companies to reach more than 50 square miles of subsurface.
    New technology allows extraction of oil from larger areas, reducing 
the number of pads needed to develop an oil field. Because the fields 
use more effective drilling and fewer wells, waste, mud, and cuttings 
are less. Because fuel consumption is lower, there are fewer emissions.
    One group, in its campaign against opening ANWR, states ``Spillage 
from 20 years of oil extraction has substantially degraded habitat on 
the North Slope.''
    However, the National Academy of Sciences (NAS) found that despite 
widespread concern about spills, most spills have been small and have 
had only local effects. Large magnitude spills have generally been 
avoided on the North Slope because of the system of monitoring and 
check valves in all pipelines.
    In fact, the NAS found that, to date, the effects of contaminant 
spills have not accumulated on North Slope vegetation.
    Almost every group opposed to ANWR development cites concerns about 
air quality on the North Slope. However, the NAS report found local air 
quality does not appear to have been seriously degraded by emissions 
from oil and gas production facilities. In fact, Arctic haze is the 
most conspicuous air quality problem on the North Slope. Research 
confirms that arctic haze is a common phenomenon in polar climates and 
results from distant emissions in temperate zones rather than local 
emissions.
    We often see pictures of polar bears in appeals for funds to save 
the Arctic Refuge. One organization begins its plea with a statement 
that development ``could force polar bears to abandon their maternity 
dens, which they dig in the snowdrifts, and leave their cubs to die.'' 
This comes from a 1985 report of one polar bear leaving its den as a 
result of older seismic activity.
    In fact, North Slope development, which is far more intense than 
any potential Coastal Plain development, has had no devastating effect 
on polar bears. Polar bears have thrived since 1967. The NAS report 
found there have been no known cases where polar bears have been 
affected by oil spilled as a result of North Slope industrial 
activities. NAS sums up its polar bear discussion by stating there is 
evidence to support a finding that there have been no serious effects 
or accumulation of effects on polar bears.
    A number of environmental groups express concern about the well-
being of the muskoxen. The animals once were exterminated throughout 
most of Alaska and have been reintroduced on the North Slope. They are 
found at low densities, mostly in riparian areas. Their populations are 
now expanding into other habitats. To date, there have been no 
cumulative impacts on muskoxen from oil activities.
    The U.S. Geological Survey report entitled ``Arctic Refuge Coastal 
Plain Terrestrial Wildlife Research Summaries'' suggests a solution: 
``Avoidance by industry of areas used by muskoxen and the location of 
permanent facilities away from river corridors, flood plains, and 
adjacent uplands could reduce the probability of disturbance and 
displacement of muskoxen.''
    For all activities in the 1002 area, H.R. 39 requires the 
following:
    ``Avoidance, to the extent practicable, of springs, streams and 
river systems; the protection of natural surface drainage patterns, 
wetlands, and riparian habitats'' as well as ``consolidate, site, 
construct, and maintain facilities and pipelines to minimize effects on 
sensitive fish and wildlife habitats and species.''
    By now I am sure every member of this Committee knows there are 
caribou on the Coastal Plain. There are those who have tried to 
convince you they will be irreparably harmed if we have any development 
on the Coastal Plain. Before I turn to a discussion of actual effects 
on caribou, I'd like you to remember the environmental standard in the 
bill before us:
    Section 3 of H.R. 39 requires the Secretary to ensure ``that oil 
and gas exploration, development, and production activities on the 
Coastal Plain will result in no significant adverse effect on fish and 
wildlife their habitat, subsistence resources, and the environment...'' 
This standard is reiterated numerous times throughout H.R. 39.
    The Central Arctic Herd is the caribou herd in the North Slope 
whose range includes the Prudhoe oilfields. Their numbers have 
increased from 5,000 in 1977, at the beginning of oil development, to 
27,000 in 2000. Alaska Fish and Game has published the most recent 
census showing the population is now more than 31,000.
    Many groups express concern about impacts on the Porcupine Caribou 
Herd's calving grounds. We have all heard though, that the Porcupine 
Caribou Herd (PCH) is different from the Central Arctic Herd.
    It's important to keep in mind where the greatest potential for oil 
development is on the Coastal Plain. USGS scientists predict that 83% 
of the oil potential is on the far western side of the 1002 Area.
    This is also the area least likely to see high concentrations of 
calving. In fact, a U.S. Geological Survey study found that under the 
most realistic scenario for developing the 1002 Area there would be a 
95% chance of having no impact on calf survival.
    Finally, it is also important to remember there are years where the 
Porcupine caribou herd does not use ANWR's Coastal Plain at all for 
calving. In fact, in 2000, 2001, and 2002 that was the case.

JOBS FOR AMERICA
    Increased domestic oil production means increased jobs for 
Americans. The innovations in Arctic frontier technology continue to 
create jobs. Organizations that represent many of the workers of this 
nation have pointed out that by tapping into petroleum resources in 
Alaska, we can create jobs and benefit our economy by lessening our 
dependence on foreign oil. Although estimates of job creation vary, it 
is safe to say a large number of new jobs for Americans will directly 
and indirectly result from the exploration, development and production 
on the Coastal Plain.

CLOSING
    The Coastal Plain is the single greatest prospect for onshore oil 
and gas development of anyplace in the United States.
    To equal the potential of from 5.7 billion to 16 billion barrels of 
oil, we would have to explore and develop all potential fields in 
Regions 2, 3 and 4 on this map, nearly half the area of the contiguous 
states.
    Neither this Administration nor the Interior Department arbitrarily 
picked the Coastal Plain for development. I repeat, the Coastal Plain 
is the single greatest prospect for development onshore in our Nation. 
Legislators back in 1980 realized that fact when they created the 1002 
area.
    Legislators today are looking at an ANWR bill that includes the 
strongest environmental protections ever required in an oil and gas 
leasing regime. We have all learned from the past. We now see the most 
environmentally protective development in the world at the newest sites 
on the North Slope. We will improve on that record.
    As we consider the environmental factors affecting the 
Congressional choice about ANWR, one might ask what environmental 
protections are used in other countries on which we rely for 57 percent 
of our oil?
    The legislation doesn't ask developers to use new technology; the 
proposal demands the best available commercial technology. This chart 
shows how drill pads have shrunk since Prudhoe Bay was developed. 
Development today would have to start with the smallest.
    H.R. 39 doesn't just ask that equipment be removed and the land be 
restored. It demands that whatever is taken in must be taken out, and 
the land must be restored to support its previous use for wildlife, or 
subsistence.
    The problems identified by the NAS report were problems mainly 
related to lands regulated by the State of Alaska and subject to 
Alaskan law. Both NPR-A and any future ANWR development would be 
governed by Federal statute and Federal enforcement.
    H.R. 39 doesn't ask that wildlife be protected. It demands that 
developers protect wildlife or we will shut them down. If exploration 
interferes with migration or calving, we will shut it down.
    It took courage back in 1973 for a Democratic majority Congress to 
cast a vote in favor of building a pipeline in Alaska. At that time, 
the debate was similar in character to the ANWR debate taking place 
today.
    But the Senate put national energy security ahead of every thing 
else and in a 50-50 vote--with the Vice President breaking the tie--the 
historic pipeline was approved.
    Sen. Walter Mondale said at the time, ``It has always been my 
position that we need Alaskan oil and that this oil should flow to the 
lower 48 as soon as possible, consistent with environmental safeguards 
and the greatest benefit for the entire country.''
    That pipeline has carried as much as 2 million barrels a day from 
Prudhoe Bay. For twenty years it has provided as much as 20 percent of 
our domestic production.
    That is a 20-20 vision we need to repeat, ``consistent with 
environmental safeguards.''
    Partisanship should once again be put aside for energy security.
    I ask the Committee and the entire Congress to please examine the 
facts as the National Academy of Sciences did, and discount the 
rhetoric or partisanship. This decision is too important to the energy 
security of our country.
                                 ______
                                 
    [Attachments to Secretary Norton's statement follow:]

    [GRAPHIC] [TIFF OMITTED] T5583.001
    
    [GRAPHIC] [TIFF OMITTED] T5583.002
    
    [GRAPHIC] [TIFF OMITTED] T5583.003
    
    [GRAPHIC] [TIFF OMITTED] T5583.004
    
    [GRAPHIC] [TIFF OMITTED] T5583.005
    
    [GRAPHIC] [TIFF OMITTED] T5583.006
    

    The Chairman. In March of 2002, USGS released an expanded 
economic analysis of ANWR oil resources that said that at 
market price of $21 a barrel, six billion barrels of oil were 
economically recoverable from the area. That is more oil than 
the reserves in Texas. Today's market price for Alaskan oil 
delivered on the West Coast is $36, which means that much more 
oil would be economic.
    Can your Department provide the Committee with economically 
recoverable estimates for ANWR based on today's prices?
    Secretary Norton. Yes, Mr. Chairman, those calculations 
were done when the initial USGS estimate was done and we would 
be happy to provide those to you.
    The Chairman. Thank you. I would like to also ask you if 
you are familiar with the Argonne National Laboratory study 
that studied the impact of the Trans-Alaska Pipeline and the 
North Slope oil fields.
    Secretary Norton. I believe I know which study you are 
talking about, but--
    The Chairman. They were the contractor for BLM on the 
study.
    Secretary Norton. OK, yes.
    The Chairman. How does that study characterize the overall 
impacts of oil development on Alaska's North Slope?
    Secretary Norton. I will have to provide you with that 
information in writing.
    The Chairman. OK. I would also like to ask you, in your 
testimony, you talked about that there were currently 140 
million--I believe that is the accurate figure--140 million 
acres of land within Alaska that is currently protected. Could 
you describe for me those lands, how they are protected, under 
what status they are under?
    Secretary Norton. That figure includes the national park 
areas. It includes those areas in the Forest Service, for 
example, within forests that are wilderness areas. It includes 
other areas of refuge. So those are the areas that are not 
multiple-use areas and not regular Forest Service areas.
    The Chairman. So that is 140, approximately 140 million 
acres of land that is set aside under conservation status in 
one way or another that cannot be used?
    Secretary Norton. That is correct.
    The Chairman. And I believe that your testimony stated that 
that is bigger than the size of California and New York 
combined?
    Secretary Norton. Yes. When you put those acreages 
together, there is an area as large as California and New York 
that is currently protected.
    The Chairman. Your testimony went into great detail on what 
the bill demands in terms of environmental protections, and I 
think we are all interested in that aspect of it, and I know 
that we have spent a great deal of time over the years looking 
at what any possible environmental impact could be and trying 
to respond to that, and I believe that this legislation is kind 
of a summation of all that work that has gone together.
    But in your testimony, you talked about the new technology 
that is being used and going from gravel roads to ice roads, 
and in a relatively short period of time, they have discovered 
ways to even further minimize the environmental impact. When 
you look at the future, can you give the Committee any kind of 
idea as to what new technologies are currently being developed?
    Secretary Norton. There are changes taking place all the 
time, and even in just a few short years, you begin to see new 
technologies. Since we began discussions about this in 2001, we 
have seen greater movement toward using technologies that would 
be like offshore oil platforms that would, in essence, not have 
a permanent structure affixed to the ground, but would instead 
have a platform above the ground. And so that would minimize 
even beyond the current small gravel pads the impacts on the 
tundra.
    There are other things that are being researched as ways to 
try to minimize the effects and to try to have more and more 
environmentally protected technologies. As we learn more, as we 
go through the process, as those new technologies come on-line, 
the standards that would be applied to development would 
themselves change. It has to be the best commercially available 
technology that is applied whenever any activity goes forward. 
And so as that standard is enhanced by new technological 
development, the bar keeps going up.
    The Chairman. Finally, I think we all know that if 
exploration is done, that there will be some impact and you 
will be able to see something there if you fly over it. But I 
think the argument that you cannot have economic development 
and protect our environment is a false argument and we can and 
have in the past been able to do a project like this without 
having a significant impact on the environment.
    I appreciate your testimony a great deal. I think you did a 
fantastic job.
    Before I recognize Congressman Markey for his questions, I 
will just say that I did receive a letter from Congressman 
Markey requesting a hearing on H.R. 770 and I responded to that 
letter that was sent to me, and just for the record, I would 
like to read one paragraph out of the letter.
    ``I am looking forward to holding a field hearing on all 
matters related to ANWR in Kaktovik, Alaska, a location which 
is in the heart of the area under consideration, and hopefully 
in that hearing we can further look at a number of the issues 
affecting ANWR and their impact.'' I invite Mr. Markey and all 
the members of the Committee to attend that field hearing 
because I do believe it is extremely important that we continue 
to work on this issue regardless of the outcome of this 
legislation.
    Mr. Markey?
    Mr. Markey. Thank you, Mr. Chairman, and I thank you for 
the hearing. I just wish it would be conducted before we would 
actually have a markup of the bill here in the Natural 
Resources Committee. If you would give me that commitment, that 
we would actually have the hearing first and then the markup, I 
think the sequence, at least, would reflect the importance that 
the members would be exposed to those issues. I know that that 
is not going to happen because there has already been a 
determination on the part of the majority, the Republican 
Party, that they want to drill in the Arctic Refuge.
    Madam Secretary, I have been on this Committee now for 27 
years--so I was back here in the 1970's and the great Mo Udall 
used to sit up where Mr. Pombo sits now and he constructed a 
very nice balance for us on the Committee. He led the effort to 
double the fuel economy standards for vehicles in the United 
States, from 13.5 miles per gallon to 27 miles per gallon from 
1976 to 1986. Gerald Ford, a Republican President, signed that 
bill even though he came from Michigan.
    At the same time, Mo was able to say to us, and it also 
gives us the chance to look at the Arctic and preserve that for 
generations to come because we are going to ensure that the 
technology which consumes oil, and we know that 70 percent of 
all oil consumed in the United States goes into gasoline tanks, 
is done in a way which is most technologically efficient.
    Now, sad to say, Madam Secretary, the United States now 
averages only 24 miles per gallon. We have gone backwards over 
the last decade and we now only average what the United States 
averaged in 1981.
    Now, I marvel at the wonderful technological capacity which 
you believe will make it possible for us to drill in a pristine 
refuge without leaving any damage, but at the same time, you 
represent the Bush administration which is opposing any 
significant increase in the fuel economy standards for vehicles 
in the United States.
    Secretary Norton. As a matter of fact, Representative 
Markey--
    Mr. Markey. If I may, just let me finish my point. And as a 
result, what we are confronted with here is an imperative that 
you say forces us into this Arctic Refuge which is avoidable if 
a goal was set to increase to 35 or 40 miles per gallon the 
fuel economy standards for our country, which the Bush 
administration adamantly opposes. In fact, last year on the 
House floor, I had an amendment which would have put the fuel 
economy standards at 27 miles per gallon, which is the bill 
that Gerald Ford signed in 1975, and the Bush administration 
opposed putting the fuel economy standards back to where it was 
in 1975 as a law.
    And so to go into the Arctic to provide oil for vehicles 
that are only going to become less and less efficient as each 
generation goes by, unless the Bush administration steps up, of 
course necessitates us going into the refuge. But I ask you, do 
you support the increase in fuel economy standards to 35 or 40 
miles per gallon?
    Secretary Norton. I very much support the idea of having 
better fuel economy for vehicles. The Administration, for 
example, just proposed the largest increase ever in the fuel 
economy standards for sport utility vehicles. The question is 
safety and whether you go about setting those standards by 
having Congress decide what the standards should be, or whether 
you have a process that allows the safety of families to be 
considered as a part of setting those fuel economy standards.
    Mr. Markey. But as you know right now, Madam Secretary--
    Secretary Norton. What we want to see is one--
    Mr. Markey. --a family driving in a regular car is 16 times 
more likely to have a fatality in that vehicle as someone in an 
SUV. So what is happening is as these SUVs get bigger and 
bigger and less and less fuel economical, every other vehicle 
is becoming much more dangerous for families to be driving in. 
And so, yes, there is a safety question, but the question is 
how big is too big in terms of every other vehicle on the 
highway, and that is linked to the fuel economy standard. So I 
just think that the Administration itself is in technological 
denial.
    Secretary Norton. For the long term, the President has 
proposed the Freedom Car and Freedom Fuel Initiative that would 
move us toward hydrogen fuel cell vehicles, and that is 
something that really gets us beyond the fuel economy debate--
    Mr. Markey. I agree with you, and I hope he puts on the 
goal the non-fat cheese pizza as a long-term goal, as well. 
Meanwhile, let us make sure we all have low cholesterol diets 
today and let us make sure also that we have vehicles that are 
efficient, because we may never have a hydrogen car and we may 
never have a fat-free cheese pizza. So it is a dream. It is 
wonderful. Let us hope we get it. But today, we have off-the-
shelf fuel economy technology that we can build into vehicles, 
the whole fleet, to give Americans a choice of a fuel economy 
standard for SUVs that is consistent with their goal to protect 
the environment.
    And on that front, H.R. 39 applies the leasing requirements 
of the National Petroleum Reserve to the Arctic Refuge, but a 
GAO study last year found that, currently, there is a $6 
billion liability for cleanup and reclamation on the North 
Slope. The Department of Interior's comments on the report 
included a promise to conduct a review of the financial 
assurances in order to protect the environment and taxpayers. 
Yet, the $6 billion liability still is sitting there staring us 
in the face.
    Why should we invite this massive cleanup liability upon 
the Arctic Refuge while it has yet to be mitigated outside the 
refuge on the North Slope? What guarantee would the American 
public have that the oil companies or the Department of 
Interior will get serious in the refuge when they haven't shown 
that seriousness on the rest of the North Slope?
    Secretary Norton. We have no jurisdiction--
    The Chairman. The gentleman's time has expired. I will 
allow the Secretary to answer his question and then we are 
going to move on.
    Secretary Norton. We have no jurisdiction over the area 
where that $6 billion figure comes from. That is the State 
lands area from the older Prudhoe Bay facilities. In NPR-A now, 
we have financial assurances and I have asked my staff to look 
at even greater strengthening of the financial assurances there 
and elsewhere across the country. I think it is very important 
to have that. That is why we demanded greater assurances for 
continuation of the Trans-Alaska Pipeline System, as well, than 
what is required by law or what has ever been required before.
    The Chairman. The gentleman's time has expired.
    Mr. Duncan?
    Mr. Duncan. First of all, I want to thank you, Mr. 
Chairman, for calling this very important hearing this morning 
and I want to thank the Secretary for her, I think, very 
dispassionate factual and fair presentation of the case in 
regard to this work being done in ANWR.
    I think one of the problems that we have is that people 
look at a map of the entire country on one little page in a 
book and they really can't comprehend how huge this area is, 
this 19.8 million acres. I represent the Great Smoky Mountains 
National Park and it is by far the most heavily visited 
national park in the country, with almost ten million visitors 
a year, and all of those millions of people come there and they 
think that area is huge and yet it is 600,000 acres. The ANWR 
is 35 times the size of the Great Smokies. You just can't even 
comprehend how huge this area is.
    I think I am one of the small percentage of members that 
not only has been to ANWR, but I have been there twice. I have 
been to Prudhoe Bay. I have been to Barrow. I have been to 
Kaktovik. And I am told that the 270 or so people who live in 
Kaktovik are the only people who actually live inside this 19.8 
million acres.
    I was interested in the advertisement that you showed, 
Madam Secretary, because when you go up there, you see that 
there is not a bush or a tree as far as the eye can see. In 
fact, my first visit there, I met a lawyer from Anchorage who 
had practiced law in Tennessee several years earlier, and he 
was not connected to any group, but when he found out where I 
was going, he told me--he laughed and he said, if you see 
anything taller than two feet up there, it was put there 
yesterday by man.
    And yet the area on which people wish to drill is not even 
10 percent of this ANWR. It is not even 1 percent. In fact, it 
is not even one-tenth of 1 percent. I understand it is, at 
most, a few thousand acres, a minuscule portion, a minuscule 
portion of this area.
    Then last year, a year and a half ago when we confronted 
this issue, I read in Time magazine that there were only 1,000 
visitors to ANWR, hikers and backpackers and so forth, in the 
year prior to that, 1,000 into this 19.8 million acres. It is 
really amazing.
    Yet as the ad showed, the people who are opponents to this 
have to resort to false or misleading advertisement to keep 
their contributions up, and I think that is what this is 
primarily about, is getting contributions for some of these 
groups.
    But, you know, you don't hurt, Mr. Chairman, you don't hurt 
the wealthy upper-income people who contribute to these groups 
when you destroy these jobs and keep these oil prices high or 
drive them higher. Who you hurt are the poor and the lower 
income and the working people of this country. I wish that we 
could keep some of those people in mind when we are considering 
this.
    I don't have any questions at this time, but I do want to 
thank you for the presentation that you made because I think it 
was a very fine presentation, Madam Secretary, and I yield back 
the balance of my time.
    The Chairman. Thank you, Mr. Duncan.
    Mr. Miller?
    Mr. Miller. Thank you, Mr. Chairman, and Madam Secretary, 
thank you very much for your testimony. I, too, am one of those 
who has served on this Committee a long time and have been 
around this issue for a very long time. I have tried to study 
it from both sides of the debate. I have spent a lot of time 
with the oil companies in my district, a lot of time with CEOs 
of the oil companies involved in the Arctic and have looked at 
a lot of their proposals for reducing the footprint and the 
technologies and it is truly amazing.
    But I am not sure that this debate is really about that. As 
one of the CEOs of the major players said, ``We know we can do 
it. We know we can extract it. We think we can do it without 
environmental damage. But this is a value question for the 
American people and we will have to wait and see what their 
judgment is.'' And I think that is what we are down to at this 
point. It is a value judgment.
    You can call this a white nothingness or whatever, I forget 
what your phrase was in your opening statement, in March. I 
have been there and it looks a lot like that. But it also has a 
huge diversity of characteristics that warrant its protection, 
and that is why the Congress made that decision.
    It may not have the 300-foot Sequoias that we have in 
California. It may not have the deep canyons of Yosemite. It 
may not have whatever the Great Smokies have in terms of their 
values. But it does have values that the American people have 
come to prize, and the American people prize many areas of the 
world where they have never been. They think the Gobi desert is 
valuable. They think the Arctic is valuable. They think the 
Antarctic is valuable. They think that the Andes are valuable. 
They have never been there, and in likelihood, they may never 
get to go there, but that doesn't remove their values.
    This is a matter, we can have dueling reports and dueling 
statistics about whether or not this will increase or not. I 
can read one here from the Department of Energy which says that 
if you take the expected production of ANWR in 2020, it will 
reduce our dependence on foreign oil from 62 percent to 60 
percent. If you got really excited, you would go from 62 
percent to 57 percent. That is a lot of oil. That is a lot of 
money. But the fact of the matter is, it also says that we have 
dramatically increased domestic production, but we will not 
produce our way out of the crisis we have.
    I happen to support the idea of Mr. Markey and many others, 
that until such time as we seriously confront the usage of this 
oil, you are never going to make the hurdle on this debate, 
because I think it is very simple for the American people. If 
this oil is so valuable, if it is so valuable as this 
Administration says and the other proponents of drilling it, if 
it is that valuable, then why do we waste it? If it is so 
critical to our national economy, why do we waste it? If it is 
so critical to our national defense, why do we waste it? If it 
is so critical to our standing in the world and our 
relationships in the Middle East, why do we waste it?
    And that is what they see, is that you want to go get what 
you consider the most valuable commodity in the world, the most 
geopolitically sensitive commodity in the world, and you want 
to put it into a car that gets 12 miles a gallon. It doesn't 
make any sense to the American public. It must not be that 
valuable.
    But the fact is, it is that valuable, and at a time when we 
say to the oil companies, you can go drill, and we mandate that 
you use, what is the phrase, the most commercially available 
technology, best commercially available technology, I think is 
the phrase, but we don't turn around and say to the automobile 
industry, we mandate that you use the best commercially 
available technology to achieve the mileage standards.
    But until such time as you do that, I don't think you can 
make the hump here with the American people because they do 
value the Arctic Refuge. They do value its characteristics and 
they don't understand why the country wouldn't treat this as a 
valuable commodity. But we don't. We waste it in our lighting 
and we waste it in our transportation, and those are the two 
biggest uses where we can have immediate changes, not the 
Freedom Car or the Freedom Fry, but today, tomorrow, and the 
next day. It is all available.
    We have demonstrations down here on the Mall. Many of us 
have gone down and visited General Motors when they bring all 
the college students to town to redesign the cars. UC-Davis has 
had one, Riverside has won one of the competitions, where they 
have added mileage to SUVs of ten, 15, 20, 25 percent. These 
are college students working for 3 months over the summer.
    So I don't think we are going to advance this argument much 
further and I think that until such time as this country gets 
very, very serious about energy conservation and the wise use 
of this oil, that this will continue to be stalemated because 
it doesn't justify the invasion of the Arctic Refuge to 
continue to waste this resource and to continue to risk our 
national security in the manner in which we use the imported 
oil.
    So thank you very much for your testimony. I am sure we 
will all see one another again on this issue. Thank you, Mr. 
Chairman.
    The Chairman. Thank you.
    Mr. Young?
    Mr. Young. Thank you, Mr. Chairman, and Madam Secretary, I 
was not here for your testimony. I was here when you testified 
on this issue before, and I would like to remind Mr. Miller, 
why didn't you just say this is Speech A, and I would say mine 
is Speech B and we can save a lot of time. It is the same 
speech I have heard for the last 30 years.
    I sat right in this room when we passed the Alaska National 
Lands Act and the Congress set aside this land to be developed, 
the wishes of the Congress for the good of this nation. Scoop 
Jackson did this. Mo Udall did this. They agreed to this.
    And I sit here and listen with amazement when people talk 
about the ANWR or the 1002 areas. Madam Secretary, you are 
right. The people that live there, the people that know what it 
is like support the drilling. The people of Alaska support the 
drilling and it would be good for this nation.
    Now, I have offered many times--in the energy conference we 
had last year, I offered them one time, let us just take the 
native oil and let them use that oil. That is their oil. But 
the forked tongue of the white man is working again. We gave 
them the land for their economic well-being. We gave them the 
land for their social well-being and it is their land and now 
we say, you can't use it. Now, that is wrong. If you don't want 
to take the rest of it, fine. You can have the decision. But to 
do this to those native people up there is absolutely wrong, 
and that is what we are doing.
    Now, as far as the American people not supporting this, the 
American people do support opening ANWR right now. They do 
support it. But we have a few people in this Congress who 
pander to the special interest groups. The environmental 
community does not want this nation to have the great economy 
they had in the past. That is really what this is all about.
    This is a small piece of land, 2,000 acres, and that is 
all, 2,000 acres, and you would think Alaska didn't have other 
acreage up there. Four-hundred-and-forty-seven million acres 
you set aside. That is bigger than all the States on this side, 
about five times bigger than your State, set aside for no other 
use than wildlife and viewing and wilderness, and we are 
talking about 2,000 acres.
    So, Madam Secretary, I get a little bit excited by this 
because I have been fighting it a long time, and I will win 
this battle. It may not be this year, but it will happen, and I 
will stay here until it is done. I will live to be 150 years 
old until it is done, and you will be dead and you will be 
dead. You won't be, but I will be here.
    [Laughter.]
    Mr. Young. Thank you, Mr. Chairman.
    The Chairman. You heard the bells going off. We have a vote 
on the floor. We are going to temporarily recess the Committee. 
As soon as the votes are complete, we will come back.
    Mr. Markey. Mr. Chairman?
    The Chairman. Mr. Markey?
    Mr. Markey. I am just going to go get my cholesterol count 
so I can make sure I stay alive as long as is necessary to 
outlive Mr. Young.
    [Laughter.]
    [Recess.]
    The Chairman. I am going to call the hearing back to order.
    Thank you, Madam Secretary. I apologize for the delay. We 
are going to start with Mr. Renzi.
    Mr. Renzi. Thank you, Mr. Chairman. Madam Secretary, thank 
you for your testimony. It was intriguing and really, from a 
knowledge base, it was a good teaching tool for me.
    I want to let you know that the Ranking Member spoke about 
Mo Udall, and it is interesting to note, Mo Udall built a 
concrete ditch through the State of Arizona, my home State, 
over 330 miles long to bring water out of the Colorado River 
through pristine desert and ecosystems, sensitive habitat, 
because he believed that water was absolute to the future of 
Arizona.
    During your testimony, you talked about the existing 
pipeline and the decline in the existing oil supplies and how, 
eventually, that pipeline will be empty at some point in the 
future. What I would like to talk to you and ask you about is, 
if we look at the existing pipeline and we look at the length 
of the little stem that needs to be complete to get us over to 
the area where the natural reserves are, how far are we 
talking, approximately, and what kind of impact, and what kind 
of use, obviously, will there be for the existing pipeline if 
we go in and pull these resources out? Thank you.
    Secretary Norton. Thank you. As each of the new facilities 
has been constructed, there are pipelines that connect it to 
the end of the Trans-Alaska Pipeline System so the oil can then 
be transported through that pipeline.
    The current production is taking place in an area that is 
as close as 30, 35 miles to the edge of ANWR, and so a pipeline 
would have to be constructed basically 35 miles, 40 miles, and 
then further depending on how far into the 1002 area the 
development occurred. It is essentially just the construction 
of a pipeline. Those are suspended, so there just are some 
pylons on the tundra that would be the effect of the pipeline.
    Mr. Renzi. We are really looking at just 35 or 40 miles to 
get us at least to the initial edge of where we need to go, and 
then we are able to go back and tie into the main pipeline to 
take us down to Valdez.
    Secretary Norton. Yes, and there is certainly capacity in 
the current Trans-Alaska Pipeline to carry the additional oil. 
There is no need for an additional amount of overall pipeline 
capacity because the Trans-Alaska Pipeline at one point carried 
almost two million barrels a day. Today, it is down to about 
half of that and continuing to decline as the Prudhoe Bay oil 
itself is tapped out and the production there declines.
    Mr. Renzi. Thank you. Knowing Mo Udall as I did, I am sure 
he would have been in favor of it. Thank you.
    The Chairman. Mr. Hinojosa?
    Mr. Hinojosa. Thank you, Mr. Chairman. This is my first 
meeting for your Committee and I want to reserve the right to 
ask questions of the Secretary later on, if I may pass this 
time. I would appreciate that.
    The Chairman. Well, welcome to the Committee, and if we do 
have a second round before the Secretary is excused, you are 
more than welcome to ask questions, or after the next 
questioner, you may, as well.
    Mr. Hinojosa. Thank you, Chairman Pombo.
    The Chairman. Mr. Pearce?
    Mr. Pearce. Thank you, Mr. Chairman. Madam Secretary, in 
discussing the techniques of drilling, are there other 
properties that the Department of the Interior manages in 
Alaska?
    Secretary Norton. We manage a huge area of lands in Alaska. 
It is millions upon millions of acres.
    Mr. Pearce. And, Madam Secretary, have the techniques of 
drilling been implemented in other areas of Alaska?
    Secretary Norton. Actually, the area that we administer 
where the energy potential is being utilized on-shore is the 
National Petroleum Reserve, and that is still at the early 
stages of development there. So primarily, the activities where 
that new technology is being used are on State lands or native 
corporation-owned lands, and in those areas, we are seeing the 
new technology having those examples of reaching underground 
for miles in order to tap the subsurface resource while leaving 
the surface undisturbed.
    Mr. Pearce. Mr. Chairman, Madam Secretary, are those 
techniques sustainable? In other words, can the companies 
afford to do that and still withdraw the production, and 
second, are the effects on the environment basically what the 
developers of the technology are claiming?
    Secretary Norton. The ability to use that technology 
depends on the size of the resource that is available, and so 
in many areas of the lower 48, you certainly could not support 
that kind of expensive technology. The resource that is 
available just would not justify that sort of expenditure.
    In Alaska, however, the experience in other areas and the 
experience on the North Slope is that that technology is 
certainly justified. The areas where we are seeing the greatest 
reach underground with the horizontal drilling are areas on the 
North Slope, and so that is working out in reality. They are 
constantly setting new records for how far they can reach 
underground without an impact on the surface. So my 
understanding of that technology is that it is working out very 
well. It allows you to have your wells on the surface located 
in a very small area and then reach out for a long distance 
underground.
    Mr. Pearce. Mr. Chairman, Madam Secretary, what are some of 
the daily outputs of these wells that we are drilling there? Do 
you happen to know that? It is a fairly technical question, 
but--
    Secretary Norton. I would be happy to provide that for you. 
We do have, overall, the field production is in one of the 
handouts. I know there is information available about the 
production from various facilities. I don't have that off the 
top of my head.
    Mr. Pearce. Thank you, Mr. Chairman. Just a concluding 
statement, that I think the point has been well made by those 
who maybe are opposing, but the same point will apply to those 
who are in favor of it, that the consumers will ultimately 
decide exactly what the values are in this, that as the price 
escalates, the price of gasoline at the pump goes over $2 to $3 
because of restricted supplies, I think that the voters will 
send a very clear message what their values are in this 
particular relationship. Mr. Chairman, I support this project 
and appreciate the chance to speak.
    The Chairman. Thank you.
    I will just say that we are intending on holding a field 
hearing in the region and I would highly recommend that members 
of the Committee take advantage of that opportunity to go up 
there and actually see it. I can tell you from personal 
experience, the picture that you have got in your mind's eye of 
this region is inaccurate, because once you go up there and 
actually see it, you see what they are doing, how the 
exploration is occurring, what the area is like, what the 
tundra is like. It gives you a very different picture and a 
much clearer view of what is being attempted to be done in ANWR 
and in this particular region.
    Are there any further questions the Committee has of Madam 
Secretary?
    [No response.]
    The Chairman. Seeing none, Ms. Norton, before I excuse you, 
I just wanted to say that I very much enjoyed your testimony. 
It was very well done, very well thought out and very 
informative and it is something that I think will prove to be 
of great value to this Committee as we move forward in our 
deliberation and any possible future action that we may have on 
ANWR and including that as part of the energy bill.
    This is an issue that we have been working on for a long 
time and there are obviously a lot of opinions, a lot of 
opposed and proponents of this particular project. But I think 
that what you brought to the Committee will be very helpful and 
I thank you for your testimony.
    I will also say that I know that there are members who may 
have further questions. They will submit those to you in 
writing and if you could answer those in a timely fashion so 
that they can be included in the hearing record, it would be 
appreciated by the Committee.
    Secretary Norton. We would be happy to do so.
    The Chairman. Before I excuse you, I am going to just 
briefly go to Mr. Inslee. I know that he was trying to get over 
here before you were excused, and since I was a little slow in 
my concluding statements, he made it--
    [Laughter.]
    The Chairman. --so Mr. Inslee?
    Mr. Inslee. Thank you for your courtesy. Madam Secretary, 
it strikes me that you have a very difficult job for a lot of 
reasons, and one of the reasons is I think people broadly feel 
about the Arctic a little bit the way they feel about the Mona 
Lisa, in that it is something most Americans will never see, 
although they might like to. It is something they feel that has 
a very unique beauty and is very treasured in the country. And 
it is something that they understand that industry has made 
very, very impressive gains in technology to try to reduce the 
amount of the footprint that would be put at least on the 
surface of the refuge.
    But I think that they feel very strongly that a small 
footprint is like putting a small moustache on the Mona Lisa 
and that hundreds or thousands of acres is at least a moustache 
on this wilderness that is currently treated as a very 
successful refuge.
    And so I think you have got a very difficult job to 
convince the American people that this scar, and it will be a 
scar no matter what technology can afford us, right in the 
heart--and I have been there and it is the heart of this 
refuge, and I think the American people's assessment is more 
accurate than some of the assessments I have heard today, 
calling this sort of a white wasteland or something.
    I have been there, and I have to tell you, I have been to 
Yellowstone, Glacier National Park, which may not have glaciers 
in 100 years, by the way, because of global warming, we are 
going to have to rename it Puddle National Park or something. I 
have been to the bayous of Louisiana. I have been to the rain 
forests of the Olympics. I have been a lot of different places 
in this country.
    But the single most impressive from a biological standpoint 
place I have ever been is the Arctic National Wildlife Refuge 
because, at least for a period of about 2 months, it is the 
single most exciting, prolific breeding ground for life in 
America. The bird life, the caribou, the grizzly, it is a 24-
hour explosion of life there. And I am convinced that at least 
the 600,000 people I represent feel very strongly about 
preserving that no matter what technology does.
    I want to ask one question about your presentation. In your 
presentation, on your chart--somebody took the chart down, I am 
sorry--but in your chart, it made reference--I may not get this 
language exactly correct, but it made reference to using the 
best available environmentally sensitive technology. I think it 
was No. 2 in the list. I don't know if you have that language.
    Secretary Norton. It is the best commercially available 
technology.
    Mr. Inslee. The best commercially available technology. I 
want to ask you about that, because what I have heard you say 
is the Administration would commit to use the best available 
commercial technology, which is good. The problem is, your 
administration you work for has totally failed America in using 
the best commercial available technology in the energy field 
because it has an abysmal record in trying to use the best 
available commercial technology in our transportation sector, 
because the best available commercial technology, which we 
stopped making improvements on in the 1980's, is not being 
used, and the Administration you work for has resisted efforts 
to make terribly modest improvements of three miles a gallon in 
our fleet.
    And you know and I know that if we had simply continued 
making improvements in our mileage of our vehicles that we made 
in the 1970's and early 1980's, if we simply had continued on 
that pace, we would have freed ourselves from all of the oil in 
Iraq and probably all of the oil of Saudi Arabia.
    So the question I have is, what do you personally think 
about your administration's refusal to engage in any 
substantial improvement of using really commercially available 
technology, the best available technology in our transportation 
sector? What do you think about that?
    Secretary Norton. I believe you are ignoring a very large 
part of what this Administration has done. The Freedom Fuels 
and Freedom Car approach that the President has proposed is a 
significant step forward. It would be the next generation of 
automobiles, and his proposal is going to move us much more 
quickly toward hydrogen fuel cell-powered automobiles. It gets 
us beyond all of this debate about the regular gasoline-powered 
engines.
    In the much shorter run, we have to deal with our cars as 
they are currently gasoline-powered. We have proposed that 
during that interim time period, as part of the President's 
energy plan, there be a tax credit for alternative fuel and, 
for example, the electric and gasoline combo-powered cars. I 
think that allows individual families to make the choice to 
have a cleaner technology car. I think that is a great 
approach, and that is part of our proposal.
    We also believe that we ought to be increasing fuel 
efficiency and we have proposed the largest increase ever in 
fuel efficiency standards for sport utility vehicles and other 
light trucks.
    The major difference is whether the safety assessment--how 
we protect America's families in their automobile safety--be a 
choice made by the experts in automobile safety as opposed to 
having that be done by a Congressional fiat.
    The Chairman. The gentleman's time has expired. I look 
forward to the entire debate on CAFE standards as we get into 
it, because I believe that we have had some selective choosing 
of what the facts are on CAFE standards.
    Madam Secretary, I appreciate your testimony. We are going 
to excuse you at this time, but there are other members who do 
have questions that they will submit to you in writing. Thank 
you very much for your testimony.
    Secretary Norton. Thank you very much, and thank you for 
your patience today.
    The Chairman. Thank you.
    The Chairman. I would like to call up our second panel of 
witnesses, Ms. Tara Sweeney, representing the Governor of 
Alaska; Ms. Jamie Clark, representing the National Wildlife 
Federation; Mr. Peter Van Tuyn of Trustees for Alaska; and Ken 
Boyd, the former Director of Oil and Gas for Alaska, if you 
would join us at the witness table.
    I would also like to state that James Schlesinger, who had 
intended to testify in favor of opening ANWR as part of our 
national energy security, was forced to cancel this morning. He 
will submit testimony for the record, and with unanimous 
consent, that will be included at the appropriate place.
    The Chairman. If I could just, before you guys get too 
comfortable, if I could have you stand and raise your right 
hand.
    Do you solemnly swear or affirm under the penalty of 
perjury that the responses given and statements made will be 
the whole truth and nothing but the truth?
    Ms. Sweeney. I do.
    Ms. Clark. I do.
    Mr. Van Tuyn. I do.
    Mr. Boyd. I do.
    The Chairman. Let the record show that all of the witnesses 
answered in the affirmative.
    Ms. Sweeney, we are going to begin with you. Just as a 
reference point, you will be allowed 5 minutes for your oral 
testimony. Your entire written testimony will be included in 
the record. The lights that appear in front of you on the 
witness table have a green light, a yellow light to sum up, and 
then a red light to stop. So if you could try to keep to the 
time limit as much as possible, it would be appreciated.
    Ms. Sweeney?

 STATEMENT OF TARA MAC LEAN SWEENEY, SPECIAL STAFF ASSISTANT, 
            OFFICE OF THE GOVERNOR, STATE OF ALASKA

    Ms. Sweeney. Good morning, Mr. Chairman, distinguished 
members of the Committee. Thank you for inviting the State of 
Alaska to present testimony on H.R. 39 today. My name is Tara 
Mac Lean Sweeney. I am the Special Staff Assistant to the 
Governor of the State of Alaska for Rural Affairs and 
Education.
    On behalf of Governor Frank Murkowski, I would like to 
reaffirm Alaska's support for responsible development of the 
Coastal Plain area located within the Arctic National Wildlife 
Refuge, or ANWR. Responsible development of ANWR's Coastal 
Plain is critical to the economic well-being of the residents 
of Alaska and the national security of the United States.
    It is also very important to my people, the Inupiat 
Eskimos, who live on the North Slope. Oil development is our 
only economy. It provides our jobs, our tax base, and our 
essential public services. As you debate and act on this 
important issue in the session ahead, I urge you to consider 
the impact your decisions will have on the residents of Alaska, 
the citizens of this great country, and the Inupiat people of 
the North Slope.
    Alaska crude oil production is very important to the 
nation. Over the years, Alaska has produced and safely 
transported over 13 billion barrels of oil from the North Slope 
oil fields to U.S. consumers. Every day, the most populated 
State in the nation, California, consumes about 1.8 million 
barrels of oil while producing about 890,000 barrels of oil. 
This is a production-to-consumption deficit of almost one 
million barrels per day, of which over half are imported from 
foreign countries.
    One million barrels is the amount of spare capacity in the 
Trans-Alaska Pipeline, which can be filled by oil produced from 
ANWR. In other words, if Congress would open the Coastal Plain 
of ANWR, California would not have to import any foreign oil.
    Mr. Chairman, I would appreciate a few minutes of the 
Committee's time to address H.R. 39 in my separate and personal 
capacity as an Alaska native. I am an Inupiat Eskimo raised in 
Barrow on Alaska's North Slope. The very large majority of the 
Inupiat people support opening the Coastal Plain of ANWR. They 
support this action because the Nation needs our oil and 
natural gas resources. They also support it because these 
energy resources can be developed safely with no harm to our 
homeland, our environment, our caribou, and our fish and 
wildlife.
    We know this because my people are the stewards of the 
North Slope's lands, waters, and wildlife. The area is our 
kitchen. Our villages depend on our wildlife for 50 to 70 
percent of our subsistence diet. This subsistence dependence 
means that the Inupiat people insist on the best practices, the 
best technology, and the best regulation in the development of 
North Slope energy resources.
    My people have achieved this important objective through 
our local government, the North Slope Borough. The Borough has 
jurisdiction over the permits required for geologic surveys, 
exploration, and production.
    The Inupiat people provided the input necessary to 
accommodate development and to meet America's need for oil 
while protecting our traditional subsistence lifestyle and 
cultural processes. We did not ante up our land with no 
protection provisions for caribou and other wildlife. Instead, 
we created a Planning and Zoning Department in the North Slope 
Borough to oversee the industry permits and provide an 
opportunity for our area experts, our hunters, to submit 
comments and concerns. We created a Fish and Wildlife 
Department to monitor wildlife and make recommendations on how 
to protect our subsistence resources.
    We did not go into the prospect of oil development lightly. 
It is with our involvement that development and wildlife can 
coexist today.
    Development for the Inupiat people means the privilege of 
providing running water and flush toilets; police, fire, and 
search and rescue protections; local schools for our children; 
local health care facilities; and an opportunity to champion 
our own causes.
    As native people, we do not have a hierarchy for 
traditional food. The caribou is just as important to our souls 
as the whale. We cannot live without both. This is an important 
point to remember when deliberating this issue. We would not 
recommend development if it sacrificed our access to caribou.
    Mr. Chairman and members of the Committee, thank you for 
your attention. On behalf of the State of Alaska, I want to 
thank Chairman Pombo for scheduling this most important 
hearing. I also want to thank Congressman Young for introducing 
H.R. 39 and keeping this issue front and center.
    The Chairman. Thank you.
    [The prepared statement of Ms. Sweeney follows:]

     Statement of Tara Mac Lean Sweeney, Special Staff Assistant, 
                Office of the Governor, State of Alaska

    GOOD MORNING. MR.CHAIRMAN, DISTINGUISHED MEMBERS OF THE COMMITTEE, 
THANK YOU FOR INVITING THE STATE OF ALASKA TO PRESENT TESTIMONY ON 
H.R.39 TODAY. MY NAME IS TARA MAC LEAN SWEENEY. I AM THE SPECIAL STAFF 
ASSISTANT TO THE GOVERNOR OF THE STATE OF ALASKA FOR RURAL AFFAIRS AND 
EDUCATION.
    ON BEHALF OF GOVERNOR FRANK MURKOWSKI I WOULD LIKE TO REAFFIRM 
ALASKA'S SUPPORT FOR RESPONSIBLE DEVELOPMENT OF THE 1.5 MILLION ACRE 
COASTAL PLAIN AREA LOCATED WITHIN THE 19.6 MILLION ACRE ARCTIC NATIONAL 
WILDLIFE REFUGE (ANWR). RESPONSIBLE DEVELOPMENT OF ANWR'S COASTAL PLAIN 
IS CRITICAL TO THE ECONOMIC WELL-BEING OF THE RESIDENTS OF ALASKA AND 
THE NATIONAL SECURITY OF THE UNITED STATES. IT IS ALSO VERY IMPORTANT 
TO MY PEOPLE, THE INUPIAT ESKIMOS, WHO LIVE ON THE NORTH SLOPE. OIL 
DEVELOPMENT IS OUR ONLY ECONOMY. IT PROVIDES OUR JOBS, OUR TAX BASE AND 
OUR ESSENTIAL PUBLIC SERVICES.
    AS YOU DEBATE AND ACT ON THIS IMPORTANT ISSUE IN THE SESSION AHEAD, 
I URGE YOU TO CONSIDER THE IMPACT YOUR DECISIONS WILL HAVE ON THE 
RESIDENTS OF ALASKA, THE CITIZENS OF THIS GREAT COUNTRY AND THE INUPIAT 
PEOPLE OF THE NORTH SLOPE.
    ALASKA CRUDE OIL PRODUCTION IS VERY IMPORTANT TO THE NATION:
    <bullet> THE PRUDHOE BAY FIELD WAS ORGINALLY ESTIMATED TO CONTAIN 
ROUGHLY 9 BILLION BARRELS OF RECOVERABLE OIL; BUT AFTER 30 YEARS OF 
ADVANCEMENT IN TECHNOLOGY, A TOTAL OF 13 BILLION BARRELS OF OIL HAS 
ALREADY BEEN PRODUCED. (ALYESKA PIPELINE SERVICE COMPANY)
    <bullet> RESPONSIBLE DEVELOPMENT OF THE COASTAL PLAIN COULD 
PRODUCE BETWEEN 5.7 BILLION BARRELS TO 16 BILLION BARRELS OF NEW OIL. 
(USGS ASSESSMENT, 1998)
    <bullet> OVER THE YEARS, ALASKA HAS PRODUCED AND SAFELY 
TRANSPORATED OVER 13 BILLION BARRELS OF OIL FROM THE NORTH SLOPE OIL 
FIELDS TO U.S. CONSUMERS. (ARGONNE NATIONAL LABORATORY, 2002 TAPS ROW 
EIS)
    <bullet> EVERY DAY, THE MOST POPULATED STATE IN THE NATION, 
CALIFORNIA, CONSUMES ABOUT 1.8 MILLION BARRELS OF OIL, WHILE PRODUCING 
ABOUT 890,000 BARRELS OF OIL. THIS IS A PRODUCTION-TO-CONSUMPTION 
DEFICIT OF ALMOST ONE MILLION BARRELS PER DAY, OF WHICH OVER HALF ARE 
IMPORTED FROM FOREIGN COUNTRIES. (CALIFORNIA ENERGY COMMISSION AND THE 
ENERGY INFORMATION ADMINISTRATION)
    <bullet> ONE MILLION BARRELS IS THE AMOUNT OF SPARE CAPACITY IN 
THE TRANS-ALASKA PIPELINE, WHICH CAN BE FILLED BY OIL PRODUCED FROM 
ANWR. (ALYESKA PIPELINE SERVICE COMPANY)
    <bullet> IN OTHER WORDS, CALIFORNIA MIGHT NOT HAVE TO IMPORT ANY 
FOREIGN OIL IF CONGRESS OPENED THE COASTAL PLAIN OF ANWR.
    <bullet> ALASKA OPERATES THE CLEANEST OIL FIELDS IN THE WORLD, 
UNDER THE MOST STRINGENT ENVIRONMENTAL STANDARDS.
    <bullet> IMPROVED TECHNOLOGY (DIRECTIONAL DRILLING, REINJECTING 
WASTES, ICE ROADS, ICE DRILLING PADS, AND 3-D SEISMIC, ETC.) ENABLES 
DEVELOPMENT TO OCCUR WITH GREATLY INCREASED PRODUCTION AND MINIMAL 
IMPACT ON THE ENVIRONMENT, LAND AND WILDLIFE. FOR EXAMPLE, WHEN THE 
TRANS-ALASKA PIPELINE WAS CONSTRUCTED IN THE MID 1970'S, THERE WERE 
ABOUT 3,000 CARIBOU IN THE CENTRAL ARCTIC HERD, WHICH UTILIZES THE 
PRUDHOE BAY OIL FIELDS FOR CALVING. THE LATEST CENSUS OF CARIBOU 
CARRIED OUT BY STATE BIOLOGISTS INDICATES THE POPULATION HAS GROWN TO 
32,000 CARIBOU--UP FROM 27,000 THE LAST TIME CONGRESS DEBATED ANWR. AS 
THE CARIBOU POPULATION INCREASED, PRUDHOE BAY SUPPLIED OVER 13 BILLION 
BARRELS OF OIL FOR AMERICAN CONSUMERS.
    <bullet> THE HIGHLY-RESPECTED ARGONNE NATIONAL LABORATORY RECENTLY 
COMPLETED A $40 MILLION ENVIRONMENTAL IMPACT STATEMENT FOR THE INTERIOR 
DEPARTMENT IN SUPPORT OF THE RECENT RENEWAL OF THE RIGHT-OF-WAY FOR THE 
TRANS-ALASKA PIPELINE. THE EIS EXAMINED THE PAST, PRESENT, AND FUTURE 
EFFECTS OF NORTH SLOPE OIL DEVELOPMENT ON WILDLIFE AND HABITAT.
    <bullet> THERE WERE MANY FINDINGS REGARDING THE IMPACTS OF ALASKA 
NORTH SLOPE OIL DEVELOPMENT WHICH CAN BE SUMMED UP IN THIS QUOTE FOUND 
IN THE REPORT: ``NO POPULATION LEVEL IMPACTS TO ANY WILDLIFE SPECIES 
HAVE BEEN DOCUMENTED.'' IN FACT, THE ARGONNE NATIONAL LABORATORY FOUND 
SOMETHING THAT IS RARELY MENTIONED BY THE MAINSTREAM PRESS, WHICH IS 
THAT OIL FIELD INFRASTRUCTURE CAN HAVE HABITAT ENHANCEMENT VALUE FOR A 
NUMBER OF IMPORTANT BIRD AND MAMMAL SPECIES, INCLUDING CARIBOU.
    <bullet> THE ARGONNE NATIONAL LABORATORY STUDY ALSO FOUND THAT 
ALASKA NORTH SLOPE OIL BETWEEN 1977 AND 2001, REDUCED THE OVERALL TRADE 
DEFICIT BY ALMOST 12%--THIS IS A REDUCTION OF ABOUT A HALF-TRILLION 
DOLLARS IN THE U.S. FOREIGN OIL BILL. THIS IS MONEY SPENT ON U.S. 
WORKERS AND U.S. INVESTMENTS, RATHER THAN ON FOREIGN WORKERS AND 
FOREIGN INVESTMENTS.
    <bullet> RESPONSIBLE DEVELOPMENT OF THE COASTAL PLAIN HAS THE 
POTENTIAL TO CREATE HUNDREDS OF THOUSANDS OF JOBS NATIONWIDE.
    <bullet> MORE THAN 50 TANKERS HAVE BEEN BUILT IN U.S. SHIPYARDS 
FOR THE ALASKA-TO-WEST COAST SHIPMENT OF ALASKA CRUDE OIL. EACH TANKER 
REQUIRES 1,000 SHIPYARD JOBS. THIS IS 50,000 SHIPYARD JOBS IN SUPPORT 
OF ALASKA OIL DEVELOPMENT. IT IS ESIMATED THAT 19 NEW TANKERS WOULD 
HAVE TO BE BUILT TO TRANSPORT OIL PRODUCED FROM THE COASTAL PLAIN. 
(AMERICAN PETROLEUM INSTITUTE)
    <bullet> THESE POSITIVE EFFECTS ON JOB CREATION AND THE ECONOMY 
CANNOT BE UNDERSTATED. ALASKANS SEEK TO CONTINUE TO ENORMOUS 
CONTRIBUTION TO AMERICA'S JOB BASE THROUGH ENVIRONMENTALLY SENSITIVE 
DEVELOPMENT OF ANWR'S COASTAL PLAIN.
    <bullet> RESPONSIBLE ANWR DEVELOPMENT IS SUPPORTED BY 75% OF 
ALASKANS. (DITTMAN POLL, 2001)
    <bullet> THE VILLAGE OF KAKTOVIK, POPULATION 260, IS THE ONLY 
COMMUNITY WITHIN ANWR, AND A LARGE MAJORITY OF KAKTOVIK'S RESIDENTS 
SUPPORT DEVELOPMENT.
    <bullet> THE INTERNATIONAL BROTHERHOOD OF TEAMSTERS, THE NATIONAL 
ASSOCIATION OF COUNTIES, NATIONAL BLACK CHAMBER OF COMMERCE, NATIONAL 
CATTLEMEN'S BEEF ASSOCIATION, NATIONAL GRANGE, THE TRANSPORTATION 
INSTITUTE AND THE U.S. CHAMBER, ARE ONLY A FEW OF THE MANY 
ORGANIZATIONS THAT JOIN ALASKA IN SUPPORT OF RESPONSIBLE DEVELOPMENT.
    <bullet> THE PEOPLE WHO KNOW JOBS-THE INTERNATIONAL BROTHERHOOD OF 
TEAMSTERS-HAS TAKEN THE LEAD IN SECURING ORGANIZED LABOR'S SUPPORT FOR 
THIS ISSUE, MUCH TO THE CREDIT OF MR. JERRY HOOD.
    GOVERNOR FRANK H. MURKOWSKI IS COMMITTED TO PROVIDING RESPONSIBLE 
DEVELOPMENT FOR THE PEOPLE OF ALASKA AND FOR THE CITIZENS OF THE UNITED 
STATES. GOVERNOR MURKOWSKI KNOWS THE IMPORTANCE OF EMPOWERING 
CONGRESSIONAL LEADERS WITH ACCURATE INFORMATION TO ENABLE THEM TO MAKE 
INFORMED DECISIONS.
    THE PROSPECT OF ARMED CONFLICT IN IRAQ MAKES THE DECISION ON THE 
FUTURE OF THE COASTAL PLAIN AREA VITALLY IMPORTANT TODAY. WORLD WIDE 
CRUDE OIL SHORTAGES HAVE SEEN OIL PRICES GO FROM $18 TO $37 PER BARREL. 
GASOLINE PRICES ARE ALREADY OVER $2.00 A GALLON IN MANY STATES. RISING 
ENERGY PRICES THREATEN THE AIRLINE INDUSTRY AND ARE STALLING THE 
NATION'S ECONOMIC RECOVERY.
    ALASKA'S STOREHOUSE OF UNDEVELOPED OIL AND GAS RESOURCES WON'T 
SOLVE THE CURRENT ENERGY CRISIS BECAUSE OF LONG LEAD TIMES. BUT THEY 
COULD BE VERY EFFECTIVE IN DEALING WITH FUTURE ENERGY SHORTFALLS. THIS 
IS WHY THIS CONGRESS SHOULD ADOPT S.39 NOW, TO OPEN THE COASTAL PLAIN 
TO RESPONSIBLE OIL AND GAS LEASING.
    THE CASE FOR S.39 IS, ON THE MERITS, COMPELLING.
    <bullet> THE STATE OF ALASKA AND ITS CITIZENS SUPPORT DEVELOPMENT;
    <bullet> THE INUPIAT ESKIMO PEOPLE WHO LIVE ON THE NORTH SLOPE 
SUPPORT LEASING BECAUSE THEY KNOW FROM EXPERIENCE IT CAN BE DONE 
WITHOUT HARM TO THE LAND, THE ENVIRONMENT AND FISH AND WILDLIFE;
    <bullet> WE HAVE THE TECHNOLOGY AND LAND USE PRACTICES THAT 
ENABLED US TO DEVELOP ALPINE, A NEW 500 MILLION BARREL OIL FIELD, USING 
ONLY 90 ACRES OF LAND;
    <bullet> THE ABILITY OF THE STATE OF ALASKA, THE NORTH SLOPE 
BOROUGH AND THE FEDERAL GOVERNMENT TO PROPERLY REGULATE EXPLORATION AND 
PRODUCTION HAS BEEN DEMOSTRATED FOR OVER 30 YEARS.
    <bullet> THE FEDERAL GOVERNMENT NEEDS THE REVENUES THAT BONUS BIDS 
AND ROYALTIES FROM THE COASTAL PLAIN CAN PROVIDE;
    <bullet> THE AMERICAN PEOPLE NEED THE SECURE SUPPLIES OF DOMESTIC 
OIL THAT ALASKA CAN PROVIDE.
    ON BEHALF OF THE STATE OF ALASKA I WANT TO THANK CHAIRMAN POMBO, 
FOR SCHEDULING THIS MOST IMPORTANT HEARING. I ALSO WANT TO THANK 
CONGRESSMAN YOUNG FOR INTRODUCING H.R. 39 AND KEEPING THIS ISSUE FRONT 
AND CENTER. FINALLY I WANT TO THANK PRESIDENT BUSH AND HIS 
ADMINISTRATION, ESPECIALLY SECRETARY NORTON, FOR HAVING THE COURAGE AND 
GOOD JUDEGEMENT TO MAKE THE COASTAL PLAIN A CENTRAL FACTOR IN OUR 
NATIONAL ENERGY POLICY.
                                 ______
                                 

   Supplemental Statement of Tara Mac Lean Sweeney, Inupiat Eskimo, 
          Shareholder of the Arctic Slope Regional Corporation

    MR. CHAIRMAN, I WOULD APPRECIATE A FEW MINUTES OF THE COMMITTEE'S 
TIME TO ADDRESS H.R. 39 IN MY SEPARATE AND PERSONAL CAPACITY AS AN 
ALASKA NATIVE. I AM AN INUPIAT ESKIMO RAISED IN BARROW ON ALASKA'S 
NORTH SLOPE. I HAVE FRIENDS AND RELATIVES WHO LIVE IN KAKTOVIK, IN THE 
COASTAL PLAIN.
    THE VERY LARGE MAJORITY OF THE INUPIAT PEOPLE SUPPORT OPENING THE 
COASTAL PLAIN OF ANWR. THEY SUPPORT THIS ACTION BECAUSE THE NATION 
NEEDS OUR OIL AND NATURAL GAS RESOURCES. THEY ALSO SUPPORT IT BECAUSE 
THESE ENERGY RESOURCES CAN BE DEVELOPED SAFELY, WITH NO HARM TO OUR 
HOMELAND, OUR ENVIRONMENT, OUR CARIBOU AND OUR FISH AND WILDLIFE.
    WE KNOW THIS BECAUSE MY PEOPLE ARE THE STEWARDS OF THE NORTH 
SLOPE'S LANDS, WATERS AND WILDLIFE. THIS AREA IS OUR KITCHEN. OUR 
VILLAGES DEPEND ON OUR WILDLIFE FOR 50 TO 70 PERCENT OF OUR SUBSISTENCE 
DIET.
    THIS SUBSISTENCE DEPENDENCE MEANS THAT THE INUPIAT PEOPLE INSIST ON 
THE BEST PRACTICES, BEST TECHNOLOGY AND BEST REGULATION IN THE 
DEVELOPMENT OF NORTH SLOPE ENERGY RESOURCES.
    MY PEOPLE HAVE ACHIEVED THIS IMPORTANT OBJECTIVE THROUGH OUR LOCAL 
GOVERNMENT, THE NORTH SLOPE BOROUGH (NSB). THE BOROUGH HAS JURISDICTION 
OVER THE PERMITS REQUIRED FOR GEOLOGIC SURVEYS, EXPLORATION AND 
PRODUCTION.
    THE INUPIAT PEOPLE PROVIDED THE INPUT NECESSARY TO ACCOMMODATE 
DEVELOPMENT AND TO MEET AMERICA'S NEED FOR OIL, WHILE PROTECTING OUR 
TRADITIONAL SUBSISTENCE LIFESTYLE AND CULTURAL PRACTICES. WE DID NOT 
ANTE UP OUR LAND WITH NO PROTECTION PROVISIONS FOR CARIBOU AND OTHER 
WILDLIFE. INSTEAD, WE CREATED A PLANNING AND ZONING DEPARTMENT IN THE 
NSB TO OVERSEE INDUSTRY PERMITS AND PROVIDE AN OPPORTUNITY FOR OUR AREA 
EXPERTS-OUR HUNTERS-TO SUBMIT COMMENTS AND CONCERNS.
    WE CREATED A FISH AND WILDLIFE DEPARTMENT TO MONITOR WILDLIFE AND 
MAKE RECOMMENDATIONS ON HOW TO PROTECT OUR SUBSISTENCE RESOURCES.
    WE DID NOT GO INTO THE PROSPECT OF OIL DEVELOPMENT LIGHTLY, AND IT 
IS WITH OUR INVOLVEMENT THAT DEVELOPMENT AND WILDLIFE CAN CO-EXIST 
TODAY.
    DEVELOPMENT FOR THE INUPIAT PEOPLE ON THE NORTH SLOPE MEANS THE 
PRIVILEGE OF PROVIDING RUNNING WATER AND FLUSH TOILETS; POLICE, FIRE 
AND SEARCH AND RESCUE PROTECTIONS; LOCAL SCHOOLS FOR OUR CHILDREN; 
LOCAL HEALTH CARE FACILITIES AND AN OPPORTUNITY TO CHAMPION OUR OWN 
CAUSES.
    AS NATIVE PEOPLE WE DO NOT HAVE A HIREARCHY FOR TRADITIONAL FOOD. 
THE CARIBOU IS JUST AS IMPORTANT TO OUR SOULS AS THE WHALE. WE CANNOT 
LIVE WITHOUT BOTH. THAT IS AN IMPORTANT POINT TO REMEMBER WHEN 
DELIBERATING THIS ISSUE. WE WOULD NOT RECOMMEND DEVELOPMENT IF IT 
SACRIFICED OUR ACCESS TO CARIBOU.
    MR. CHAIRMAN AND MEMBERS OF THE COMMITTEE, THANK YOU FOR YOUR 
ATTENTION. I SUBMIT MY REMARKS ON BEHALF OF MY PEOPLE FOR THE RECORD.
                                 ______
                                 
    The Chairman. Ms. Clark, welcome back.

  STATEMENT OF JAMIE RAPPAPORT CLARK, SENIOR VICE PRESIDENT, 
      CONSERVATION PROGRAMS, NATIONAL WILDLIFE FEDERATION

    Ms. Clark. Thank you, Mr. Chairman. Good morning, Mr. 
Chairman and members of the Committee. I am Jamie Rappaport 
Clark, the National Wildlife Federation's Senior Vice President 
for Conservation Programs. On behalf of the nation's largest 
member-supported conservation advocacy and education 
organization, we thank you for the opportunity to address this 
Committee this morning.
    I would like to present to you the essence of the case to 
oppose oil drilling in the Arctic National Wildlife Refuge. 
First, what would drilling mean to the wildlife that depends on 
the refuge's Coastal Plain, the porcupine caribou herd that 
finds its central calving ground there, the polar bears that 
find their mainland denning habitat there, the muskoxen that 
live year-round there, the 135 bird species that congregate by 
the millions there in their migration spanning all 50 States 
and four continents of the globe?
    The comprehensive study completed in 1987 during the Reagan 
administration concluded that drilling would have major adverse 
impacts on the Coastal Plain's wildlife. Last week, the 
National Academy of Sciences released its finding on the 
cumulative impacts of the 30 years of oil drilling that has 
already been conducted along the North Slope. Again, the 
conclusion is that oil drilling has long-term adverse impacts, 
harming the landscape and altering wildlife habitat and 
behavior well beyond the area given over to drilling rigs and 
processing facilities. These findings underscore the fragility 
of the Arctic tundra environment and the sensitivity to 
disruption of the wildlife that depends on it.
    It is important to note, Mr. Chairman, that nearly 95 
percent of the Alaskan North Slope is already available for 
potential oil exploration or development. The U.S. Geological 
Survey reports that far more oil can be recovered from these 
areas than could ever be obtained from the Arctic Refuge.
    Mr. Chairman, in 1997, while I served as Director of the 
U.S. Fish and Wildlife Service, I was privileged to celebrate 
along with this Committee and with Congress the passage of 
organic legislation governing the system, the National Wildlife 
Refuge System Improvement Act, a law that clearly states that 
refuges are places where wildlife comes first. The bedrock 
principle of that law is that no activity will be allowed in a 
wildlife refuge that is incompatible with the purposes for 
which the refuge is formed, the conservation of wildlife and 
natural resource values.
    Never since the National Wildlife Refuge System was 
formalized has oil drilling ever been initiated in an existing 
unit. To open the Arctic Refuge to oil drilling will set a 
precedent shattering decades of practice and render a crippling 
blow to the principle that only activities compatible with 
wildlife conservation should be allowed within the National 
Wildlife Refuge System. If this exception to law and tradition 
is permitted, the door will be opened to the next claim that an 
additional few weeks of oil supply can be found if only we will 
sacrifice another protected landscape.
    Mr. Chairman, what will be the message Congress sends if it 
has the courage to again reject proposals to open the Arctic 
Refuge to oil drilling? With only 3 percent of the world's 
known oil reserve but 25 percent of the world's annual oil 
consumption, the message will be we cannot drill our way to 
energy security. Rather, the true path to energy independence 
is to decrease our reliance on oil with new technologies that 
can make our cars go further on a gallon of gas. The message 
will be that we need to focus on energy conservation and 
developing cleaner, safer, and cheaper alternative sources of 
fuel. Our short-term energy problems should not blind us to the 
risk of damaging forever places Americans care about and 
wildlife depend on most.
    Two days from now, on March 14, America will celebrate the 
100th anniversary of the day President Theodore Roosevelt 
established the first refuge at Pelican Island off of Florida's 
East Coast. The refuge system now safeguards habitat for more 
than 1,000 species of animals, is a wonderland of outdoor 
recreation, and spans all 50 States in an area exceeding the 
size of the National Park System. We must not mark the 100 
years of achievement by authorizing the violation of the Arctic 
National Wildlife Refuge, the crown jewel of America's 
spectacular National Wildlife Refuge System.
    Thank you for the opportunity to be here this morning.
    The Chairman. Thank you.
    [The prepared statement of Ms. Clark follows:]

      Statement of Jamie Rappaport Clark, Senior Vice President, 
          Conservation Programs, National Wildlife Federation

I. Introduction
    Good morning Mr. Chairman, Congressman Rahall, and members of the 
House Resources Committee, my name is Jamie Rappaport Clark and I am 
here to share the views of the National Wildlife Federation (NWF), the 
nation's largest conservation education and advocacy organization on 
the Arctic Coastal Plain Domestic Energy Security Act of 2003 (H.R. 
39).
    To your credit, Mr. Chairman, you are having this--the first of 
what we hope are many hearings on the Arctic National Wildlife Refuge 
this Congress--so that the facts surrounding this issue may come to 
light. Unfortunately, at this very moment, there are those 
contemplating adding an Arctic drilling provision to the fiscal year 04 
Budget Reconciliation process in order to avoid a full, fair, and open 
debate; a debate that millions of Americans care passionately about.
    Having said that, I do find it regrettable that the Committee would 
consider mandating oil drilling in our nation's largest, wildest and 
most pristine Refuge during the very week that our nation celebrates 
the centennial of the National Wildlife Refuge System.
    Prior to arriving at National Wildlife Federation in 2001, I served 
for 13 years at the U.S. Fish and Wildlife Service (USFWS), with the 
last four years as the Director of the agency. In that capacity, I was 
privileged to oversee the refuge system, and came to view its creation 
and evolution as one of our nation's greatest conservation 
achievements.
    Far from honoring the legacy of President Theodore Roosevelt, who 
established our America's first refuge on Pelican Island, Florida, H.R. 
39 would tear down the very principles and laws that protect some 540 
refuges in every state and U.S. territory.
    Instead of putting ``wildlife first,'' as refuges were intended to 
do, this bill seeks to transform the biological heart of the Arctic 
Refuge into an industrial complex of roads, pipelines, gravel mines, 
oil wells and other facilities. Rather than heeding decades of research 
by the U.S. Fish and Wildlife Service, U.S. Geological Survey, and even 
last week's report by the National Academy of Science, this bill pays 
little heed to sound science. Finally, instead of enhancing our energy 
security, this bill seeks to increase our dependence on oil and, as a 
result, on the Middle East at a time when our nation should be 
compelled, as never before, to invest in cleaner, safer, and cheaper 
alternatives.
    In my testimony today, I will focus on the threats H.R. 39 poses to 
the entire refuge system, to the unique wilderness and wildlife values 
of the Arctic Refuge itself and finally to our national energy 
security.

II. Protecting the Integrity of the National Wildlife Refuge System
    On March 14, 2003, our country celebrates the one hundredth 
anniversary of the National Wildlife Refuge System. One century ago, 
with the stroke of a pen, President Theodore Roosevelt inaugurated the 
national commitment to conservation of wildlife species and the lands 
they need to survive. Frustrated by the unrestrained plume-hunting that 
was destroying a spectacular and ancient rookery, Roosevelt declared 
Florida's Pelican Island the first Federal Bird Reservation.
    Thus was born the greatest program of habitat protection in the 
world, a program that exists today as the National Wildlife Refuge 
System. Driven to do the ``greatest good for the greatest number,'' and 
with future generations in mind, Roosevelt eventually issued 51 
executive orders creating reserves in 17 states and three territories. 
He instilled an ethic of conservation in the Federal Government that 
has been reinforced and enhanced by congressional Democrats and 
Republicans alike. First, when Congress formalized the National 
Wildlife Refuge System in 1966 and more recently in 1997, when this 
Committee helped craft the system's landmark organic legislation. 
<SUP>1</SUP>
---------------------------------------------------------------------------
    \1\ 16USC668dd. National Wildlife Refuge Administration Act, as 
amended by Public Law 105-57.
---------------------------------------------------------------------------
    The National Wildlife Refuge System Improvement Act requires the 
Secretary of the Interior maintain the biological integrity, diversity 
and environmental health of the Refuge System. It also declares 
conservation of fish and wildlife to be the highest mission of the 
refuge system; all other uses were prohibited unless the determined to 
be compatible with the purposes for which a particular refuge was 
established.
    Unfortunately H.R. 39 breaks the promises of this landmark law, 
actually waiving, for the first time, the USFWS' compatibility 
determination. This would set a dangerous precedent that if applied by 
Congress in other circumstances, could undermine the Interior 
Department's ability and responsibility to protect all other refuges 
from a wide range of threats, effectively gutting the heart of the 1997 
Act. <SUP>2</SUP>
---------------------------------------------------------------------------
    \2\ The purposes of the Arctic Refuge were first set forth in the 
Eisenhower Administration's Public Land Order 2214, which include 
``preserving unique wildlife, wilderness and recreational values.'' 
They were expanded in the Alaska National Interest Lands Conservation 
Act (ANILCA) of 1980 to:
    (i) conserve fish and wildlife populations and habitats in their 
natural diversity including, but not limited to, the Porcupine caribou 
herd, polar bears, grizzly bears, muskox, Dall sheep, wolves, 
wolverines, snow geese, peregrine falcons and other migratory birds and 
Arctic char and grayling;
    (ii) fulfill the international fish and wildlife treaty obligations 
of the United States;
    (iii) provide the opportunity for continued subsistence uses by 
local residents; and
    (iv) ensure water quality and necessary water quantity within the 
Refuge.
---------------------------------------------------------------------------
    Perhaps just as troubling, H.R. 39 would set yet another precedent, 
demonstrating willingness on the part of Congress to force open a 
wildlife refuge to oil drilling. Not since the refuge system was 
formalized has oil and gas activity been permitted in an existing 
refuge without pre-existing mineral rights or unless done specifically 
to prevent drainage from adjacent private lands. <SUP>3</SUP> In short, 
if oil drilling is allowed in the Arctic Refuge what's to stop this or 
a future Congress from allowing drilling in the 298 refuges in 44 
states that the U.S. Geological Survey indicates have oil and gas 
potential? <SUP>4</SUP>
---------------------------------------------------------------------------
    \3\ United States General Accounting Office, U.S. Fish and Wildlife 
Service: Information on Oil and Gas Activities in the National Wildlife 
Refuge System 3-5 (2001).
    \4\ Defenders of Wildlife analysis of 1995 U.S. Geological Survey, 
National Assessment of U.S. Oil and Gas Resources, 2001.
---------------------------------------------------------------------------
III. Wilderness and Wildlife Values on the Arctic Refuge
    It was no accident that President Dwight Eisenhower first 
established the Arctic National Wildlife Refuge in 1960. Decades of 
surveys by scientists in the 1930's, 40's and 50's, identified the 
northeast corner of Alaska as the finest prospect for a conservation 
area in the Alaskan Arctic. <SUP>5</SUP>
---------------------------------------------------------------------------
    \5\ National Park Service and U.S. Fish and Wildlife Service 
officials Collins, Sumner, and Rhode, see discussion in Midnight 
Wilderness, Debbie Miller, 1990, Sierra Club Books, pages 165-66.
---------------------------------------------------------------------------
    Indeed, today's 19.6 million-acre Arctic Refuge protects America's 
northernmost forest, the highest peaks and glaciers of the Brooks 
Range, and the rolling tundra, braided rivers, lagoons, and barrier 
islands along the Beaufort Sea coast. Taken together with adjacent 
conservation lands in Canada, the Arctic Refuge is part of the largest, 
protected, pristine area on our continent. No other conservation area 
in North America safeguards a complete range of arctic and sub-arctic 
ecosystems. No other, in the entire five-nation circumpolar north, has 
as abundant or diverse wildlife.
    For its part, the Arctic Refuge coastal plain, the Delaware-sized 
area that would be leased under H.R. 39, is considered the most 
biologically productive part of the Refuge, and the heart of its 
wildlife activity. Referring to the coastal plain, Eisenhower's 
Secretary of Interior Fred Seaton proclaimed:
        For the wilderness explorer, whether primarily a fisherman, 
        hunter, photographer, or mountain climber, certain portions of 
        the Arctic coast and the north slope river valleys, such as the 
        Canning, Hulahula, Okpilak, Aichilik, Kongakut, and Firth, and 
        their great background of lofty mountains, offer a wilderness 
        experience not duplicated elsewhere in our country. 
        <SUP>6</SUP>
---------------------------------------------------------------------------
    \6\ Fred A. Seaton to Hon. Sam Rayburn, April 30, 1959, 
transmitting draft legislation to authorize the establishment of the 
Arctic Wildlife Range, Alaska.
---------------------------------------------------------------------------
    The Reagan Administration's 1987 Arctic National Wildlife Refuge 
Coastal Plain Resource Assessment Report concluded that the coastal 
plain ``has outstanding wilderness qualities: scenic vistas, varied 
wildlife, excellent opportunities for solitude, recreational 
challenges, and scientific and historic values.'' The Reagan report 
also determined that, with the exception of two abandoned DEW (Defense 
Early Warning) line sites along the coast (which have since been 
removed), the entire coastal plain meets the criteria under the 1964 
Wilderness Act.
    Even when locked in the frigid grip of winter, the coastal plain is 
never lifeless. Muskoxen, cloaked in shaggy wool, restrict their 
movements to conserve vital energy reserves. Hidden from view, maternal 
polar bears give birth and nurse their young in the thermal protection 
of snow dens. Arctic foxes and ptarmigan--predator and prey--camouflage 
in winter white coats. Fish like Arctic grayling and Dolly Varden 
survive in rare pockets of open water beneath the ice covered rivers 
and lakes.
    In late spring, the coastal plain transforms, as do few places on 
earth. Snowmelt from the Brooks Range flow onto the plain, moistening 
the spongy tundra as forbs, grasses, and a rainbow of small flowers 
come to life and the sun hangs in the sky without setting. Caribou have 
already begun their annual trek northward across the Brooks Range to 
this place that has served as their central calving and nursery ground 
for thousands of years. From continents away, flocks of migratory birds 
are on wing to the coastal plain which, by summer, will be filled with 
a symphony of bird songs. Arctic foxes, red foxes, grizzly bears, and 
wolverines will thrive and fatten amid this abundant life before the 
season begins to change again, the cold returns, and the sun 
disappears.
    There is broad scientific consensus that oil exploration, drilling 
and associated development activities would dramatically alter this 
unique landscape and the wildlife that depends on it. The message from 
the Interior Department's scientists has been clear and consistent that 
there would be significant negative effects, whether the Reagan 
Administration's 1002 Report to Congress, <SUP>7</SUP> the Clinton 
Administration's 1995 update, <SUP>8</SUP> or the 12-year summary of 
wildlife research released by the USGS last year, during the Bush 
Administration. <SUP>9</SUP> Arctic Refuge development and production 
would negatively impact a wide range of wildlife species, fundamentally 
alter wildlife habitat and natural ecological processes, harm 
subsistence uses and cultural values, and undermine the Refuge's 
wilderness values. The National Academy of Sciences, which released its 
465-page report on the ``Cumulative Environmental Effects of Oil and 
Gas Activities on Alaska's North Slope'' last week, largely affirmed 
these findings. <SUP>10</SUP> It reported that the land, plants, 
animals, and culture of the North Slope and adjacent marine areas have 
been significantly and negatively affected by oil infrastructure and 
activities.
---------------------------------------------------------------------------
    \7\ Clough, N.K., P.C. Patton, and A.C. Christiansen, eds. 1987. 
Arctic National Wildlife Refuge, Alaska coastal plain resource 
assessment--Report and recommendation to the Congress of the United 
States and final legislative environmental impact statement: 
Washington, D.C. U.S. Fish and Wildlife Service, U.S. Geological 
Survey, and Bureau of Land Management. 208 pp.
    \8\ U.S. Fish and Wildlife Service. 1995. A preliminary review of 
the Arctic National Wildlife Refuge, Alaska, Coastal Plain Resource 
Assessment: Report and Recommendation to the Congress of the United 
States and Final Legislative Environmental Impact Statement. Anchorage.
    \9\ Douglas, D.C., P.E. Reynolds, and E.B. Rhode, editors. 2002. 
Arctic Refuge coastal plain terrestrial wildlife research summaries. 
U.S. Geological Survey, Biological Resources Division, Biological 
Science Report USGS/BRD/BSR-2002-0001.
    \10\ National Research Council of the National Academies, 
Cumulative Environmental Effects of Oil and Gas Activities on Alaska's 
North Slope, March 2003.
---------------------------------------------------------------------------
    Notably, the NAS report makes clear that industrial activity has 
transformed 1,000 square miles of the North Slope, with many important 
effects on animals and vegetation extending well beyond this already 
sizable ``footprint'' of development. The NAS finds that:
        Roads, pads, pipelines, seismic-vehicle tracks, and 
        transmission lines; air, ground, and vessel traffic; drilling 
        activities; landfills, housing, processing facilities, and 
        other industrial infrastructure have reduced opportunities for 
        solitude and have compromised wildland and scenic values over 
        large areas...The structures and activities also violate the 
        spirit of the land, a value that is reported by some Alaska 
        Natives to be central to their culture. Given that most of the 
        affected areas are not likely to be rehabilitated or restored 
        to their original condition, these effects will persist long 
        after industrial activity has ceased on the North Slope. 
        <SUP>11</SUP>
---------------------------------------------------------------------------
    \11\ NAS Report, p. 252.
---------------------------------------------------------------------------
    The NAS said, ``Animals have been affected by industrial activities 
on the North Slope. Bowhead whales have been displaced in their fall 
migration by the noise of seismic exploration'' Some denning polar 
bears have been disturbed. <SUP>12</SUP> The threats to Inupiaq culture 
and subsistence activities are real, long-term and continuing, 
including reductions in harvest areas in and around oil fields. The 
actual and perceived risks to Gwich in culture are widespread, intense, 
and they constitute a cumulative effect.
---------------------------------------------------------------------------
    \12\ NAS Report, p. 14
---------------------------------------------------------------------------
    The Arctic Refuge coastal plain remains our best hope for keeping 
at least 5% of Alaska's North Slope intact, for the wildlife and the 
people who depend upon it. Unfortunately, 95% of this remarkable 
landscape lacks statutory protection from oil exploration and 
development and is subject to the wide-ranging cumulative impacts 
highlighted by NAS.

IV. The Porcupine Caribou Herd
    The signature wildlife population of the Arctic Refuge's coastal 
plain is the Porcupine caribou herd. Over a dozen Native American 
villages in two nations depend on these animals for subsistence and 
cultural identity. Two national parks, a territorial park, an 
ecological preserve, and a large special management area in Canada, 
along with the Arctic National Wildlife Refuge as a whole, comprise the 
habitat for the largest internationally shared caribou herd in the 
world. Of the numerous wildlife species that use the coastal plain, 
caribou are not only the best known, but also one of the species most 
likely to suffer major disruptions from oil development. Because this 
herd functions as a keystone species which migrates throughout 
northeast Alaska and northwest Canada, negative impacts from 
development will have ecological consequences well beyond the coastal 
plain.
    The 123,000-strong Porcupine caribou herd takes its name from its 
winter range in the valleys and tributaries of the Porcupine River. But 
it is the herd's recurrent use of a specific calving area--principally 
the Arctic Refuge coastal plain--which defines it as a separate 
population. The Porcupine herd and post-calving area covers most of the 
Arctic Refuge coastal plain, the exact landscape where oil development 
would occur, and extends eastward into the Yukon Territory. Calving 
grounds of the much smaller Central Arctic herd, currently numbering 
about 31,000 overlap the northwestern corner of the Refuge coastal 
plain and extend westward to Alaska's North Slope oil fields.
    Although Porcupine herd calving extends far east into Canada, the 
Refuge coastal plain offers the most extensive stretch of land in which 
predators are scarce and highly nutritious forage is found. 
Consequently, calving activity is highly concentrated on the coastal 
plain, where calves grow rapidly and have the best survival. The 
evolutionary advantage of calving on the coastal plain is deeply 
ingrained. Pregnant cows often move 20 or more miles per day until they 
calve. Cows that give birth on the coastal plain have already traversed 
other potential calving sites, and they remain on the coastal plain 
until their calves are born. In contrast, cows that calve farther south 
or east continue moving as soon as their offspring are strong enough to 
travel so that they too might escape predation and obtain better forage 
afforded by the Refuge coastal plain.
    No other portion of the calving grounds is used as frequently or by 
such high densities of caribou as the coastal plain of the Arctic 
Refuge:
    <bullet> The coastal plain supports more than 250 pregnant cows 
per square mile--five to ten times the density of pregnant cows on the 
rest of the calving area;
    <bullet> On average, about half of Porcupine herd births are 
concentrated in 10 percent of the overall calving area. The location of 
calving concentration areas varies from year to year, but annual 
concentration areas overlapped the coastal plain in 25 of the past 30 
years;
    <bullet> During the past 19 years for which there is detailed 
information from radio collared caribou, concentrated calving occurred 
primarily on the coastal plain 11 times. In four additional years, the 
majority of concentrated calving was immediately adjacent to the 
coastal plain, and within a few days most cows and calves had moved 
onto the plain;
    <bullet> Only unusually late snowmelt keeps the Porcupine caribou 
herd from calving on the coastal plain;
    <bullet> Up to 92 percent of calves are born on the coastal plain, 
and the annual average is 43 percent.
    By late June and early July, cows that gave birth on the coastal 
plain have long since been joined by cows that calved farther south and 
east. Essentially all cows and calves and many bulls of the herd--in 
excess of one hundred thousand caribou--are on the coastal plain. Huge 
numbers of caribou then coalesce into dense aggregations of thousands 
or tens of thousands of animals that move constantly in response to 
winds, insects, and forage availability. Almost every section of the 
coastal plain is covered at one time or another by the vast swarms of 
caribou.
    When the caribou leave the coastal plain, they travel near or 
through more than a dozen Gwich in and Inuvialuit communities in Alaska 
and Canada; these communities rely on caribou and other wild meat for 
up to 80% of their diet.

Effects of Oil Exploration and Development on Caribou
    The likelihood of coastal plain development having adverse effects 
on the Porcupine herd is often discounted by oil drilling proponents 
through comparisons with other areas where development is already 
taking place and caribou numbers have increased. However, conditions on 
the Arctic Refuge coastal plain differ from currently developed areas 
on State of Alaska lands west of the Refuge, making comparisons of the 
two largely inappropriate.
    The coastal plain around the oil fields is more than 100 miles 
wide. It is used by relatively few caribou. Oil development that has 
been underway for many years has resulted in the displacement of 
Central Arctic caribou to other nearby habitat. In contrast, the narrow 
Arctic Refuge coastal plain is densely occupied by caribou and is 
bracketed by sea on one side and mountains on the other. Porcupine herd 
caribou displaced by oil development would not find other comparable 
habitat readily available.
    The Arctic Refuge environmental assessment written in 1987 
concluded that oil development would have a ``major'' impact on the 
Porcupine caribou herd, defined as ``widespread, long-term change in 
habitat availability or quality which would likely modify natural 
abundance or distribution'' of the species. While the technology has 
improved, there is little question that the disturbance caused by the 
presence of drilling pads, pipelines, and facilities would displace the 
Porcupine caribou herd from their preferred calving habitat on the 
coastal plain, just as it has with the Central Arctic herd near the 
Prudhoe Bay oilfields. Furthermore, recent findings by DOI researchers 
published in 2002, documented that entire areas of calving 
concentration have shifted away from oilfield developments during the 
past 15 years. Findings of the National Academy of Science released 
last week show that during 1988 to 2001, Central Arctic herd cows that 
were displaced by oilfield developments had significantly lower 
reproductive success than in areas where they were not disturbed.
    The survival rate of Porcupine herd calves has averaged 14 percent 
lower in years when late snowmelt has displaced calving from the 
coastal plain to areas with poorer forage and more predators. A 
reduction of long-term calf production and survival of as little as 
five percent would be sufficient to prevent population growth in the 
Porcupine caribou herd. If the average survival rate falls by more than 
five percent--a distinct possibility if oil development occurs--the 
herd would be unable to recover from natural declines. The Porcupine 
herd has shown the lowest growth capacity of the arctic herds in 
Alaska, and therefore is the least resilient to the impacts of 
development.

V. Polar Bears
    The coastal plain of the Arctic National Wildlife Refuge is the 
most heavily used land denning area for polar bears along the entire 
North Slope of Alaska and provides the only denning habitat for polar 
bears in the conservation lands of the United States. Although the 
coastal plain covers only about 10 percent of the coastline of the 
Beaufort Sea in northeastern Alaska and adjacent Canada, it accounted 
for 42 percent of the mainland den sites of radio collared bears 
between 1981 and 2000.
    Polar bears are creatures of the sea ice, where they feed almost 
exclusively on marine mammals. While most polar bears remain active and 
hunt for food all winter long, pregnant females excavate dens in 
snowdrifts during early winter, where they give birth and remain until 
late winter when the young cubs have grown enough to travel with their 
mothers. Throughout most of the polar bear's circumpolar range, denning 
occurs almost exclusively on land, but bears inhabiting the Beaufort 
Sea off the coastal plain of the Arctic Refuge den both onshore and on 
the pack ice.
    The ability to successfully den on land is important because 
denning on ice carries certain risks. Ocean currents keep the pack ice 
constantly moving, even during winter. Female bears that go into dens 
in October or November in one location may emerge hundreds of miles 
away in March or April. Ice conditions can change as the dens drift 
along, forcing bears to abandon their dens and lose their cubs. Dens on 
land or on shore-fast ice are more stable. In the early 1980's, when 
surveys of radio collared bears in the Beaufort Sea first began, dens 
were fairly evenly split between land and pack ice. More recently, 
radio collared bears in the Beaufort Sea have tended to den more 
frequently on land, possibly because steadily warming winter 
temperatures are causing the ice pack to form later and remain thinner, 
making it a less attractive substrate for denning.
    Polar bears also use the Refuge coast during the fall for feeding, 
resting, and moving about. Like the trend towards more land denning, 
use of the coastal plain during the fall has also been increasing in 
recent years. Some stretches of the Refuge coast have had up to one 
bear per mile of shoreline. Concentrations of up to two dozen bears 
regularly scavenge carcasses from fall whaling near Kaktovik, a Native 
village just outside the officially designated Refuge coastal plain. 
Numbers and densities of bears using the Refuge are greater than in 
areas where oil development already occurs farther to the west, and in 
the coming years the undisturbed habitat of the Refuge coastal plain is 
expected to be even more important to the Beaufort Sea polar bear 
population.

Effects of Oil Exploration and Development on Polar Bears
    Polar bears are highly vulnerable to disturbances from human 
activity. The exploration activities that would precede any oil 
development would create exactly the kind of disturbance that could 
adversely affect the bears that rely on the coastal plain.
    Modern petroleum exploration employs fleets of large vehicles that 
crisscross the frozen tundra, following a predetermined grid pattern. 
At frequent intervals, equipment on specially designed and extremely 
heavy vehicles is used to send shock waves through the ground so that 
monitoring devices can detect echoes that pinpoint underground oil and 
gas reserves. Noise from vehicles and seismic vibrations passing too 
closely can disturb denning polar bears, causing den abandonment and 
loss of cubs. Modern 3-D seismic exploration now uses grid lines that 
are often no more than 300 to 400 yards apart.
    Standard mitigation practice is to avoid conflicts with bears by 
prohibiting overland vehicle traffic, seismic testing, and other heavy 
equipment usage within one mile of known dens between October 30 and 
April 15. However, this mitigation technique is severely limited by the 
fact that some 95 percent of Beaufort Sea polar bears are not radio 
collared, and their locations cannot be known in advance. While the use 
of infra-red detection systems (which are currently being tested) may 
offer some potential for finding polar bear dens, the trend toward 
warmer winters in the arctic may render this technique useless as it 
relies on a sharp contrast between the relative warm signature of a den 
and the cold outside air. It is virtually certain that 3-D seismic 
exploration on the coastal plain would pass close to undetected dens 
within the seismic grid areas, resulting in disturbance, den 
abandonment, and cub mortality.
    Oil exploration and development in the Refuge's coastal plain would 
also lead to more frequent direct encounters with humans and exposure 
to environmental contaminants, increasing the threat to polar bears. 
Polar bears are large, powerful predators and can be dangerous to 
people. Direct encounters with bears can be generally mitigated through 
camp and personnel management and proper control of human generated 
garbage. However, some killing of problem bears is inevitable. The 
International Polar Bear Specialist Group has identified environmental 
contaminants as a significant threat to polar bears. Chronic release of 
contaminants from petroleum exploration, production, and support 
activities has been a problem in existing oil fields on the North 
Slope, and at least one polar bear has died from ingesting a toxic 
substance.
    The United States is a party, along with other circumpolar nations, 
to the Agreement on Conservation of Polar Bears, which requires 
appropriate action to protect ecosystems which contain polar bears, and 
places special emphasis on protecting denning habitat. This agreement 
also specifies that polar bears may be taken (hunted, killed, or 
captured) only for certain purposes. These purposes do not include 
displacing cubs to conduct seismic tests or killing bears to resolve 
conflicts with humans. Development of the coastal plain would make it 
difficult, if not impossible, for the United States to fully comply 
with its obligations under this international agreement.

VI. Muskoxen
    Muskoxen are both new and old to the Arctic Refuge. Native muskoxen 
in Alaska died out near the end of the 19th century. Some of the last 
records of native muskoxen were from isolated inland areas of the 
Arctic Refuge. Centuries of steady exploitation by aboriginal hunters, 
accelerated by the introduction of modern firearms, doomed the 
muskoxen. Only a few scattered skulls lying on the tundra mark their 
passage.
    Sixty-four muskoxen were reintroduced to the Refuge in 1969 and 
1970. The transplanted population increased slowly at first, then 
underwent a period of rapid growth and range expansion. Numbers on the 
coastal plain reached a peak of 368 by 1986. Muskoxen now occupy all 
the major drainage systems on the coastal plain, and in summer they can 
be found anywhere throughout the plain. Muskoxen from the coastal plain 
have spread far to the east in Canada and west beyond Prudhoe Bay. The 
total population resulting from Arctic Refuge transplants now numbers 
about 500 muskoxen.
    During the 1990's musk ox in the Refuge declined gradually due to 
emigration to new areas, as well as from reduced productivity and 
increased mortality as the population came into equilibrium with its 
resources. There has been a recent sharp decline in numbers following 
winters with deep snow (2000 and 2001) which were coincidental with 
increased predation by grizzly bears. It is currently estimated that 
there are no more than about 100 musk ox in the Refuge. It is 
imperative that maximum protection be given to the Refuge musk ox at 
this time.

Effects of Oil Exploration and Development on Muskoxen
    As year-long coastal plain residents, the muskoxen's natural cycle 
of conserving energy in winter while moving freely to maximize food 
intake in summer makes it particularly sensitive to disturbance from 
human activities. Of particular concern is that female musk ox give 
birth at least four to six weeks before there is green forage available 
to assist with milk production for their young. Therefore it is 
imperative that they be able to conserve their body reserves (fat) 
throughout the winter to support this critical demand.
    Petroleum exploration and construction typically occurs in winter, 
when muskoxen are most vulnerable due to limited habitat. Disturbance 
during winter can drive muskoxen into lower quality habitats, increase 
energy consumption and ultimately reduce productivity and survival of 
young. This is especially true during the late winter months of April 
and May, when muskoxen are in the poorest physical condition and are 
raising newborn calves.

VII. Birds and Other Wildlife
    Although we have focused on three of the most prominent species, 
scores of other species from golden eagles to diminutive lemmings and 
voles to fierce grizzly bears are also part of the wildlife mosaic that 
makes up the Arctic Refuge's coastal plain.
    Although birds are rare on the coastal plain during the winter, by 
mid-April millions of migratory birds begin their return to the coastal 
plain. First to come back are huge flocks of ptarmigan streaming down 
from their main wintering areas in the Brooks range and taiga forests 
even farther south. Snow buntings show up soon after, followed in May 
and June by geese, ducks, swans, cranes, loons, raptors, gulls and 
jaegers, countless shorebirds, and multitudes of songbirds.
    Some 180 bird species have been recorded in the Arctic Refuge, 
including 135 on the coastal plain, of which 70 are regular nesters. 
Birds come from all 50 states, Mexico, Central and South America, the 
mid- and South Pacific Islands, Asia, and even Africa and Antarctica. 
The convergence of all this winged wildlife onto the Arctic Refuge 
coastal plain every year gives this landscape one of its most special 
characteristics. Among all the conservation lands in the United States, 
the Arctic Refuge coastal plain is unequaled by all but a handful of 
protected landscapes as a critical migratory destination for wildlife.
    Wolves and grizzly bears are two of the larger predators seen on 
the Arctic Refuge coastal plain. One hundred or more grizzlies can 
always be found on the coastal plain in summer, as far north as the 
Arctic coast. Arctic foxes are common on the coastal plain, especially 
near the arctic shoreline, and red foxes occur widely farther inland. 
Fox populations, particularly those of the arctic fox, fluctuate widely 
in response to cyclical irruptions of lemmings and other small rodents.
    Bowhead and beluga whales and ringed, bearded, and spotted seals 
are regularly found in the Beaufort Sea off the coast of the Arctic 
Refuge. Other marine mammal species such as gray and killer whales, 
harbor porpoises, and walrus use the area less frequently. The common 
marine species, especially bowhead whales, are important in the local 
and regional subsistence economy.

Effects of Oil Exploration and Development
    Construction and operation of a complex of oil fields in the Refuge 
coastal plain would directly destroy bird habitat, and the 
interconnected maze of small fields envisioned for the coastal plain 
would also fragment habitat, making much larger areas more difficult 
for birds to use. Additional habitat would be degraded by noise, 
general disturbance, and spread of pollutants from industrial activity.
    The mountains of the Brooks Range confine the arctic tundra of the 
Refuge coastal plain into a narrower band than occurs elsewhere across 
the North Slope of Alaska. The narrow coastal plain, already densely 
populated by birds, offers few suitable alternative areas for birds 
displaced by development. Recent findings reported by the National 
Academy of Science indicate that due to increased populations of 
ravens, gulls and foxes that are attracted to human food and garbage in 
north slope oilfields, predation on some species of tundra nesting 
birds has significantly increased, making habitats near oil fields 
``sink populations'' as other birds immigrate in from source areas. The 
NAS predicts that as more source areas (such as the Arctic Refuge) are 
developed, some bird populations may decline suddenly.
    Grizzly bears have also been impacted by garbage in and around the 
oil fields. As stark evidence of this the NAS points out that out of 12 
offspring weaned by four food-conditioned female grizzly bears, seven 
were killed, (defense of life and property) and the status of two 
others remains unknown. <SUP>13</SUP>
---------------------------------------------------------------------------
    \13\ NAS Report, P. 191
---------------------------------------------------------------------------
    Pollution, too, is an inevitable by-product of oil development. As 
top predators, marine mammals are also threatened by chronic releases 
of contaminants into the environment. Contaminants are already a 
serious problem in the Arctic Ocean food chain. The problem would only 
be exacerbated by oil production along the coastal plain.
    Of course, the routine problems associated with oil development 
would be dramatically worse in the event of a significant oil spill. If 
a major spill were to enter the marine environment, frequent and 
persistent ice cover would hamper clean up operations, and cold water 
temperatures would slow the breakdown and dispersal of toxic petroleum 
products. If a large spill were to escape into a major river, it could 
reach coastal lagoons were it could have catastrophic effects on tens 
of thousands of long-tailed (old squaw) ducks, king eiders, loons, and 
shorebirds.

VIII. Seismic Exploration Would Scar Tundra Landscape
    During the assessment of oil and gas potential on the Refuge 
coastal plain which was mandated by Section 1002 of ANILCA, about 1,400 
miles of two dimensional (2D) seismic lines were surveyed (1983-85) to 
collect geophysical information used in the analysis. This work 
involved the use of bulldozer equipment moving worker camps, heavy 
seismic vibrators and related materials across the tundra during winter 
conditions when the ground is frozen and covered with snow. Due to the 
close proximity of the Brooks Range mountains to the Arctic Ocean in 
the Refuge, the coastal plain is primarily made up of rolling, hilly 
terrain which characteristically has uneven snow cover due to 
redistribution of snow by strong prevailing winds. Consequently, in 
areas having light snow cover the tundra vegetation was damaged by 
equipment, which created a variety of trails and visual impacts. Many 
of the damaged sites were such that significant recovery of vegetation 
has occurred and appear healed. At other locations, however, the damage 
persists, and in some cases has further eroded as water drains from 
sloped terrain in the scars. Damage at such places may last for many 
decades to come.
    Current state-of-the-art seismic surveys called three-dimensional 
(3D) require a high spatial density of survey lines (about 300-400 yard 
spacing). Such surveys create significantly more trails and tundra 
damage than the older 2D method, because of the increased number of 
lines, and the amount of vehicle turning that is required at the end of 
each line (turning of tracked vehicles tends to damage tundra 
vegetation more that straight travel). The NAS report warns that if 
exploration intensifies in the foothills terrain (like the coastal 
plain of the Arctic Refuge) the likelihood for increased impact to 
vegetation, soil erosion and visual values will be significantly 
greater. In the Arctic Refuge such impacts would destroy the wilderness 
qualities of the coastal plain, and would diminish visual aesthetics of 
the plain as seen from higher elevations in the designated Wilderness 
area to the south.

IX. Water Issues Associated with Oil Development
    Proponents for drilling in the Arctic Refuge often claim that 
impacts can be drastically reduced by the use of ice roads and 
exploratory drilling pads as is often done in the North Slope oil 
fields west of the Refuge. What they fail to acknowledge is the fact 
that there is very little water available for such purposes during the 
winter in the Refuge. Nearly all rivers and streams in the Refuge 
freeze to the bottom during the winter, and the few open water areas 
are critical fish over wintering areas where water cannot be withdrawn 
without causing impacts. Most of the coastal plain is made up of 
rolling upland terrain where water readily drains off to the Beaufort 
Sea, leaving few lakes and ponds. In contrast, to the west where oil 
development has taken place, there are extensive low flat plains with 
dense accumulations of lakes and ponds. Overall there is about one-
tenth as much water during summer in the Arctic Refuge coastal plain 
than in the area of existing oil development. Further complicating the 
matter is that in the Refuge the distribution of lakes and ponds is not 
even; most water is located in river deltas near the coast and very 
little is found inland. This makes it impractical to use ice roads and 
ice drill pads over most of the Refuge coastal plain.
    The lack of water during winter for industrial purposes in the 
Arctic Refuge would likely require more use of gravel for roads and 
drill pads for exploration. This will create greater impacts, including 
those from gravel mining operations, which will result in lasting 
transformations of the landscape. The recently released report by the 
National Academy of Science identified additional effects of oil field 
roads such as: dust affecting vegetation, roadside flooding, melting of 
permafrost. As a result, even if there were no commercial oil found in 
the Refuge, the effects of the exploration alone would result in a high 
degree of habitat alteration, and an irretrievable loss of wilderness 
values.
    Of course, it may not even be possible to construct ice roads in 
the future, for reasons other than the lack of water on the coastal 
plain. The NAS warns that global warming could ``reduce the usefulness 
of ice roads and pads or of some off-road technologies. In fact, global 
warming has already shortened the off-road tundra season by 70 days 
since the 1970's. <SUP>14</SUP>
---------------------------------------------------------------------------
    \14\ NAS Report, p. 91 & 141
---------------------------------------------------------------------------
X. Drilling the Arctic Refuge Would Weaken U.S. Energy Security.
    The United States has less than 3% of the world's oil reserves, yet 
consumes more than 25%. As a result, we could drill every national 
park, wildlife refuge, and coastline and still be largely dependent on 
imports. It's worth noting that the Energy Information Administration 
projects that a major oil discovery in the Arctic Refuge would reduce 
foreign oil dependence by a mere two percent in 2020, when the area 
might reach peak production. <SUP>15</SUP>
---------------------------------------------------------------------------
    \15\ Energy Information Administration, The Effects of the Alaska 
Oil and Natural Gas Provisions of H.R. 4 and S. 1766 on U.S. Markets, 
February 2002.
---------------------------------------------------------------------------
    The EIA also projects that in 2020 Alaska will be producing 27 
percent more oil than it pumps today, even without drilling the Arctic 
Refuge. This forecast does not include the billions of barrels of heavy 
oil already known to exist on the North Slope. Nor does it include the 
35 trillion cubic feet of known natural gas reserves available at 
Prudhoe Bay. These reserves dwarf Arctic Refuge gas potential, which 
are estimated by USGS to be seven trillion cubic feet.
    Still, the only true path to domestic energy security is to 
dramatically reduce our dependence on oil as a resource. Raising fuel 
economy standards for new family vehicles to an average of 40 miles per 
gallon over the next decade would save many times more oil by the year 
2020 than could be produced from the Arctic National Wildlife Refuge, 
with additional oil savings in the years beyond.
    As Congress develops a comprehensive energy policy, it faces a 
fundamental choice. Congress can either provide new leadership to 
challenge United States industry to innovate and develop better, 
cleaner, and more efficient technologies. Or it can remain mired in the 
failed energy policies of the past, leading to ever-increasing 
dependency on polluting fuels and foreign energy sources. It's a choice 
between an energy policy that drives environmental progress, and one 
that further jeopardizes public health, weakens our energy security and 
despoils one of the nation's last great wilderness areas.

XI. Deficiencies of H.R. 39
    H.R. 39 asserts up front that a coastal plain leasing program will 
be ``environmentally sound'' and ``will result in no significant 
adverse effect on fish and wildlife, their habitat, subsistence 
resources and the environment.'' Yet its specific provisions fail to 
ensure that these lofty goals are met.
    As an initial matter, H.R. 39 is remarkable for what it does not do 
to protect the Refuge. The bill fails to ban the use of water from the 
braided rivers, ponds, and lakes of the coastal plain. It does not 
prohibit the construction of permanent gravel roads, either within 
individual fields or to connect separate ones. As a result, millions of 
cubic feet of gravel could be dredged from riverbeds for construction.
    H.R. 39 also exempts leasing regulations from analysis under the 
landmark precautionary environmental law of our nation--the National 
Environmental Policy Act. The bill declares that a 16-year-old analysis 
is sufficient for NEPA purposes. The fallacy of this provision is 
revealed by other provisions of the proposed legislation, which 
require, for example, that the Secretary ``prescribe such regulations 
as may be necessary'' to protect fish and wildlife, their habitat, 
subsistence resources, and the environment of the Coastal Plain. See 
Section 3(g)(1).
    Additionally, the bill only allows the Secretary of the Interior to 
designate 45,000 acres of ``Special Areas'' in the Coastal Plain, an 
insignificant amount given the important calving, denning, and nesting 
habitat found throughout the 1.5 million-acre area. Furthermore, H.R. 
39 does nothing to prohibit or limit intrusive seismic exploration of 
Special Areas.
    H.R. 39 also gives the Secretary the discretion to allow year round 
drilling of the coastal plain, rather than simply directing the 
Secretary to ban exploratory and development activities during critical 
denning, calving, and nesting periods for migratory or resident 
wildlife populations.
    The bill also includes a variety of other provisions designed to 
limit meaningful public participation in a leasing program and to 
expedite oil development. Virtually all of the protective measures in 
the bill are at the complete discretion of the Secretary of Interior, 
rendering them largely meaningless.

XII. Summary
    In a very real sense, drilling for oil on the coastal plain would 
be an ill-conceived experiment performed on the biological heart of the 
Arctic National Wildlife Refuge.
    We know what some of the consequences would be. Exploration and 
drilling cannot proceed without permanently sacrificing the coastal 
plain's wilderness character. It is also certain that oil exploration 
would take a toll on many individual wildlife populations that rely on 
the Refuge and would be incompatible with the unique wildlife, 
wilderness, and recreational values for which the Refuge was 
established. Beyond these predictable outcomes, the cumulative damage 
cannot be completely foretold. However, previous experience suggests it 
would far exceed the toll that has been outlined here.
    The Arctic National Wildlife Refuge is held in trust for current 
and future generations as a vital part of our National Wildlife Refuge 
System. Our elected officials made a promise to the American people 
over 40 years ago to protect the Refuge's wildlife and wilderness 
values. The National Wildlife Federation urges this Committee to live 
up to that promise and to reject H.R. 39 in favor of cleaner, safer, 
and cheaper energy alternatives that can enhance our national security 
while protecting the Arctic Refuge and other national treasures for 
future generations.
    Thank you.
                                 ______
                                 
    The Chairman. Mr. Van Tuyn?

        STATEMENT OF PETER VAN TUYN, TRUSTEES FOR ALASKA

    Mr. Van Tuyn. Mr. Chairman, members of the Committee, I am 
Peter Van Tuyn, an attorney with Trustees for Alaska, a public 
interest environmental law firm founded over a quarter of a 
century ago. For over a decade, I have represented conservation 
groups, Alaskan Native tribes and villages, and others who are 
concerned about the effects of oil drilling on the environment 
in Alaska. I thank you for inviting me to testify before you 
today on the issue of whether to allow drilling for oil on the 
Coastal Plain of the Arctic National Wildlife Refuge, and I 
urge you to oppose such drilling.
    I speak today on H.R. 39's main environmental premise, that 
this bill provides for an environmentally sound drilling 
program on the Coastal Plain. This premise is wrong for a 
variety of reasons.
    First, oil and pristine environments simply do not mix. The 
history of development to the West of the Coastal Plain has 
shown us that adverse impacts are inevitable. Just last week, 
the National Academy of Sciences documented in a 450-page 
report the pollution and impact legacy of Prudhoe Bay and other 
North Slope oil fields. Lack of field maintenance has resulted 
in injury and death to North Slope workers and oil spills from 
corroding pipelines. BP is currently on criminal probation for 
its role in illegal waste disposal practices on the North 
Slope.
    Drilling proponents rely on the wonders of new technology 
to support their little-to-no impact claims, yet new technology 
offers nothing new to the discussion. In 1978, BP declared that 
Prudhoe Bay would not harm the wilderness character of the 
area. Today, Prudhoe Bay and other North Slope oil slopes 
depicted on the map on the easel can easily be seen from space.
    More recently, drilling proponents point to the Alpine 
development in the Colville River Delta as their best example 
of ``doing it right'' development. Alpine has two drill sites, 
a jet runway, three miles of infield roads, 37 miles of 
pipeline, and what was to truly set it apart from older fields, 
no road linking it to the existing fields to its East. Yet 
Alpine's reality is no different from the other industrial oil 
fields.
    During its construction, ARCO lost 2.3 million gallons of 
drilling muds under the Colville River. Massive air traffic 
occurs in the middle of the migratory bird nesting season, 
which is the unspoken secret of roadless development. Further, 
gas flaring from Alpine has at times exceeded all the other 
North Slope oil fields combined, raising alarms about links to 
an increase in asthma cases in the nearby Alaska native 
community of Nuiqsut. Oh, and despite repeated calls to do so, 
regulators did no in-depth environmental review of Alpine 
before permitting it to proceed.
    And, of course, the inexorable creep of oil drilling 
continues. Industry has now proposed a massive expansion of the 
Alpine field, 15 new drill sites--these are depicted on this 
map--25 miles of new gravel road, two new runways, and new 
gravel mines and pipelines, and get this, the State now 
proposes to build a gravel road from the existing oil fields 
West to the Colville Delta, smashing the roadless development 
myth.
    Sadly, the drilling proponents' promise for this bill of an 
environmentally sound refuge drilling program is an 
acknowledgment that we do not require that of existing 
industry. The oil industry is exempt from a multitude of 
environmental laws that apply to every other sector of the 
economy. From the Resource Conservation and Recovery Act to the 
Toxic Release Inventory to provisions of the Clean Water Act, 
we subsidize the oil industry by making the American 
environment pay the price.
    Moreover, the reality of H.R. 39 is different than its 
promise. Its provisions exempt significant parts of the Coastal 
Plain drilling program from fundamental environmental laws. 
Every provision of the bill purportedly designed to meet the 
mandatory ``will protect'' standard of its statement of intent 
is discretionary in nature, creating a hole you could drive a 
thumper truck through.
    Is it any wonder that I was asked today to provide you with 
a letter from the Gwich'in Nation opposing H.R. 39? The very 
culture of these indigenous people is founded on the caribou 
and a pristine Coastal Plain. Do we risk their cultural 
annihilation, too?
    Taking a broader perspective, why do we need to commit the 
entirety of America's Arctic to oil drilling? As it stands, 
without oil from the refuge, the Department of Energy predicts 
a 27 percent increase in oil from Alaska by 2020, and it is no 
wonder. Alaska and the Department of Interior are aggressively 
leasing all other parts of America's Arctic to the oil 
industry. This map depicts it: Nine-point-eight million acres 
in the Beaufort Sea, 23 million acres in the NPR-A either now 
leased or being open for leases in the next several years, 14 
million on State lands every single year.
    I have stood in both the developed and undeveloped Arctic. 
We as humans simply are not living up to our potential if we 
cannot protect one small slice of the Arctic, that place, as 
Justice Douglass described it, of ``startling beauties of 
creation, of quiet and solitude, where life exists without 
molestation by man.'' Thank you.
    The Chairman. Thank you.
    [The prepared statement of Mr. Van Tuyn follows:]

         Statement of Peter Van Tuyn, Esq., Trustees for Alaska

    Honorable Chairman, Members of the House Resources Committee, thank 
you for inviting me to testify before this Committee on the important 
subject of whether to allow oil drilling on the Coastal Plain of the 
Arctic National Wildlife Refuge. I recommend that this Committee not 
pass this proposed legislation. In the entire world, there are some 
special places that, because of their unique values, should be placed 
off-limits to industrial development, and the Arctic National Wildlife 
Refuge is one of them. Simply put, there can be no such thing as an 
``environmentally sound'' drilling program on the Coastal Plain. 
<SUP>1</SUP>
    I also provide my recommendation as an attorney with over a decade 
of experience working on oil and gas issues in Alaska. I work with 
Trustees for Alaska, which is a non-profit environmental public 
interest law firm. In this capacity, I have counseled and represented 
numerous Alaska-based and national conservation organizations, Native 
tribes, villages and other entities. On behalf of these clients, I have 
litigated numerous lawsuits concerning oil drilling activities in 
Alaska. I have reviewed, counseled and represented clients on 
innumerable state and Federal administrative decisions authorizing oil 
drilling activities in Alaska. I am familiar with a wide range of 
Federal and state proposed and enacted legislation concerning oil 
drilling activities in Alaska and elsewhere, and have counseled clients 
on the intent and legal effect of such legislation, specifically 
including legislative attempts to open the Coastal Plain of the Arctic 
Refuge to oil drilling.
    Trustees itself was organized over a quarter century ago to provide 
counsel to protect and sustain Alaska's environment. Trustees has been 
involved in oil and gas issues in Alaska since the approval and 
construction of the Trans-Alaska Pipeline System, continuing through 
the devastating Exxon Valdez Oil Spill and on to today's debate over 
whether to open the Coastal Plain to oil drilling. <SUP>2</SUP> There 
has not been a significant environmentally-related oil and gas issue in 
Alaska since Trustees' establishment on which it has not been involved. 
I thus also bring my law firm's significant institutional knowledge of 
these issues to the debate whether to authorize oil drilling in this 
pristine wilderness
    With this recommendation and introduction, I now turn to the issue 
at hand. H.R. 39 was introduced to--
        establish and implement a competitive oil and gas leasing 
        program that will result in an environmentally sound and job 
        creating program for the exploration, development, and 
        production of the oil and gas resources of the Coastal Plan, 
        and for other purposes.
    The Chairman noted in his kind invitation to testify that the 
Committee members would be interested in hearing the witnesses' 
perspectives on--
        [t]he bill's provisions to regulate oil and gas leasing on the 
        coastal plain, [] the contribution of ANWR's potential oil and 
        gas resources to the nation's energy supply and to the economy, 
        and in possible impacts of such development on affected Alaskan 
        communities, wildlife and the environment.
    In addressing these issues in my testimony, I begin by discussing 
whether it is even possible to have an ``environmentally sound'' oil 
drilling program. Opening any area of pristine land to oil drilling 
inalterably harms the intangible values that help make it so special. 
Also, history and common sense reveal that oil drilling is guaranteed 
to degrade tangible values. To make this point, I address development 
in other portions of America's Arctic, and discuss the oft-repeated 
proposition that new technology allows for environmentally-benign oil 
drilling and associated activities.
    Recognizing that opening the pristine Coastal Plain to oil drilling 
inevitably will result in irreparable degradation has not, however, 
deterred those who support such drilling. While drilling proponents do 
not often address the inevitable damage that occurs from oil drilling 
to intangible values, they do state that damage to tangible values can 
be reduced to negligible levels through provisions of law like those 
included in H.R. 39. Yet, as discussed below, no credible claim can be 
made that oil drilling ``will result in an environmentally sound--
program for the exploration, development, and production'' of any oil 
under the Coastal Plain.
    Moreover, the vast majority of America's Arctic is open to, and 
being aggressively explored and exploited for, its oil and gas 
resources. To put the debate over oil drilling on the Coastal Plain in 
its appropriate context, I provide information on the lands currently 
available for oil and gas exploration or development in America's 
Arctic.
    To also put the potential oil resources of the Arctic Refuge's 
Coastal Plain in context, I reference recent estimates of the extent of 
those resources and how they relate to oil imports in the United 
States, and compare that to how an increase in automobile fuel 
efficiency would impact oil consumption and imports.
    Oil drilling has also had dramatic effects on local communities 
throughout America's Arctic, and further drilling will exacerbate such 
impacts. I address this issue in the final section of my testimony.

                      ``The Essential Trade-Off'' 
           A Pristine Environment or Oil and Gas Development

    Oil drilling harms both the intangible wilderness values of 
pristine environments, as well as more tangible wildlife and other 
values. No more need be said about the importance of protecting the 
intangible values of the Coastal Plain from industrialization than that 
said in this quote from United States Supreme Court Justice William O. 
Douglas:
          The Arctic has a strange stillness that no other wilderness 
        knows. It has loneliness too--a feeling of isolation and 
        remoteness born of vast spaces, the rolling tundra, and the 
        barren domes of limestone mountains. This is a loneliness that 
        is joyous and exhilarating. All the noises of civilization have 
        been left behind; now the music of wilderness can be heard. The 
        Arctic shows beauty in this bareness and in the shadows cast by 
        clouds over empty lands. The beauty is in part the glory of 
        seeing moose, caribou, and wolves living in natural habitat, 
        untouched by civilization. It is the thrill of seeing birds 
        come thousands of miles to nest and raise their young.
          The Arctic has a call that is compelling. The distant 
        mountains make one want to go on and on over the next ridge and 
        over the one beyond. The call is that of wilderness known only 
        to a few. It is a call to adventure. This is not a place to 
        possess like the plateaus of Wyoming or the valleys of Arizona; 
        it is one to behold with wonderment. It is a domain for any 
        restless soul who yearns to discover the startling beauties of 
        creation in a place of quiet and solitude where life exists 
        without molestation by man. <SUP>3</SUP>
    As for impacts to tangible values, one need only look to the large 
part of the terrestrial portion of America's Arctic that has been 
committed to the development of its oil and gas resources. At present, 
the oil industry sprawls across more than 1,000 square miles of the 
North Slope; an area roughly the size of Rhode Island. This huge 
industrial complex, which literally can be seen from space, includes 
production pads and facilities, gravel roads, airfields and pipelines. 
<SUP>4</SUP>
    The oil industry on Alaska's North Slope annually emits 
approximately 70,000 tons of nitrogen oxides, which contribute to smog 
and acid rain. <SUP>5</SUP> This is more than twice the amount emitted 
by Washington, DC. <SUP>6</SUP> Other regulated pollutants include 
1,470 tons of sulfur dioxide, 6,199 tons of particulate matter, 11,560 
tons of carbon monoxide, and 2,647 tons of volatile organic compounds 
annually. <SUP>7</SUP> North Slope oil facilities release greenhouse 
gases, including 24,000 metric tons of methane, and 7 to 40 million 
metric tons of Carbon Dioxide, annually. <SUP>8</SUP> Prudhoe Bay air 
emissions have been detected nearly 200 miles away in Barrow, Alaska. 
<SUP>9</SUP> According to the National Academy of Sciences, it is not 
clear that air quality standards are sufficient to protect arctic 
vegetation, and monitoring of such ecological effects is not taking 
place. <SUP>10</SUP>
    There are more than 90 oil industry-related contaminated sites in 
America's Arctic. Nearly half of the 328 exploration and production 
drilling waste reserve pits still need to be closed out. <SUP>11</SUP> 
Gravel pads contaminated by spills of oil, diesel, and other toxic 
substances are a long-term restoration problem, and recognized 
liability issue for the oil companies. <SUP>12</SUP>
    Up to 1.5 billion gallons of water a year is used for building ice 
roads, pads, and drilling. Removing winter water can change the natural 
character of lakes and harm the organisms depending on it for habitat, 
migration, and food. <SUP>13</SUP>
    These impacts come from technology both new and old. A discussion 
of the impacts of the ``hallmark'' Alpine oil field, which lies in the 
floodplain of the Colville River Delta to the west of Prudhoe Bay and 
other oil fields, serves to illustrate this point. <SUP>14</SUP> As 
ARCO stated, ``we'll develop Alpine from just two drill sites of less 
than 115 acres,'' it will have the ``smallest footprint ever.'' 
<SUP>15</SUP> With statements like this, drilling proponents thus point 
to the Alpine oil field as evidence that a new approach to drilling 
could take place in the Arctic Refuge without disturbing its incredible 
natural qualities. Yet the facts of Alpine tell a quite different 
story.
    The original Alpine development site consists of two drilling pads, 
a runway for jet airplanes, three miles of in-field roads and other 
facilities that directly cover 100 acres of tundra. <SUP>16</SUP> It 
also includes 3-miles of in-field gathering pipeline, <SUP>17</SUP> 34-
miles of ``sales'' pipeline from Alpine to Kuparuk, <SUP>18</SUP> and a 
150-acre gravel mine. <SUP>19</SUP> The area in the Delta impacted by 
this development, based on a four-kilometer zone of influence around 
such developments, <SUP>20</SUP> is over 80 square miles. This area 
calculation does not take into account the land impacted by the over 30 
miles of Alpine sales pipeline to the east of the Delta.
    One reason drilling proponents say that Alpine is a ``model'' oil 
field is because the industry uses ice roads instead of gravel roads to 
meet some of its access needs. Ice roads are not, however, without 
impacts. For example, fresh water withdrawals for ice roads and other 
necessary purposes such as drilling, camp use and other purposes come 
from 52 lakes, as much as 141 million gallons per year. During Alpine 
exploration in 1996, 65 million gallons of freshwater were used during 
a single year. <SUP>21</SUP>
    Such massive water withdrawal could decimate fish populations or 
alter bird and wetland habitats even in the relatively wet areas of the 
North Slope, especially because the oil industry uses this vast 
quantity of water with little to no environmental oversight or long-
term monitoring. <SUP>22</SUP> In contrast to the Colville Delta, a 
look at a map of America's Arctic readily shows that freshwater 
resources on the Coastal Plain of the Arctic Refuge are extremely 
limited, especially during the winter when ice roads are constructed. 
<SUP>23</SUP> As such, winter water withdrawals on the Coastal Plain 
could be catastrophic to fish and wildlife species.
    Furthermore, if permanent gravel roads are not built, then access 
during summer is by aircraft. For Alpine, during construction in June 
and July 2001, as many as 1,980 flight take-offs and landings in 45 
days during the migratory bird nesting season <SUP>24</SUP> compared 
with the 13 round trips per month discussed in 1997 project 
descriptions. <SUP>25</SUP>
    During Alpine's construction, the field operator lost 2.3 million 
gallons of drilling muds while tunneling under the Colville River. 
While they claimed this huge, unanticipated loss of this lubricant did 
not harm the environment, they ``didn't do anything'' to determine if 
the drilling muds filtered up from beneath the river and actually 
seeped into the river itself. <SUP>26</SUP>
    Gas flaring episodes at the Alpine oil field lasting longer than 
one hour exceeded quantities released in such upsets at all the other 
North Slope oil fields combined in 2000. <SUP>27</SUP> Alpine is 
located only 7 miles from Nuiqsut. Adverse human health effects from 
chronic exposure to repeated flaring discharges have been observed for 
people living or working near flaring in Canada and from offshore 
development near Los Angeles. <SUP>28</SUP> According to a Canadian 
study, adverse impacts may occur at distances ranging from 0.2--35 km 
from the flaring.
    Yet, in permitting Alpine to proceed, Federal regulators did no in-
depth environmental review of Alpine, claiming that its impacts were 
simply not significant, and dismissing the inevitable future 
development spawned by Alpine's presence and common carrier pipeline as 
``speculative,'' ``conjectural,'' and ``not reasonably foreseeable.'' 
<SUP>29</SUP> This view of Alpine was supported by then-Senator 
Murkowski as well:
    You can see that is a whole oilfield. That is it...You know there 
is one thing you see and you see a little airstrip and that is all. 
There is no road out of there. There is a[n] ice road in the 
wintertime, but in the summertime you have to fly to get in and out of 
there...That is the technology we have. So it is an entirely different 
set of circumstances. To suggest that somehow this would be an expanse 
covering hundreds of miles, with airports and so forth, is totally 
inaccurate... <SUP>30</SUP>
    In 2003, ConocoPhillips, which had taken over the Alpine field from 
ARCO, announced plans for developing fifteen additional drill sites 
including 10 satellite sites that are expected to connect to Alpine. 
Once the new satellites are constructed, the Alpine Project will 
include 25 miles of permanent gravel roads, 19 miles of which would be 
on the NPR-A, two airstrips, a 150-acre gravel mine, and 60 miles of 
pipelines. The Alaska Department of Transportation is also studying 
building a new permanent road to the village of Nuiqsut just south of 
Alpine, <SUP>31</SUP> and Governor Murkowski has promoted its 
usefulness for new oil field development.'' <SUP>32</SUP>
    What happens when an oil facility is no longer needed also 
demonstrates that once an area is committed to oil drilling, it will 
never again return to its pre-drilling natural state. The National 
Academy of Sciences recently analyzed the history of North Slope 
development and assessed how much of the area had been rehabilitated. 
NAS defined rehabilitated as areas ``no longer definable as clearly 
disturbed--or areas that now provide functional habitat but might be 
different from the original.'' <SUP>33</SUP> NAS found that ``[i]n most 
cases,--areas were not restored to their former condition'' and that 
``[r]ehabilitation to some degree has occurred only on about 195 
acres--about 1%--of gravel pads.'' <SUP>34</SUP>
    Disturbingly, NAS also found that--
        [e]xisting state and Federal laws and regulations governing 
        surface restoration lack clear definitions and standards, and 
        they overlap in potentially conflicting ways. The lack of 
        definitions in the relevant statutes and regulations of clear 
        restoration goals makes it difficult to plan and design 
        restoration activities. <SUP>35</SUP>
    The facts thus show that oil drilling, no matter the technology 
employed, involves inevitable environmental degradation. As a 
conclusion to its review of existing data concerning the cumulative 
effects of oil and gas activities on Alaska's North Slope, the National 
Academy of Sciences acknowledged just this reality in its section aptly 
titled ``The Essential Trade-Off'':
        The effects of North Slope industrial development on the 
        physical and biotic environments and on the human societies 
        that live there have accumulated, despite considerable efforts 
        by the petroleum industry and regulatory agencies to minimize 
        them....Continued expansion is certain to exacerbate some 
        existing effects and to generate new ones...[I]f wise decisions 
        are to be made, the nature and extent of undesirable effects 
        likely to accompany future activities must be fully 
        acknowledged and incorporated into regulatory strategies and 
        decision-making. <SUP>36</SUP>
Existing and Proposed Environmental Regulation of Oil Drilling is Not 
        Stringent
    The oil industry has always enjoyed special treatment in the form 
of exemptions from environmental regulations that apply to the exact 
same pollution originating from different industrial sources. These 
exemptions belie any promise that oil industry activities will be held 
to the highest possible environmental standards. Moreover, H.R. 39 
itself disingenuously deals with the fact that, as discussed above, 
there can be no such thing as a truly ``environmentally sound'' oil 
drilling program. And it also continues the disturbing trend of oil 
industry exemptions and massive discretion to regulators that is 
evident both in fundamental environmental laws and in previous drill-
the-refuge bills.
    Environmental laws not addressed in H.R. 39 greatly influence how 
oil drilling can be conducted. For example, Congress exempted certain 
oil and gas extraction wastes from regulation as hazardous wastes under 
the Resource Conservation and Recovery Act (RCRA), pending an EPA 
study. <SUP>37</SUP> Trustees for Alaska sued EPA to force it to do the 
study. When the agency finally completed the study in late 1987 during 
President Bush's Administration, it determined that regulation of such 
wastes was not warranted. <SUP>38</SUP>
    The RCRA exemption gives special treatment to the high volumes of 
oil production wastes, such as drilling muds and cuttings, oil rig 
wastes, produced water, and associated wastes, including tank bottoms, 
pit sludges, and well work-over wastes. If these wastes were produced 
by any other industry, such as dry cleaners, they would be regulated as 
hazardous wastes with special precautions taken. <SUP>39</SUP>
    Anticipating that an informed public would pressure companies to 
reduce emissions, in 1986 Congress enacted the Emergency Planning and 
Community Right-To-Know Act. The Act requires certain polluters to 
report annually their toxic releases for inclusion in a Toxic Release 
Inventory, a database maintained by EPA and made available to the 
public. The database has been used to support calls for stronger 
regulations, and to publicize local polluters, as well as to prepare 
communities for accidental releases of toxic substances. Some financial 
advisors even use the database to screen companies for investors. 
<SUP>40</SUP>
    The oil industry, however, is largely exempt from reporting oil 
field wastes to EPA for inclusion in the Toxic Release Inventory. 
<SUP>41</SUP> In 1996, the industry was successful in its lobbying 
efforts to ensure that most oil field exploration and production 
facilities were exempted from EPA regulations that addressed the kind 
of industries required to submit yearly ``right-to-know'' reports. 
<SUP>42</SUP> The exemption covers toxic air pollutants produced in oil 
field operations in America's Arctic, including lead and known 
carcinogens such as polycyclic aromatic hydrocarbons, benzene, and 
xylene.
    Finally, just two days ago, new Clean Water Act regulations went 
into effect concerning storm water run off from small construction 
sites. The Environmental Protection Agency, claiming it had conflicting 
information about the environmental effects of oil industry 
construction sites, relegated the issue to the black hole dustbin of 
``further study is needed.'' As they now stand, therefore, these new 
rules apply to small communities and small construction projects in 
every sector of the economy but the oil industry. <SUP>43</SUP>
    Turning to the provisions of H.R. 39 itself, this tradition of lax 
regulation of oil industry operations continues. There are multiple 
elements of the bill that refute the claim that drilling would be done 
in an environmentally sensitive manner, including the following:
    <bullet> it exempts a large part of a leasing program from the 
environmental review and public participation provisions of the 
National Environmental Policy Act, Subsections 2(c)(2) and (3);
    <bullet> it uses weaker standards for the protection of the 
wildlife and wilderness character of the Refuge than exist in laws that 
apply elsewhere, Subsection 3(a) and Section 6;
    <bullet> it fails to mandate almost any specific environmental 
protection for the Coastal Plain, relying instead on the discretion of 
the Secretary of the Interior to impose such protections, Sections 6 
and 7;
    <bullet> it eliminates the fundamental ``compatibility'' standard 
which is at the heart of National Wildlife Refuge management, wherein 
activities that impair Refuge purposes cannot be allowed, Subsection 
3(c)(1);
    <bullet> it contains weaker restoration standards and financial 
assurances than exist in other laws, Subsection 6(a)(5);
    <bullet> it may limit the authority currently available under key 
provisions of the Endangered Species Act and National Wildlife Refuge 
System Administration Act to close areas in the Refuge for important 
protective reasons, Subsection 3(f);
    <bullet> it raises the bar on judicial review of the Secretary's 
decisions to such a high level as to significantly limit the 
traditional check placed on the executive branch by the judiciary, 
Section 8;
    <bullet> it is ambiguous as to whether the Fish and Wildlife 
Service (the nation's wildlife experts) or the Bureau of Land 
Management (the mineral development experts) administers the leasing 
program, Subsection 3(a).
The Vast Majority of America's Arctic is Available for Oil Exploration 
        or Drilling
    The State and Federal Governments are also aggressively offering 
lands to oil companies across the North Slope and in the Beaufort Sea. 
Secretary of the Interior Gale Norton plans massive lease sales in the 
Arctic Ocean and in the Western Arctic. The Beaufort Sea Outer 
Continental Shelf (OCS) lease sales encompass up to 9.8 million acres, 
<SUP>44</SUP> and an additional 181,757 acres have already been leased. 
In the National Petroleum Reserve-Alaska, over 4 million acres were 
offered for lease in the Northeast Area, <SUP>45</SUP> and plans for 
leasing up to 8.8 million acres in the Northwest Area are currently 
under consideration. <SUP>46</SUP> BLM plans to start the lease 
planning process for the last large segment of NPR-A, the South 
Planning Area, in January, 2004. <SUP>47</SUP>
    BLM has announced plans to begin reconsidering the status of the 
Teshekpuk Lake Surface Protection Area, which includes areas deleted 
from leasing by the 1998 Northeast Area Plan decision, with a plan 
amendment process to begin in 2003. <SUP>48</SUP> In October 1998, 
Interior Secretary Bruce Babbitt authorized oil and gas leasing in 87% 
of the Northeast corner. Although he deleted about 593,000 acres in the 
Teshekpuk Lake area from leasing and put a five to six mile wide ``no-
surface occupancy'' buffer zone around its south and west side, seismic 
oil exploration continues to be allowed in this sensitive area. Now, 
BLM is considering industry's requests for leasing in the deleted area, 
and to eliminate buffer zones and other mitigation stipulations.
    Existing leases cover 4.2 million acres of State of Alaska land on 
the North Slope and adjacent Beaufort Sea. <SUP>49</SUP> The State 
plans to hold annual lease sales covering 14.1 million acres of lands 
in the Arctic (including the North Slope Area-wide, North Slope 
Foothills Area-wide, and Beaufort Sea Area-wide sales). <SUP>50</SUP> 
Just this state-owned acreage is larger than nine different states, 
including New Hampshire, Connecticut and New Jersey.
    Finally, the Arctic Slope Regional Corporation has exploration 
lease agreements with oil companies on at least 3.3 million acres on 
the North Slope, outside the Arctic Refuge. <SUP>51</SUP>

    Drilling the Refuge Would Do Little to Reduce U.S. Oil Imports; 
               Increasing Fuel Efficiency Would Do a Lot

    Oil from the Arctic Refuge would not make a dent in our need to 
import oil. The U.S. Geological Survey has concluded that the refuge 
holds less economically recoverable oil than the U.S. consumes in six 
months. Top oil company officials have acknowledged that it would most 
likely take a decade or more of exploration and development before any 
oil from the refuge would become available. In February 2002, the 
Department of Energy's Energy Information Administration concluded that 
drilling in the Refuge would only reduce oil imports from 62% to 60% of 
our total oil supply at its peak of production in 2020. <SUP>52</SUP>
    The U.S. could move toward energy independence by investing in 
conservation and renewable energy efforts. Requiring fuel-efficient 
replacement tires on automobiles would save about 5.8 billion barrels 
of oil. Raising fuel economy standards by 60 percent would save 50 
billion barrels of oil, more than one order of a magnitude greater than 
the oil projected to lie beneath the Coastal Plain. <SUP>53</SUP>

       Adverse Impacts of Oil Development on Alaskan Communities

    To be sure, residents of the State of Alaska have benefited, and 
given the intense and aggressive industrial expansion on the North 
Slope, will continue to benefit, from oil development in Alaska. 
<SUP>54</SUP> And yet, oil is a finite resource, and one day we will be 
forced to look beyond petrochemicals to fuel our country. What, then, 
will be left for those people who live in the Arctic?
    Rather than speak for others, perhaps it is best to let them speak 
for themselves. What follows is a sampling of comments from residents 
of communities impacted by existing oil industry operations and 
residents of communities that stand to be impacts if oil drilling were 
allowed on the Coastal Plain of the Arctic National Wildlife Refuge.
        Development has increased the smog and haze in our air and sky, 
        affecting our health as well as the beauty of our land, sea, 
        and air.
    City of Nuiqsut Council Members, 2001. <SUP>55</SUP>
        How many wells are out there pumping away already? How many 
        blowoffs, the flares, do we have to watch every year? They say 
        they're only going to be there 30 days out of the year. But 
        that's what they say for these statements. In actuality, we see 
        it. You can count the flares from here...What is put out from 
        those flares comes back to us. We have to see it. Our air has 
        changed. The health of our people has changed. We have a lot 
        more health problems than years ago...Day after day I have to 
        see asthma patients...Let's see how many of our young children 
        are going to be sick, having trouble breathing, when we've got 
        12 flares blowing all at once...
    Rosemary Ahtuangaruak, Health Aide, Nuiqsut, 1998. <SUP>56</SUP>
        The cumulative impacts of all the developments leading to the 
        surrounding or ``boxing in'' of the community by oil and gas 
        development on all sides is devastating to the hopes and 
        aspirations of our community members...Prudhoe Bay oil 
        development has caused Nuiqsut residents to cease virtually all 
        subsistence activities to the east of the community.
    City of Nuiqsut, 2001. <SUP>57</SUP>
        We are caribou people. Oil development in the birthplace and 
        nursery grounds of the Porcupine Caribou Herd would hurt the 
        caribou and threaten the future of the Gwich'in.
    Sarah James, Gwich'in Steering Committee.
        It is our belief that the future of the Gwich'in and the future 
        of the caribou are the same. We cannot stand by and let them 
        sell our children's heritage to the oil companies.
    Jonathan Solomon, Gwich'in Steering Committee. <SUP>58</SUP>

                     Conclusion and Recommendation

    I have stood in both the pristine and industrialized parts of 
America's Arctic and gazed out to the Arctic Ocean. The contrast 
between that part of America's Arctic that has been committed to the 
oil industry and that part which remains pristine is dramatic and 
unquestionable. Oil drilling and pristine environments simply do not 
mix. As an American who greatly values our nation's public lands, lands 
that belong to all Americans, I urge you not to pass out of Committee 
legislation that would open to oil drilling this last remaining truly 
pristine piece of America's Arctic.

                                ENDNOTES

<SUP>1</SUP> For their invaluable assistance in preparing this 
        testimony and related illustrations and exhibits, I would like 
        to thank Pamela A. Miller, Arctic Connections, Stan Senner, 
        National Audubon Society, David Pray, Conservation GIS Center 
        and Tom Ofchus and the rest of the employees of Trustees for 
        Alaska.
<SUP>2</SUP> A small sampling of reported judicial opinions supporting 
        this point include: Edwardson v. DOI, 268 F.3d 781 (9th Cir. 
        2001); Trustees for Alaska v. DOI, 919 F.2d 119 (9th Cir. 
        1990); Trustees for Alaska v. Hodel, 806 F.2d 1378 (9th Cir. 
        1986; Cook Inlet Keeper v. Alaska, 46 P.2d 957 (Alaska 2002); 
        Gwich'in Steering Committee v. Office of the Governor, 10 P.3d 
        572 (Alaska 2000); Trustees for Alaska v. DNR, 865 P.2d 745 
        (Alaska 1993); Trustees for Alaska v. DNR, 851 P.2d 1340 
        (Alaska 1991).
<SUP>3</SUP> My Wilderness at 9-10, Doubleday & Company, Inc., Garden 
        City, New York (1960).
<SUP>4</SUP> See e.g., Cumulative Environmental Effects Of Oil and Gas 
        Activities on Alaska's North Slope, National Academy of 
        Sciences (NAS Report) at 3, 52-80, 227 (March 2003).
<SUP>5</SUP> U.S. Army Corps of Engineers. 1999. Final Environmental 
        Impact Statement, Beaufort Sea Oil and Gas Development/ 
        Northstar Project. Vol. III, Table 5.4-6, data from ARCO and 
        BPXA, 1994, as reported to Alaska Department of Environmental 
        Conservation. Emissions estimates based on fuel consumption for 
        Prudhoe Bay, Endicott, Lisburne and Kuparuk oil field main 
        production facilities but does not include Alpine, Badami, Pt. 
        McIntyre oil fields, Tarn, Northstar or four Trans-Alaska 
        Pipeline Pump Stations, nor emissions from drill rig engines or 
        vehicles.
<SUP>6</SUP> EPA. March 2000. National Air Pollutant Emissions Trends: 
        1900-1998. www.epa.gov/ttn/chief/trends98/emtrnd.html. DC- 
        23,000 short tons (Table 2.2).
<SUP>7</SUP> U.S. Army Corps of Engineers. June 1999. Final 
        Environmental Impact Statement Beaufort Sea Oil and Gas 
        development/Northstar Project. Volume III, Table 5.4-7.
<SUP>8</SUP> Jaffe, D.A., R.E. Honrath, D. Furness, T.J. Conway, E. 
        Dlugokencky, and L.P. Steele. 1995. A determination of the CH4, 
        NOx, and CO2 emissions from the Prudhoe Bay, Alaska oil 
        development. Journal of Atmospheric Chemistry 20: 213-227.; 
        Brooks, S.B., T.L. Crawford, and W.C. Oechel. 1997. Measurement 
        of carbon dioxide emissions plumes from Prudhoe Bay, Alaska oil 
        fields. Journal of Atmospheric Chemistry 27: 197-207.
<SUP>9</SUP> Jaffe, D.A. R.E. Honrath, D. Furness, T.J. Conway, E. 
        Dlugokencky, and L.P. Steele. 1995. A determination of the CH4, 
        NOx and CO2 emissions from the Prudhoe Bay, Alaska Oil 
        Development. Journal of Atmospheric Chemistry 20: 213-227.
<SUP>10</SUP> NAS Report at 141.
<SUP>11</SUP> NAS Report at 151.
<SUP>12</SUP> NAS Report at 148.
<SUP>13</SUP> NAS Report at 77.
<SUP>14</SUP> It is noteworthy that the promises of technology like 
        those made for Alpine are nothing new. As long ago 1978, BP 
        espoused the promise of new technology in minimizing 
        environmental impacts:

    Directional drilling, ideally suited for North Slope operations, 
        enables the [oil] reservoir to be tapped more than one mile 
        from the pad'' no unsightly drilling rigs are left to mar the 
        landscape; they are moved as soon as their task is done. Only a 
        relatively small system of flow lines will be installed above 
        ground to carry the oil from each well to the gathering 
        centers. Formal cleanup programs keep Prudhoe Bay part of the 
        wilderness.

    BP Alaska Inc, North Slope Alaska: Man and the Wilderness, p.23 
        (1978). It is hard to imagine anyone looking at Prudhoe Bay 
        today and seeing wilderness.
<SUP>15</SUP> ARCO, Discovering the Future (1998).
<SUP>16</SUP> Specifically, the development includes Alpine Pad 1 (main 
        production pad, drill site, housing, storage area)--36.3 acres; 
        Alpine Pad 2 (drilling site)--10.1 acres; in-field roads (3-
        miles long)--14.6 acres; airfield--35.7 acres; other (culverts, 
        etc.)--1.7 acres. See U.S. Army Corps of Engineers Alaska 
        District, Permit Evaluation and Decision Document, Alpine 
        Development Project, Colville River 18 (2-960874), p. 2 
        (February 13, 1998).
<SUP>17</SUP> Arco Alaska Inc. et al., Revised Alpine Development 
        Project: Environmental Evaluation Document, pp. 2-13 (September 
        1997).
<SUP>18</SUP> U.S. Army Corps of Engineers Alaska District, Permit 
        Evaluation and Decision Document, Alpine Development Project, 
        Colville River 18 (2-960874), p. 3 (February 13, 1998).
<SUP>19</SUP> U.S. Army Corps of Engineers Alaska District, Colville 
        River 17 (4-960869) to Nuiqsut Constructors (Alpine gravel pit) 
        (June 24, 1997).
<SUP>20</SUP> Nellemann, C., and R.D. Cameron, Cumulative Impacts Of An 
        Evolving Oilfield Complex On Calving Caribou, Canadian Journal 
        of Zoology, 76:1425-1430 (1998).
<SUP>21</SUP> U.S. Army Corps of Engineers Alaska District, Public 
        Notice of Application for Permit, Colville River 18 (2-960874), 
        pp. 2-3 (April 7, 1997).
<SUP>22</SUP> Letter from Trout Unlimited Alaska Salmonid Biodiversity 
        Program to Alaska Governor Tony Knowles (May 7, 2001).
<SUP>23</SUP> U.S. Department of the Interior, Draft Arctic National 
        Wildlife Refuge, Alaska, Coastal Plain Resource Assessment, 
        Report and Recommendations to the Congress of the United States 
        and Legislative Environmental Impact Statement (``LEIS''), p. 
        21 (November 1986); U.S. Department of the Interior, Final 
        LEIS, p. 13 (April 1987).
<SUP>24</SUP> Johnson, C.B., B.E. Lawhead, D.C. Payer, J.L. Petersen, 
        J.R. Rose, A.A. Stickney, and A.M. Wildman. May 2001. Alpine 
        avian monitoring program, 2000. Third annual report. Prepared 
        for Phillips Alaska, Inc. and Kuukpik Unit Owners. ABR, Inc. 
        Fairbanks. P. I.
<SUP>25</SUP> ARCO Alaska, Inc., Anadarko Petroleum Corporation, and 
        Union Texas Petroleum. September 1997 (revised). Alpine 
        Development Project: Environmental Evaluation Document. Table 
        2.3.1.
<SUP>26</SUP> Associated Press, Alpine Drilling Revised, Anchorage 
        Daily News, page D6 (October 2, 1998).
<SUP>27</SUP> Bodron, D. 2003. Information on 2000 flaring (Gas2000 
        North Slope.xls; Re 2000 flaring.rtf) from Wendy Mahan, Alaska 
        Department of Natural Resources, April 6, 2001.
<SUP>28</SUP> Argo, J. 2001. Unhealthy effects of upstream oil and gas 
        flaring. A report prepared for Save Our Seas and Shores, for 
        presentation before the Public Review Commission into effects 
        of potential oil and gas exploration, drilling activities 
        within Licences 2364, 2365, 2368. Sydney, Nova Scotia, January 
        18, 2002. IntrAmericans Centre for Environment and Health, 
        Wolfe Island, ON, Canada.
<SUP>29</SUP> U.S. Army Corps of Engineers Alaska District, Permit 
        Evaluation and Decision Document, Alpine Development Project, 
        Colville River 18 (2-960874), p. 30, 31 (February 13, 1998).
<SUP>30</SUP> Senator Frank Murkowski. April 17, 2002. Congressional 
        Record. Pp. S2867-2868.
<SUP>31</SUP> Petroleum News Alaska. September 29, 2002. Road to NPR-A.
<SUP>32</SUP> Governor Frank Murkowski. Speech to Arctic Power 
        (February 14, 2003). Anchorage Daily News. February 15, 2003. 
        Oil called key to budget balance, Ideas: Governor floats 
        notions including road across the Slope.
<SUP>33</SUP> NAS Report at 144.
<SUP>34</SUP> Id.
<SUP>35</SUP> NAS at 146; see also U.S. General Accounting Office, 
        Alaska's North Slope, Requirements for Restoring Lands After 
        Oil Production Ceases. GAO-02-357 (June 2002).
<SUP>36</SUP> NAS Report at 21.
<SUP>37</SUP> Section 8002(m) of RCRA, 40 U.S.C. Section 6982(m). For 
        more details on this exemption see NRDC, et al., Tracking 
        Arctic Oil: Background Technical Document, (1991), p. 25.
<SUP>38</SUP> 53 Fed. Reg. 11 (Jan. 4, 1988) (report to Congress); 53 
        Fed. Reg. 25446 (July 6, 1988) (regulatory determination).
<SUP>39</SUP> See 40 CFR Sec. 261.4(b)(5) (1990).
<SUP>40</SUP> New York Times, ``The Nation's Pollution: Who Emits What, 
        and Where,'' October 13, 1991, p. F10.
<SUP>41</SUP> Emergency Planning and Community Right to Know Act, 
        Section 313, Title III, Superfund Amendments and 
        Reauthorization Act of 1986, 42 USC Sec. 11023.
<SUP>42</SUP> Offshore Magazine 57(5), ``Activity review of U.S. 
        regulatory, legislative issues,'' May 1, 1997.
<SUP>43</SUP> 40 C.F.R. Part 122; see also Lee, Oil and Gas Industry 
        Exempt From New Clean Water Rules,, New York Times (March 8, 
        2003.
<SUP>44</SUP> U.S. Minerals Management Service. February, 2003. 
        Beaufort Sea Planning Area, Sales 186, 195, and 202, Final 
        Environmental Impact Statement. OCSs EIS/EA MMS 2003-001.
<SUP>45</SUP> U.S. Secretary of the Interior Bruce Babbitt. October 7, 
        1998. Northeast National Petroleum Reserve-Alaska: Integrated 
        activity plan/ Environmental Impact Statement. Record of 
        Decision.
<SUP>46</SUP> U.S. Department of the Interior. January 2003. Northwest 
        National Petroleum Reserve-Alaska, Draft Integrated activity 
        plan/ environmental impact statement. Anchorage.
<SUP>47</SUP> Bureau of Land Management. January 8, 2003. Alaska Ten-
        Year Planning Schedule. Anchorage.
<SUP>48</SUP> Alaska Oil & Gas Reporter. February 16, 2003. BLM reviews 
        NPR-A restrictions.
<SUP>49</SUP> State of Alaska, Department of Natural Resources. 
        December 17, 2002. Active Oil and Gas Lease Inventory. http://
        www.dog.dnr.state.ak.us/oil/products/publications/oginventory/
        oginventory.htm.
<SUP>50</SUP> State of Alaska, Department of Natural Resources. January 
        2003. Five-Year Oil and Gas Leasing Program.
<SUP>51</SUP> Arctic Slope Regional Corporation. 2003. Lease 
        Exploration Agreement on lands between Colville and Canning 
        Rivers. www.asrc.com
<SUP>52</SUP> Energy Information Agency, The Effects of the Alaska Oil 
        and Natural Gas Provisions of H.R. 4 and S. 1766 on U.S. 
        Markets, February 2002.
<SUP>53</SUP> Natural Resources Defense Council, A Responsible Energy 
        Policy for the 21st Century, App. A (March 2001).
<SUP>54</SUP> On this point it is noteworthy that H.R. 39 does not 
        contain a revenue allocation provision. Thus, revenues from oil 
        leasing and production would be split 90/10 between the State 
        of Alaska and the United States, respectively. Previous Coastal 
        Plain drilling bills include a 50/50 revenue allocation, as 
        does leasing within the National Petroleum Reserve--Alaska. See 
        H.R. 4 Section 6512; CRS Report IB10111 at 9.
<SUP>55</SUP> Letter to National Research Council submitted by Vice-
        Mayor R. Ahtuangaruak (April 11, 2001). Nuiqsut is located on 
        the Colville River south of the Alpine development.
<SUP>56</SUP> U.S. Army Corps of Engineers. 1999. Final Environmental 
        Impact Statement, Beaufort Sea Oil and Gas Development/ 
        Northstar Project. Appendix K. Testimony from Nuiqsut public 
        hearing, July 30, 1998,p. 47-48.
<SUP>57</SUP> City of Nuiqsut. 2001. NPR-A grant information, submitted 
        by R. Ahtuangaruak to National Research Council on April 5, 
        2001.
<SUP>58</SUP> See also NAS at 238.
                                 ______
                                 

    [Attachments to Mr. Van Tuyn's statement follow:]
    [GRAPHIC] [TIFF OMITTED] T5583.007
    
    [GRAPHIC] [TIFF OMITTED] T5583.008
    

    The Chairman. Mr. Boyd?

STATEMENT OF KENNETH A. BOYD, FORMER DIRECTOR, ALASKA DIVISION 
                         OF OIL AND GAS

    Mr. Boyd. Mr. Chairman, members of the Committee, for the 
record, my name is Ken Boyd and I am currently an oil and gas 
consultant in Alaska. From 1995 until early 2001, I was 
Director of the Alaska Division of Oil and Gas. I have worked 
in the oil and gas business in a variety of capacities since 
1973, much of that time working on Alaska exploration.
    Mr. Chairman, you have had a lot of background information 
today. I am going to try not to go back and revisit all that 
but cherry pick some of my testimony.
    I want to reemphasize what Secretary Norton said about the 
1002 area. It was not chosen arbitrarily. This is the 8 percent 
of the ANWR that is actually being considered for oil and gas 
development. It was chosen because this is an area that does 
have high potential for significant accumulations of oil and 
gas. It is the best on-shore prospect in the United States, 
probably in North America.
    The Southern boundary, I want to be very clear, of the 1002 
area is the Sadlerochit Mountains. The areas South of that are 
simply not prospective for oil and gas. The 1.5 million acres 
is the only part of ANWR that has any oil and gas potential.
    Despite the Congressional mandate to examine the 1002 area 
for its oil and gas potential, very little exploration has 
actually taken place. Only about 1,500 miles of two-dimensional 
or 2-D seismic have been recorded in the 1002 area. These data 
were recorded in two winter seasons in 1984 and 1985. I was a 
member of the industry team that designed those seismic 
programs.
    The only well that has been drilled in 1002 is the Kaktovik 
Inupiat Corporation Number 1 well, which is always called the 
KIC well. It was drilled over two seasons in 1985 and 1986. 
This well was drilled on private, on native land, by BP and 
Chevron and the results of this well are highly confidential 
and have not been released.
    The small amount of data in the 1002 is in sharp contrast 
to the amount of exploration data that the State has acquired 
on State lands between the Canning and the Colville Rivers to 
the West. The result of this exploration has been that oil 
discoveries today provide about 17 percent of our nation's 
domestic oil supply.
    Most of this area has also seen the application of 3-D 
seismic data, and the difference, simply put, is 3-D seismic 
data is what x-rays are to CAT scans. An x-ray, two-dimensional 
data in the plane. Three-D, like a CAT scan, it is a volume of 
data that can be rotated and sliced. It has provided a much 
better technology for oil and gas exploration. And the real 
benefit is that you will drill fewer wells. The success rate, 
formerly ten or 20 percent, is now up to 40 and 50 percent. 
This is good for the company, sure, but it is good for the 
environment, too, because you drill fewer wells.
    We have talked about the numbers of barrels, potential oil, 
in the ANWR as between six and 16 billion barrels with a mean 
of about ten billion barrels. That is using a recovery factor 
of about 37 percent. In my view, I mean, the USGS, I think, did 
a very fine job on this report, but I think that recovery 
factor is fairly conservative. The recovery rates in Prudhoe 
are approaching 65 percent. If, in fact, they could reach that 
kind of recovery rate in ANWR, the amount of oil that could 
actually be recovered from the refuge might be quite a bit 
higher than the 10.4 billion.
    I have heard stories about that oil only provides a 6-month 
supply. I think it is a dishonest statement. ANWR, the average 
case of ten billion barrels of reserve will produce a million 
barrels of oil a day for over 25 years. It will help offset our 
current 57 percent oil import rate. It will keep the Trans-
Alaska Pipeline System running for many more years, thus 
encouraging additional investment in exploration and production 
in Alaska. TAPS is currently flowing at less than half of its 
2.2 million barrels per day capacity and could easily 
accommodate production from ANWR.
    The pipeline infrastructure on the East side of the slope 
will continue to move closer to the Coastal Plain, thus making 
transportation to TAPS more viable and speed development.
    For the past 25 years, Alaska's oil has been important to 
both the people of Alaska and the Nation as a whole. Currently, 
Alaska is supplying about 17 percent of our nation's oil, about 
one in six barrels, which is down from over 20 percent in 
recent years. But thanks to new technology and a continued 
commitment to explore and drill, that number will stay firm for 
about six more years before it begins to decline. The 1002 area 
has the potential to double the amount of oil Alaska is 
currently producing, thus decreasing our importance on oil 
imports.
    There are those who decry exploring and drilling the 
Coastal Plain. One common cry is that ANWR is the last great 
wilderness. This ignores the fact that 92 percent of ANWR is 
already in a protected status, which is wilderness and refuge, 
and that is not good enough for some.
    Some would prefer to ignore the Congressional mandate to 
evaluate the 1002 area and simply lock it up as wilderness. 
While putting the 1002 into wilderness status may placate those 
with that view, it does not remove the fact that people live 
there. The Inupiat Eskimo people live in the village of 
Kaktovik and a border island within the Coastal Plain and they 
have lived in this area for centuries. This is their home and 
they subsist and recreate on the land and the military has 
active and abandoned sites in the 1002 area. A political 
designation of the 1002 area's wilderness will not make it so.
    I would like to thank the Chairman and the Committee for 
taking this time to discuss issues regarding the Coastal Plain 
of ANWR. The 1002 area has the highest potential for oil and 
gas resources in the United States. I firmly believe that sound 
science is a necessary foundation for implementing successful 
developments in the Arctic, both in the profitable extraction 
of domestic petroleum reserves and the protection of our 
environment. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    [The prepared statement of Mr. Boyd follows:]

   Statement of Kenneth A. Boyd, Consultant, Former Director, Alaska 
                        Division of Oil and Gas

    Mr. Chairman and members of the House Committee on Resources, for 
the record my name is Ken Boyd and I am currently an oil and gas 
consultant in Alaska. From 1995 until early 2001 I was the Director of 
the Alaska Division of Oil and Gas. I have B.S. and M.S. degrees in 
geology from Rensselaer Polytechnic Institute. I have worked in the oil 
and gas business, in a variety of capacities, since 1973. Much of this 
time has been spent working on Alaska exploration.
    My testimony today will not address specific provisions of the 
legislation, rather I hope to provide a background on issues regarding 
the Coastal Plain of ANWR. I will be pleased to address any specific 
questions the Committee may have.
    The Arctic National Wildlife Refuge (ANWR), as it exists today, was 
created through the Alaska National Interest Lands Conservation Act 
(ANILCA) in 1980. Section 1002 of ANILCA specifically set aside 1.5 
million acres on the northern tier of ANWR for investigation of its oil 
and gas potential. This1.5 million acres, known as the ``1002 area'' or 
the ``Coastal Plain'' represents about 8% of the land area of the ANWR 
and about 0.4% of the land in Alaska. The remaining 92% of the land in 
ANWR is in either wilderness or refuge status. The 1002 area was not 
chosen arbitrarily; it was chosen because this area is perceived to 
have a high potential for significant accumulations of oil and gas. 
This high potential area is well constrained geographically and 
geologically. The southern boundary of the 1002 area is the northern 
edge of the Sadlerochit Mountains, part of the vast Brooks Range which 
stretches across northern Alaska. Because of the heat and pressure 
generated in creating these mountains the rocks are not prospective for 
oil or gas. The 1.5 million acre 1002 area is the only part of ANWR 
that has any oil and gas potential.
    Despite the Congressional mandate to examine the 1002 area for its 
oil and gas potential very little exploration has taken place. Only 
about 1500 miles of two-dimensional (2D) seismic data have been 
recorded in the 1002 area. These data were recorded in two winter 
seasons in 1984 and 1985. I was a member of the industry team that 
designed those seismic programs. The only well that has been drilled in 
1002 is the Kaktovik Inupiat Corporation 1 well (always called the 
``KIC well'') drilled over two seasons in 1985--1986. This well was 
drilled on private (Native) land by BP and Chevron and the results of 
this well are highly confidential and have not been released.
    The paucity of data in the 1002 area is in sharp contrast to the 
amount of exploration data that has been obtained on State land to the 
west of ANWR. Between the Canning and Colville rivers hundreds of 
exploration wells have been drilled resulting in oil discoveries that 
provide about 17% of our nation's domestic supply of oil. Most of this 
area has also seen the application of three-dimensional (3D) seismic 
data. 3D seismic data provide a much more accurate picture of the 
subsurface of the earth than does 2D seismic. 2D data can be likened to 
an X-ray image of the body; it is constrained to one plane of 
information. 3D is more like a CAT Scan which provides a volume of data 
which can be manipulated (rotated, sliced) to give the doctor much more 
accurate and useful information. The same is true for 3D seismic with 
respect to geological analysis.
    Many new discoveries in Alaska (and worldwide) are the direct 
result of the application of 3D seismic. It is now the standard 
exploration tool used by industry. Although more costly to obtain 
initially, it pays off in that the success rate for drilling can 
improve dramatically. A 10 or 20 percent success rate was fairly 
typical for exploration wells based on 2D technology. Using 3D data, 
success rates of 40 or 50 percent are becoming common. This higher rate 
is naturally a boon to the industry since they will drill fewer dry 
holes, thus lowering costs. But it is also a benefit to the environment 
since fewer wells are drilled thus lessening any impact.
    As important as 3D seismic is to exploration there is something it 
cannot do; it cannot predict whether oil is actually present in the 
rocks. It can only show the distribution of the rocks in the 
subsurface. Only drilling can find oil.
    The lack of data in ANWR has, in my opinion, resulted in a failure 
to fulfill the Congressional mandate to evaluate the oil and gas 
potential of the 1002 area. The most recent attempt to unravel the 
complexities of ANWR geology was made by the United States Geological 
Survey (USGS) in 1998. It entailed 3 years of study by 40 scientists. 
This is the most comprehensive study ever done and incorporated new 
field work, all the well data available and the information derived 
from reprocessing and reinterpretation of all the seismic data recorded 
in ANWR. This assessment contains the best information available to the 
public.
    The results of this study show an increase in the estimated amount 
of oil in ANWR compared to earlier assessments. Given the many new 
discoveries on the North Slope in recent years it is not hard to 
understand why the numbers grew. These new discoveries are, as the 
assessment concludes, in large part due to the application of new 
seismic and drilling technologies. According to the study ``The 
increase results in large part from improved resolution of reprocessed 
seismic data and geologic analogs provided by recent nearby oil 
discoveries.'' Simply put, new discoveries on other parts of the North 
Slope have influenced the USGS reassessment of the 1002 area. This new 
geologic picture of the North Slope also resulted in the oil resource 
predicted in ANWR to be ``redistributed'' compared to earlier 
assessments. Unlike earlier assessments, now the majority of oil in 
ANWR is thought to be in the northwest portion of the 1002 area and 
thus closer to existing infrastructure. Only drilling can confirm this.
    In round numbers the study says there are between 6 and 16 billion 
barrels of technically recoverable oil in the study area. The mean 
(average) is about 10 billion barrels (a little less than Prudhoe Bay, 
the largest oilfield in North America, has produced in the past 25 
years). Technically recoverable oil is the amount of oil that actually 
comes out of the ground, since you can't get it all. At Prudhoe Bay the 
recovery factor (the percentage of oil you can actually extract) is 
over 60%. The USGS used a very conservative 37% recovery factor in 
their ANWR assessment. If the recovery factor in ANWR fields can match 
Prudhoe Bay then the technically recoverable average increases to about 
18 billion barrels. At today's oil price, and assuming a reasonable 
recovery factor, the amount of oil economically recoverable (the amount 
that can be profitably extracted), will be very close to the 
technically recoverable amount.
    While this study is based on sound scientific principles, that does 
not mean it is right. Despite all the studies that have been done, a 
simple fact remains: the amount of oil in the 1002 area is unknown. It 
is also true that existing data show that ANWR is the best onshore oil 
prospect in the United States. Some believe that the ANWR coastal plain 
is a kind of oil ``bank'' where oil can be withdrawn when needed. This 
is simply wrong. Although ANWR has enormous potential, that potential 
will remain unrealized until drilling is allowed.
    You may hear that developing ANWR is not necessary since it ``only 
provides a six month supply of oil.'' Some say this is misleading; I 
think it's dishonest. ANWR, in the average case of 10 billion barrels 
of reserves, will produce a million barrels of oil a day for over 
twenty-five years. It will help offset our current 57% oil import rate. 
It will keep the Trans Alaska Pipeline System (TAPS) running for many 
more years thus encouraging additional investment in exploration and 
production in Alaska. TAPS is currently flowing at less than half of 
its 2.2 million barrels per day capacity and can easily accommodate 
production from ANWR. The pipeline infrastructure on the east side of 
the Slope will continue to move closer to the Coastal Plain thus making 
transportation to TAPS more viable (and it will speed development). A 
pipeline from the Badami field moved access to TAPS 25 miles closer to 
the 1002. If Exxon and its partners proceed with development at Pt. 
Thomson then there will be a pipeline just across the Canning River.
    For the past twenty-five years Alaska's oil has been important to 
both the people of Alaska and the nation as a whole. Currently Alaska 
is supplying about 17% of our nation's oil, about 1 of 6 barrels; this 
is down from over 20%, but thanks to new technology and a continuing 
commitment to explore and drill, that number will stay firm for about 6 
more years. The 1002 area has the potential to double the amount of oil 
Alaska is currently producing, thus decreasing our dependence on oil 
imports. Yet there are those who decry exploring and drilling the 
Coastal Plain. One common cry is that ANWR is ``the last great 
wilderness.'' This ignores the fact that 92% of ANWR is already in 
protected status (wilderness and refuge), but that's not good enough 
for some. Some would prefer to ignore the Congressional mandate to 
evaluate the 1002 area and simply lock it up as wilderness. While 
putting the 1002 into wilderness status may placate those of that view, 
it does not remove the fact that people live there. The Inupiat Eskimo 
people live in the village of Kaktovik on Barter Island within the 
Coastal Plain. They have lived in this area for centuries. This is 
their home and they subsist and recreate on the land. The military has 
active and abandoned sites in 1002. A political designation of the 1002 
area as ``wilderness'' will not make it so.
    The Federal Government currently owns about 235 million of Alaska's 
365 million acres, about 64% of the state. That's bigger than the 
entire state of Texas. It's larger than Washington, Oregon and 
California combined. 58 million of these acres are designated as 
``official'' wilderness, which accounts for 56% of the nation's total. 
About 40% of Alaska's land is in some sort of protected status, 
including wilderness land. Alaska has the largest state park system in 
the country. The notion that Alaska is somehow ``short'' on wild places 
is simply wrong. If Alaska's wilderness lands were made into a state it 
would be the 11th largest in the nation.
    A comprehensive energy plan will be composed of many parts. 
Conservation is one part, as are potential alternative sources of 
power. Ignoring our own domestic oil sources denies us the ability to 
achieve a greater measure of energy self-sufficiency and security. 
There is no single solution, but opening the Coastal Plain of ANWR to 
responsible oil development clearly needs to be an important part of 
the equation.
    I would like to thank the Chairman and this Committee for taking 
the time to discuss issues regarding the Coastal Plain of ANWR. The 
1002 area has the highest potential for oil resources onshore in the 
United States. This potential will not be realized unless drilling is 
allowed. Companies working in Alaska perform to the highest standards 
anywhere in the world. New technologies like 3D seismic, extended reach 
drilling and grinding and injection of drilling wastes have served to 
shrink the footprint of development. A lot of the new Arctic technology 
has been developed in Alaska. Thousands of environmental and biological 
studies have been conducted on the North Slope either by industry or 
with their support and cooperation. Fields can be developed in 
sensitive areas using these new technologies in combination with site-
specific stipulations and mitigation measures which resulted from these 
studies. I firmly believe that sound science is the necessary 
foundation for implementing successful developments in the Arctic, both 
in the profitable extraction of our domestic petroleum resources and 
the protection of our environment. The life of an oil field is 
temporary, with large fields lasting 30 to 50 years and smaller 
deposits depleted in 10 to 15 years. Our job is to make sure that our 
temporary occupation in these remote areas minimizes any long-term 
detrimental impacts.
                                 ______
                                 
    The Chairman. I thank all the witnesses for their 
testimony.
    I would like to start with Ms. Sweeney. We know that the 
Central Arctic caribou herd population has increased from 5,000 
to nearly 32,000 since oil development began in Prudhoe Bay. 
Two other caribou herds that come into contact with Prudhoe Bay 
development have increased in size, as well. But listening to 
the opponents of this, you would think that these herds have 
declined. And then we have the porcupine caribou herd that uses 
ANWR and Canada's Coastal Plain. Unlike the caribou using 
Alaska's oil fields, its population has declined and we are 
supposed to believe that this is normal. In fact, we have heard 
almost nothing about what happens to these caribou in Canada.
    Are you aware of anything in Canada, such as over-
harvesting, that may be having a population level impact on the 
porcupine caribou herd?
    Ms. Sweeney. I am aware. To address your question, yes, I 
am aware. What one needs to consider is the coincidence of the 
Gwich'in Indian lobby on their Canadian government and how they 
effectively lobbied to have restrictions on the Dempster 
Highway weakened so that they could actually hunt the porcupine 
caribou herd from the road. And for your information, the 
Dempster Highway runs right in the migration path of the 
porcupine caribou. And if they are being over-harvested, the 
weakening of the restrictions coincide with the decline in the 
population by about a third. So if they are hunting caribou 
along the Dempster Highway, how are they going to make it to 
the Coastal Plain to calve?
    And it is important to note, Mr. Chairman, that calving 
would take place in the summertime and the North Slope Borough 
has the ability to regulate when development can occur, and our 
people have been very vocal about restricting development in 
the summertime, during the calving season, because we, too, 
depend on the resource.
    The Inupiat people of the North Slope depend on caribou for 
their daily sustenance, as well, and that is not often heard in 
this debate, and there is no way that the people of Alaska 
would allow development to occur if that was threatened. Thank 
you.
    The Chairman. Thank you. Ms. Clark, you state in your 
testimony that, ``The Arctic refuge environmental assessment 
written in 1987 concluded that oil development would have a 
major impact on the porcupine caribou herd.'' I would like to 
give you an opportunity to review this statement and make any 
necessary corrections.
    I have a copy of that 1987 report and it does not say that. 
The report says, major effects on the porcupine caribou herd 
could result if the entire 1002 area were leased, and for your 
reference, that is on page 123. I believe that the implication 
is that there is a big difference between ``would'' and 
``could,'' and I wanted to give you the opportunity to correct 
that statement in your written testimony.
    Ms. Clark. Thank you, Mr. Chairman. I would be glad to re-
review that. I would like to state, however, that certainly 
from my history with this Committee, I know that this Committee 
has a high regard for science and expectations of using good 
science in decisionmaking. I think that it is--I know that it 
is well documented that oil exploration, oil drilling, oil 
development would dramatically alter the landscape of the 
Coastal Plain of the Arctic National Wildlife Refuge. Decades 
of research by the Fish and Wildlife Service, by the U.S. 
Geological Survey, by independent research, and as late as last 
week, the report that was released by the National Academy 
talks to the impacts that will occur from development.
    If we are going to rely on the 1986 draft which gave rise 
to the 1987 final, and I would be happy to provide for the 
record that kind of--the differences between the 1986 draft and 
the 1987 final are well documented, Mr. Chairman, and I think 
bear review by this Committee.
    If we are going to rely on that draft or the final, then we 
have to acknowledge that there are going to be major impacts to 
wildlife populations and the ecosystem. Whether we are talking 
about caribou or muskoxen or migratory birds or lesser-known 
species of that tundra, we have to acknowledge that the 
ecosystem will be damaged.
    The Chairman. Ms. Clark, I believe that any time there is 
human activity, you change the landscape. I think that the 
question is, can we in an environmentally sensitive manner 
explore and possibly remove oil and gas resources from this 
area. I think that you present somewhat of a false argument 
that we have to choose between our environment and our economy. 
I don't necessarily believe that that is the case. I believe 
that we can, and in an environmentally sensitive way, go in and 
explore these areas. But that is a big part of what this debate 
is.
    Unfortunately, my time has expired. I am going to recognize 
Mr. Markey.
    Mr. Markey. Thank you, Mr. Chairman, very much.
    I just need a little bit of clarification. Maybe the 
panelists could help me. Maybe Mr. Van Tuyn could help me or 
others down there. On page five of the bill, starting on line 
22, it says, in general, the Secretary, after consultation with 
the State of Alaska, the city of Kaktovik, and the North Slope 
Borough, may designate up to a total of 45,000 acres of the 
Coastal Plain as a special area--the bottom of page six, top of 
page six now--as a special area if the Secretary determines 
that the special area is of such unique character and interest 
so as to require special management and regulatory protection. 
The Secretary shall designate as such a special area the 
Sadlerochit Spring area comprising approximately 4,000 acres as 
depicted on the map referred to in Section 2.
    Can you please explain to me, in your opinion, Mr. Van 
Tuyn, what the relationship is between the 45,000 acres and the 
4,000 acres?
    Mr. Van Tuyn. Thank you, Representative Markey. I think the 
view of the special areas within the 1.5 million acre Coastal 
Plain is best explained by an analogy to the National Petroleum 
Reserve-Alaska, which also uses as a management tool the 
special area concept. And on this map to my left, there is a 
picture of the North Slope and available fields. There is a 
cross-hatched small point in the exact middle of the map that 
is called the Teshekpuk Lake Special Area within the National 
Petroleum Reserve-Alaska, and Secretary Babbitt had set this 
area aside--it is almost 600,000 acres--and said, you may not 
lease in most of this area because of its unique wildlife 
values.
    That kind of protection is analogous to the 45,000 acres 
that may be done here, and it is also demonstrative of the 
depth of that protection, because Secretary Norton, who was 
here today, is going to be reconsidering very shortly whether 
that special area should not be opened to full oil and gas 
leasing because she has the discretion to do so. The industry 
wants it and she is going to reconsider that in the coming 
months.
    That is exactly the problem with this provision of H.R. 39, 
Mr. Chairman and Representative Markey. This provision is 
discretionary. It is also quite small compared to the 1.5 
million acres and the 4,000 acres of Sadlerochit Springs 
demonstrates that, as well. Thank you.
    Mr. Markey. Ms. Clark, the argument that we hear is that 
all of this oil would be necessary. Would it not mostly go down 
into California, the oil, if it was discovered and then 
delivered, and would it not then go mostly into the gasoline 
tanks of SUVs, since 50 percent of all the vehicles that are 
going out on the road every day now are--every car that is now 
going to a junkyard is more efficient than the car or SUV being 
purchased by a family in order to replace it. So we are going 
backwards technologically.
    Wouldn't it make more sense for us just to increase the 
fuel economy standards for vehicles, if most of this oil would 
just go to California for more and more SUVs that are going out 
on the street?
    Ms. Clark. Certainly, Congressman, I would agree with that 
statement. The challenge here or the problem here is that we 
are looking at one prong of this whole issue. The one prong is 
we are thirsty and hungry for oil. Nobody debates that. Nobody 
debates that we are a highly oil dependent country and we 
obviously need more to meet our increasing demands.
    What we are not, though, doing is debating and rolling our 
sleeves up and confronting the need for energy efficiency, as 
you mentioned, higher fuel economies, better conservation 
technology. Instead, what we are doing is we are taking what 
some believe is an easy way out. Let us go drill a National 
Wildlife Refuge. Well, what about the almost 300 other National 
Wildlife Refuges in 44 States that have, according to USGS, oil 
potential?
    To violate the integrity of a National Wildlife Refuge, to 
violate the integrity of the National Wildlife Refuge System is 
very short-sighted and the damages are irretrievable and 
irrevocable. Instead, we need to really conserve. We need to 
confront the challenge and be visionary and look to the long 
term of what our obligations to this country are.
    Mr. Markey. Thank you. Thank you for your great testimony. 
Thank you, Mr. Chairman.
    Mr. Rehberg. [Presiding.] Thank you.
    I want to thank the panel for being at this hearing today. 
The Chinese have a saying that says the best time to plant a 
tree was 20 years ago. The next best time is today.
    There are those of us who were around, of course, in 1979 
during the oil situation who recognize that the next generation 
of energy production had not been invented yet and that we were 
still so heavily reliant upon the old generation, and 
unfortunately, nobody has done anything about it since then, a 
lot of talk, a lot of inaction. At least this Administration, 
and I thank the Chairman for having this hearing today, are 
willing to discuss the situation, because it is absolutely 
critical that we plant the seed of energy independence today.
    I have a question for Mr. Boyd, please. Mr. Boyd, there has 
only been one well drilled on ANWR and it was drilled in lands 
owned by the natives that they can't develop unless Congress 
opens ANWR. Is it true that you are one of just a few people 
who have seen the results of that well, and if you haven't seen 
it, that is OK. If you have seen it, what did you see?
    Mr. Boyd. Mr. Chairman, I have seen the well. The well is 
confidential and I got to see the well as a result of an Alaska 
Supreme Court case when I was still at the State and I can't 
discuss the well itself.
    Mr. Rehberg. OK. So I guess if you can't explain the well, 
indirectly, is it worth exploring?
    Mr. Boyd. Mr. Chairman, again, irrespective of the well, I 
mean, I supported the opening of ANWR long before I ever saw 
that well. Like I said in my earlier testimony, I have worked 
in the industry for quite a long time, since the middle-1970's, 
and so I have been supportive of opening ANWR. A well is a data 
point, and so I will leave it at that.
    Mr. Rehberg. I appreciate that.
    Mr. Markey. Mr. Boyd, that is called directional 
legislative drilling for an answer. He was trying to come in 
another way.
    [Laughter.]
    Mr. Rehberg. And I appreciate your answer, because I think, 
indirectly, it is the correct answer, and that is those that 
have seen perhaps the well have made the determination that you 
are willing to support the continuation of those opportunities 
for others, and that means a lot. I think it should mean a lot 
to this policy because you have firsthand knowledge. I have 
been up on the North Slope. I look at the potential and say, I 
don't get why we are not there because I believe it could be 
done in an environmentally sound way.
    Ms. Sweeney, I assume you are familiar with the study by 
the National Academy of Sciences. What is your comment 
regarding what this study has to say about the impacts on the 
health and lifestyle of Alaska Natives of the North Slope?
    Ms. Sweeney. I would have to disagree and dispute some of 
the findings in that report. My people have--are taking the 
revenues generated from oil development to address the social 
ills that we face and that we are taking the opportunity to 
champion our own causes, to address our issues, and the social 
ills that are referenced in that report were there long before 
oil development.
    Oil development did not cause alcoholism or diabetes. They 
were there. You can trace them back to the days of the early 
commercial whalers from places like New Bedford, Massachusetts, 
or Nantucket. It is important to look at the contributions that 
early whalers made to the indigenous population of Alaska's 
North Slope. So to imply that oil development has caused social 
ills to Alaska's North Slope people is simply incorrect.
    Mr. Rehberg. Do the Eskimo people of the North Slope care 
less about the caribou and the environment than the Gwich'in 
do?
    Ms. Sweeney. No. That is--and I say that with such passion 
and emotion because the environment is who we are as people. 
The land represents our culture, the Inupiat culture, and it is 
something that is very, very important to just our healthy 
existence.
    Mr. Rehberg. Mr. Boyd, why is ANWR important to geologists? 
Having been an intended geology major in college, I have a 
passion for geology. I came to the conclusion I did not want to 
have to get a doctorate and perhaps live in Iran, and so I did 
the only smart thing and switched to political science. Here I 
am in Congress, so maybe I should have stuck with geology.
    [Laughter.]
    Mr. Boyd. Mr. Chairman, I guess I went the other way 
around. I started as a geologist and wound up in government, so 
maybe it doesn't work either way.
    But as a geologist and having worked in the ANWR for quite 
a long time, both with a company and consulting for companies, 
and working other places around the world, I have never seen a 
geology more complicated than that in the ANWR. And it is 
interesting just to compare the two USGS reports, the one from 
1995 and the one from 1998, and even there you can see how the 
USGS--I mean, this was a huge study, both of them, and how they 
really have switched the oil around. They have just changed the 
way they think about ANWR, and I am not saying I agree with 
every word in that report. But the discoveries that have been 
made in the North Slope, mostly based as a result of 3-D 
seismic, have shown different depositional patterns and how 
they might exist in the ANWR.
    And maybe I am giving you too long an answer to your 
question. The real answer is, the geology is as complicated as 
any, as fascinating as any I have ever seen. It cries out for 
3-D seismic. The data are on a six-by-four-mile grid. You can 
throw a lot of oil fields through the grid in that seismic 
data. The people that I have actually led through the exercise 
of trying to do the interpretation of it get pretty flaked out 
and probably would have flunked out of geology school, too, 
right about in the middle of ANWR in a place called the 
Huahualo [ph.].
    Mr. Rehberg. Thank you.
    Mr. Pallone?
    Mr. Van Tuyn. Mr. Chairman, could I address this issue, as 
well?
    Mr. Rehberg. Yes.
    Mr. Van Tuyn. It is an important question, and I apologize 
to Representative Pallone.
    There are two points I would like to make. One is that the 
geology of the Arctic Refuge is quite different than the rest 
of the North Slope, and Mr. Boyd had said in his testimony 
today that there is a 65 percent recovery rate in Prudhoe Bay 
and if we could reach that same amount in the Coastal Plain, it 
would be quite a lot more than has been estimated.
    I would just like to reference to the Committee a letter 
that Secretary Norton wrote to the Senate on that exact issue 
in which she said that the USGS recovery factors for the Arctic 
Refuge are based on properties of the geology that are present 
and thought to have potential to contain oil, and that these 
are fundamentally different from the reservoirs at Prudhoe Bay 
and Alpine, and that is what led the USGS to have a recovery 
factor that is half of the 65 percent that Mr. Boyd referenced.
    And the other point I would like to make is that the impact 
of 3-D seismic exploration, as the National Academy of Sciences 
has said, is significantly greater than 2-D. They say that 
expanded application of 3-D technology in those areas where it 
currently exists in the North Slope will increase the potential 
for conflict with the caribou there.
    And so it is not a simple question. The Coastal Plain is a 
special area and these are considerations that I would like the 
Committee to be aware of.
    Mr. Rehberg. Thank you. I will recognize Mr. Pallone next, 
although, Mr. Boyd, I would like your response after--maybe 
that will give you more time to compose your answer, or is it 
OK if he--OK. Could you please respond?
    Mr. Boyd. Well, Mr. Chairman, again, I don't agree with Mr. 
Van Tuyn really on either point. I am not saying the Secretary 
is wrong or right. What I am saying is I don't necessarily 
agree with everything that the USGS has said and I think there 
are attributes or there are aspects of the geology in Prudhoe 
Bay that are present in the Arctic Refuge, in the 1002 area, 
rather.
    In any case, I think that you can improve the recovery 
rates over time. I don't know what it might be like in 5 years. 
All I am saying is that if recovery rates can be made higher, 
then you could get more oil out of the ground. I don't know 
what the number is going to be. Maybe 37 percent is the right 
number, but I don't think it has to be the right number.
    And as to the seismic, I don't agree that the 3-D seismic 
is inherently more damaging than 2-D seismic. It is true that 
there are lots more trucks and things on the ground. I like to 
use the example, if you had two identical lakes and they are 
frozen and you skate a little bit on one lake and you skate a 
lot on the other lake, play a hockey game on the other lake, 
and both lakes melt, where is the difference? And seismic takes 
place in the winter.
    Now, I will say that there have been some problems in the 
hillier terrain to the South, and the trouble has been in 
turning vehicles, because they do what is called a skid turn. 
Just last week, I saw a pretty interesting presentation how 
they have now developed not only the balloon tires, but these 
tractor tread-type things, very low pressure. They are 
articulated. They can climb over the terrain.
    I believe the industry is trying very hard, Mr. Chairman 
and members of the Committee, to try to advance technology to 
try to minimize the footprint in every way that they can.
    Mr. Rehberg. Mr. Markey, over the weekend, or night before 
last, I had a meeting with Mr. Castro talking about his 
environmental problems and he looked at us and Mr. Delahunt and 
he said, ``I will point out to you, sir, that there are no cod 
at Cape Cod.'' Is that true?
    Mr. Markey. Well, there are some.
    Mr. Rehberg. Some?
    [Laughter.]
    Mr. Rehberg. That was his response to us environmentally. I 
just hadn't heard that. It was interesting that he would know--
    Mr. Markey. It could well--again, we have this crisis that 
a lot of the areas are fished out and we are trying to strike a 
balance now, because if you go too far on one side, then you 
wind up without any of those natural resources being left 
there, so--
    Mr. Rehberg. Certainly he is paying attention to our 
political agenda.
    Mr. Pallone?
    Mr. Pallone. Thank you, Mr. Chairman. I wanted to ask Mr. 
Boyd a question, but it is by reference to the discussion we 
had earlier with the Secretary. The Secretary said that the 
bill requires the removal of all facilities, structures, and 
equipment and reclamation of all lands adversely affected by 
oil exploration. The NAS reports that oil companies have not 
set aside funds, I guess, for removing infrastructure in the 
North Slope, for example, where they estimate about $50 billion 
would be necessary to restore, you know, to take this material 
out, to restore the tundra.
    Now, you mentioned in your testimony that you think that 
the statement that ANWR will yield only 6 months of oil is 
misleading and you said, based on the current mean estimate of 
10.4 billion barrels of technical recoverable oil from the 
Coastal Plain. But again, I want to get to this issue of 
economically recoverable. In other words, if you take in the 
cost of having to remove these structures and the equipment and 
basically restoring the tundra, if you add those costs, which I 
guess so far haven't been done for the North Slope, but if you 
add those costs with regard to the Coastal Plain, as this bill 
presumably requires, how does that change? I mean, there is 
10.4 billion technically recoverable, but what is economically 
recoverable, given that you have to do all those things, 
because that is what the bill says?
    Mr. Boyd. Through the chair, Congressman Pallone, the 
economics of oil will depend on many things. I mean, you can 
almost think of--I don't have a graph for you, but of sort of 
three kinds of oil. The oil that was in place, the oil that was 
deposited is called OOIP, original oil in place. That is a big 
number, 35 billion barrels. Then you apply this recovery factor 
we have been talking about and then you get the technically 
recoverable. That is the 37 percent. That is where you get to 
the six and the 16 and the 10.4 is the mean. And again, as you 
shift the recovery factor, that curve would move back and 
forth, get bigger or smaller.
    At the bottom end of the spectrum is the economically 
recoverable, because then you have to consider things like 
costs. What are the costs of getting the oil out of the ground. 
But it is, generally speaking, and the report is based on what 
the price of oil is, and at the price of oil at today's prices, 
the technically recoverable and the economically recoverable 
would be virtually the same. If prices go--
    Mr. Pallone. Have you figured into that the cost of 
removing the infrastructure and the restoration of the tundra 
and the other things that are required in this bill, and 
hopefully so. Does that take into consideration that?
    Mr. Boyd. Mr. Chairman, through the chair, I don't know the 
answer to that, I guess, but a company will certainly take it 
into consideration in their bidding. I mean, if they see that 
they have costs, that something will cost something, they will 
bid less for property, because nobody knows what the price of 
oil is going to be. So I believe that those kinds of things are 
built in.
    And I should say that on the State--there is a fundamental 
difference between the Federal leases and the State leases. On 
State land, basically the land between the Canning and the 
Colville or between NPR-A and ANWR, if you like, the State has 
not taken a position on what the removal will be.
    Mr. Pallone. Well, I guess my concern, and I don't want to 
belabor the point because I would like to ask another question, 
my concern is that no one is taking into consideration these 
extra costs. I mean, obviously, it hasn't even been done on the 
North Slope and I would fear that it wouldn't be done here, as 
well, even though the bill says so.
    Let me ask Mr. Van Tuyn a question. In your testimony, you 
say that almost all of the Arctic is presently available for 
oil and gas leasing, but can you expand on which parts are 
available and which parts are not?
    Mr. Van Tuyn. Mr. Chairman, Representative Pallone, I would 
be happy to, and in fact, the map that is on the easel over 
here does that illustratively. If we start on the left side, it 
is the National Petroleum Reserve-Alaska. This is an area that 
is managed by BLM under a 1976 law that gave them jurisdiction 
over that, and that area was intended to be evaluated for its 
oil and gas potential as well as for special areas to protect 
wildlife. At the current time, the Northeast corner of it is 
about 4.6 million acres. The Babbitt Interior Department leased 
four million acres of that 4.6, protecting the Teshekpuk Lake 
Special Area, which is the cross-hatched area in the Northern 
part there.
    To its left is the Northwest Planning Area. That is about 
9.8 million areas. The EIS for that is currently in circulation 
and the comments are due very shortly.
    To its left and slightly below is the South Planning Area, 
which is just over nine million acres. That is slated for 
planning in 2004.
    Note the cross-hatched area in the Northern part of the 
NPR-A which was protected by Secretary Babbitt, Secretary 
Norton has now announced that she is going to revisit those 
600,000 acres for drilling for oil.
    Offshore, the yellow area is the Beaufort Sea, 9.8 million 
acres. The final EIS just came out. The proposed notice of sale 
from the Minerals Management Service of the Department of 
Interior was just released last week. September of this year 
will be a lease sale of that 9.8 million acres.
    And finally, Mr. Chairman, Representative Pallone, that 
middle area between the Colville and the Canning, which is 
mostly red on this map, is 14.1 million acres of State land. It 
is annually offered for lease to oil and--
    Mr. Pallone. So you only have a very small percentage--in 
other words, the Arctic Refuge is a very small percentage of 
the Arctic that is protected from oil and gas leasing and 
development at this point, so what--
    Mr. Van Tuyn. Very true, Mr. Chairman, Representative 
Pallone, and you can see on the right side of this map, 5 
percent of that Coastal Plain, the high peak of the mountain 
out to the ocean, the one green part on this map is the only 
area that is currently off limits to exploration or 
development.
    Mr. Pallone. Thank you. Do I still have time, Mr. Chairman, 
or am I out of time?
    The Chairman. [Presiding.] Your time has expired.
    Mr. Pallone. OK. Thank you.
    The Chairman. Mr. Markey, did you have any further 
questions?
    Mr. Markey. Yes. I thank you, Mr. Chairman, very much.
    If I may, I would like to pose a question to Governor 
Murkowski's representative, Ms. Sweeney down here. The present 
law says that 90 percent of the revenues go to Alaska, 10 
percent to the Federal Government.
    Ms. Sweeney. Yes.
    Mr. Markey. Last year's bill that passed changed that for 
ANWR to 50/50.
    Ms. Sweeney. Yes.
    Mr. Markey. The President's bill which is up here before us 
now, the President's budget maintains that 50/50 split. Has 
Governor Murkowski committed that he won't sue on behalf of 
Alaska to extract a 90 percent return on the Arctic oil 
revenues?
    Ms. Sweeney. Not to my recollection. I am not aware of 
that.
    Mr. Markey. You are not aware if he has pledged not to sue?
    Ms. Sweeney. Yes.
    Mr. Markey. Can you tell us that he won't sue if we pass it 
and change it to 50/50?
    Ms. Sweeney. Well, we are here right now in support of 
ANWR. We are here because the bill is in discussion and I am 
here to reaffirm our support.
    Mr. Markey. Well, I understand that, but Representative 
Young's bill is a 90/10 split, again, and it goes back to the 
present law. It doesn't reflect the President's budget, which 
assumes a much higher level of revenues going to the Federal 
Government because he has a 50/50 split in it. So do you 
support the Young version or President Bush's version?
    Ms. Sweeney. We are not taking a position.
    Mr. Markey. You are not taking a position. So you would 
reserve the right, then, to sue to claim 90 percent--
    Ms. Sweeney. That is not what I am saying. I am saying we 
are not taking a position, and what I mean is we are here in 
support of responsible development of ANWR.
    Mr. Markey. No, we appreciate that. A lot of what we do 
here is premised upon the need to add more revenues to the 
Federal budget, and so we are just trying to find out what our 
relationship with Alaska would be on this issue. In other 
words, would the accede to a 50/50 split on the money from the 
Arctic Refuge even though, historically, they had always 
received a 90/10 split on the North Slope.
    Ms. Sweeney. And I will restate, we are not taking a 
position at this time.
    Mr. Markey. OK. Mr. Van Tuyn, what do you think?
    Mr. Van Tuyn. Mr. Chairman, Representative Markey, thank 
you. I have heard each of our Congressional delegation speak 
vehemently on this issue in the past in the State of Alaska 
saying that the 90/10 split is what is the deal in the 
Statehood Act and we will fall on our swords to get it. That 
is, in effect, what a non-position that we hear from Ms. 
Sweeney now is, because the law is uncertain in this area and 
what will happen if the bill passes as written, in all 
likelihood, the State of Alaska will go to court to get its 90 
percent rather than the 50 percent.
    Mr. Markey. And I apologize. It turns out Mr. Young's bill 
is actually silent on this issue, so I just want to correct the 
record and make sure that that is clear, and that would mean 
that the current law would stay intact, the 90/10 language.
    Mr. Van Tuyn. Ninety/ten, yes.
    Mr. Markey. And I would be greatly concerned by that, Mr. 
Chairman, for us to go through this whole effort and then have 
the revenues not flow into the Federal Treasury that would help 
us to balance the budget, you know, pay for the war and then 
pay for the homeland security.
    Thank you all so much again. Thank you, Mr. Chairman.
    The Chairman. I am sure, Mr. Markey, that before this bill 
works its way all the way through this Committee and the floor 
and through the Senate that we will have a pretty good idea of 
where we are. I do know that it is a concern and it has come up 
in the past.
    I would like to go back, just in closing, to Ms. Sweeney, 
if I can, and if this question was asked while I was out of the 
room, I apologize to you. You talked in your oral testimony 
about being a native Alaskan and the impact on your town and 
your area, and I have been to Barrow before. The day, or the 
couple of days that I was up there, it was a very nice place, 
but I understand it gets pretty cold the rest of the year.
    Why is there competing opinions that we are hearing out of 
the native Alaskan community? We are hearing that some people 
are opposed, some people are in favor. Can you clear that up?
    Ms. Sweeney. Sure, I would be happy to. The local people of 
the North Slope, a vast majority are in support of ANWR 
development, and there is a group of individuals who are not 
from the North Slope, they are not local to the region and they 
live outside of ANWR and are well over 100 miles away from the 
Coastal Plain who are opposed to ANWR development.
    The Chairman. Let me stop you right there, because, and I 
may be mistaken, but in my recollection of the testimony that 
we have received today, they talked about this other group 
being in the North Slope. But you are telling us that they are 
not living there?
    Ms. Sweeney. That is correct, and from opponents of ANWR, 
you will rarely hear the Inupiat viewpoint in this and they 
will imply that the population of Gwich'in people are from the 
area or that this land is sacred to them or they call the area 
sacred. Well, for the Inupiat people of the North Slope, we 
call it home.
    The Chairman. Does your regional government, your tribal 
government there, do you believe that they place a high value 
on protecting that environment?
    Ms. Sweeney. They sure do, and it is just a matter of who 
you are or who we are as Inupiat people, and our subsistence 
lifestyle and traditional cultural practices make up who we are 
as Inupiat people. To consider that we would rubber stamp 
anything that came out of the industry is, one, an insult to 
our intelligence and is very offending, because we care about 
the environment, we care about the wildlife in the area, and we 
want to continue living our lives as Inupiat people, whatever 
that may be. But ANWR development provides us with the 
opportunity to practice self-determination.
    The Chairman. Thank you. Ms. Clark, if I could go back to 
you for just a second, do you believe that it is possible to 
explore for oil and remove oil in an environmentally sensitive 
way?
    Ms. Clark. That almost sounds like a trick question, Mr. 
Chairman, so let me think about it. I would say that I 
believe--I will have a circuitous answer. I believe strongly 
that the National Wildlife Refuge System Improvement Act has 
standards and evaluation criteria by which all impacts in our 
National Wildlife Refuge System should be evaluated.
    I am not an oil development expert. All I know is what I 
have heard from refuge biologists, USGS researchers, what I 
have seen myself of oil development, and I believe that this 
bill falls very short of any specific evaluation criteria or 
evaluation standards or aggressive mitigation standards that 
would protect, per the scientists, protect the integrity of the 
Coastal Plain for the original purposes for which the Arctic 
National Wildlife Refuge was established.
    The Chairman. Have you made suggestions to the Committee 
for what those protections would be? Have you offered 
alternative language that would meet that criteria?
    Ms. Clark. I have not, Mr. Chairman.
    The Chairman. If you would be willing to do that and the 
organization you now represent, I would like to see a proposal 
that you think would meet that criteria, whether it is coming 
out of you personally or out of the organization you represent. 
I would be interested in seeing what you would see as 
appropriate language that would do that. I think it would be an 
interesting opportunity for the Committee to have that.
    I want to thank this panel of witnesses for your testimony 
and for the answers to the questions. Again, there are members, 
because of our schedule here today, there are members who had 
questions that they wanted to ask of this panel that, 
unfortunately, were not able to. Those questions will be 
submitted to you in writing. If you could answer those for the 
Committee within 10 days so that they can be included in the 
hearing record, it would be appreciated.
    Again, I want to thank you, all of you, for your testimony 
and your patience with our schedule here today, so thank you 
all very much for your testimony.
    Ms. Sweeney. Mr. Chairman?
    The Chairman. Yes?
    Ms. Sweeney. On behalf of the State of Alaska, I would like 
to formally invite this Committee to conduct its field hearing 
in Kaktovik so that the members have the opportunity to meet 
with local people in the region and to see what Kaktovik is 
like and hopefully inform the Committee on the impact that the 
decision to open ANWR will make. Thank you.
    The Chairman. I appreciate the invitation. We are intending 
on holding a field hearing in Alaska for that purpose and other 
purposes that come under the jurisdiction of this Committee, 
but I do believe very strongly that the best way to educate and 
inform the members is to have them actually go see it and 
understand it. But I appreciate the invitation.
    I would like to at this time include in the record a 
resolution from the Alaska Federation of Natives at their 1995 
Annual Convention.
    [The resolutions of the Alaska Federation of Natives 
follow:] 
[GRAPHIC] [TIFF OMITTED] T5583.009

[GRAPHIC] [TIFF OMITTED] T5583.010


    The Chairman. I would also like to include a statement from 
Oliver Leavitt, who is the Chairman of the Arctic Slope 
Regional Corporation, and without objection, those will be 
included in the record at this point.
    [The prepared statement of Mr. Leavitt follows:]

     Statement of Oliver Leavitt, Chairman, Arctic Slope Regional 
                              Corporation

    Mr. Chairman and Members of the House Resources Committee, my name 
is Oliver Leavitt. I appreciate this opportunity to submit testimony on 
H.R. 39, a bill to open the Coastal Plain area of the Arctic National 
Wildlife Refuge to a responsible program of oil and gas leasing. The 
Coastal Plain is the Nation's best prospect for major new oil and 
natural gas discoveries.
    I appear today as Chairman of Arctic Slope Regional Corporation 
(ASRC). ASRC represents the views and interests of its more than 8,000 
Inupiat Eskimo shareholders who live in eight remote Villages on 
Alaska's North Slope.

1. Introduction
    The small Coastal Plain area of the 19.5 million acre Arctic 
National Wildlife Refuge (ANWR) is very important to the nation's 
economic well-being and to its energy security. This 1.5 million acre 
area is also of critical importance to the Inupiat Eskimo people. We 
are the full-time residents of Alaska's North Slope. Our ancestors have 
lived in the Arctic for thousands of years. They have been the stewards 
of this land, environment and wildlife. We have an Eskimo Village, 
Kaktovik Village, with 260 residents located on our private lands in 
the Coastal Plain.
National Interest in the Coastal Plain
    Mr. Chairman, our Congressman Don Young, together with other 
Members of this Committee, have made a compelling case for opening the 
Coastal Plain to an oil and gas leasing program. With gasoline prices 
approaching--and in many states exceeding--$2.00 a gallon, the American 
people are looking for leadership and action. Citizens are concerned 
about declining supplies and rising oil and natural gas prices. This is 
a complex issue. But one thing is very clear. Opening the Coastal Plain 
now is the right thing for this Committee and the Congress to do.
    The Coastal Plain area of ANWR:
    <bullet> has the potential for major new petroleum reserves, 
conservatively estimated at 5.6 to 16 billion barrels of economically 
recoverable oil;
    <bullet> could slow or reduce our growing oil import dependance, 
which soon will approach 70 percent if no decisive actions are taken;
    <bullet> can be confidently developed with minimal impact on the 
environment and wildlife using proven technology and best land use 
practices; and
    <bullet> will generate billions of dollars in new Federal revenue 
from bonus bids, royalty and corporate taxes if H.R. 39 is adopted.
The Inupiat Eskimo's Interest in the Coastal Plain
    The interests of the Inupiat Eskimo people in the Coastal Plain are 
both economic and cultural. Congressional action on legislation to open 
the Coastal Plain area will determine whether or not my people will 
have a long-term tax base from which to provide essential public 
services for their children and elders. It will determine whether there 
will be jobs and economic activity on the North Slope for our young 
people and our children. It will also determine whether we, the Inupiat 
who once held aboriginal title to all of the North Slope's 56 million 
acres, will be permitted to develop the economic potential of the 
92,160 acres of private lands that we own in the Coastal Plain near the 
Village of Kaktovik.
    These lands are important to us because all other lands of 
potential value on the North Slope were leased to oil companies or 
selected by the State of Alaska before we were authorized to select our 
lands.
    Let me review my people's interests in the Coastal Plain.

a. Tax base, public services and local government
    Prior to the discovery of Prudhoe Bay in 1968, there was no tax 
base on the North Slope and no effective means to provide essential 
public services to the Inupiat Eskimo people. Sewage service was by 
hand carried ``honey bucket.'' Ice was hauled by dog sled from lakes to 
be melted household water. Our children were sent to BIA high schools 
thousands of miles away. There was little and only rudimentary medical 
care. Fire and police protection did not exist. Electrical service, 
when available, was unreliable. Communication with the outside was 
sporadic. Housing conditions were dismal. The cost of food and many 
other essential goods was prohibitive. Our people managed to survive by 
their wits, by barter, by subsistence hunting, and by continuing our 
Inupiat culture and our tradition of ``sharing.''
    The Prudhoe Bay discovery brought the opportunity for major 
changes. These changes included, for the first time, jobs, economic 
activity, a tax base, and the establishment of an elected democratic 
local government. The Inupiat people voted to establish the ``North 
Slope Borough'' in 1972 to address our need for vital public services.

b. The Inupiat Eskimo People and private economic development
    North Slope oil also brought private sector jobs and an opportunity 
for economic activity to the Inupiat people. Through ASRC and our 
Village Corporations, my people are now a significant part of the 
economy of the State of Alaska. Today we own and operate construction 
and oil field service companies which provide jobs, dividends and 
economic opportunity for our Inupiat shareholders. Development 
activities at North Slope oil fields which provide an essential 
commodity to U.S. consumers made all of this possible.

c. Value and use of Inupiat private lands
    The discovery of oil and the construction of the Trans-Alaska 
Pipeline gave some economic value to the lands we were granted under 
the Alaska Native Claims Settlement Act of 1971 (ANCSA). Through 
contract and lease relationships with major energy companies, ASRC has 
generated business skills, management expertise and capital to expand 
our construction and service companies, to create new jobs, and pay 
dividends to our shareholders.
    Alaska's North Slope contains major oil and gas resources. The 
country desperately needs access to these energy resources--both crude 
oil and our huge reserves of natural gas. These resources can be 
developed safely. Congress should adopt land use and fiscal policies 
that permit the private sector to bid for and develop the Coastal Plain 
for the benefit of the U.S. Treasury and U.S. consumers. This will also 
enable my Inupiat Eskimo people to develop our relatively small 
ownership of private lands at Kaktovik Village for the benefit of our 
children, our elders and our shareholders.

d. Uncertain economic future
    Oil development in the Arctic has improved the Inupiat people's 
quality of life in many ways. But our future is still very uncertain.
    Prudhoe Bay's oil production began in 1977. Production peaked at 
over 2.1 million B/D in 1988. But production is now in decline, and 
down to about 1 million B/D.
    We are seeing job opportunities disappear as oil production 
declines. Oil industry activities are being down-sized, consolidated 
and some are being reduced to ``maintenance'' level operations.
    The lease sale in the north-east portion of the National Petroleum 
Reserve-Alaska is the only bright spot we have experienced in recent 
years.
    Other new oil prospects need to be opened in Alaska to attract 
exploration capital and extend the economic life of the Trans Alaska 
Pipeline. This could also advance the prospects for an Alaska Natural 
Gas Pipeline to serve American consumers. If new oil and gas 
discoveries are not made soon, the Inupiat people will see our tax base 
further eroded. This means the minimal public services that the Eskimo 
people enjoy today will have to be cut back.
    Without Congressional action, the economic opportunities for the 
Inupiat people will decline. At the same time, our nation's dependance 
on high cost OPEC oil will grow.

The Nation's Best Oil and Gas Prospect
    If Congress adopts H.R. 39 and opens the Coastal Plain to multiple 
uses -refuge management and carefully regulated oil exploration and 
development--we see a brighter future, for Alaska's Native people, for 
the State of Alaska, and for the nation. This future could mean as many 
as 250,000 to 700,000 new jobs in all fifty states; an increase in our 
gross national product of $50 billion; a major reduction in the 
billions we now spend for imported oil; and a significant source of 
badly needed new Federal revenue to fund critically needed programs to 
serve the American public.
    No one disputes that the Coastal Plain is the nation's best 
prospect for major new oil and gas reserves. Government and private 
geologists are in full agreement here. They have identified 26 separate 
major oil and gas prospects in the Coastal Plain. This does not 
necessarily mean Prudhoe Bay's 10 billion barrel discovery will be 
repeated. But it does mean that the potential is clearly there for both 
another giant oil discovery and for many smaller oil fields.
    Opening the Coastal Plain will pull oil some company-investment 
back from Russia, Africa, South America, and the Far East. This will 
create jobs and economic activity here in the U.S. Opening the Coastal 
Plain is an economic stimulus policy that does not require Federal 
appropriations or tax cuts.
    Domestic oil companies are willing to commit additional resources 
and capital to areas on the North Slope with high potential. But, 
absent authorization for leasing in prime areas such as the Coastal 
Plain, these resources and jobs will continue to be allocated to major 
prospects in other countries, with no benefit to U.S. workers or to our 
economy.

Precedent for Development
    Opening the Coastal Plain to oil and natural gas leasing does not 
set a new precedent. Prudhoe Bay and other oil and natural gas fields 
next to the Coastal Plain were leased forty years ago. They have 
produced as much as 25 percent of the nation's oil production since 
1977. And this has been done safely with no harm to the environment, 
the land, the wildlife, or to Alaska Native subsistence users.
    The Department of the Interior has had an aggressive Beaufort Sea 
OCS leasing policy in offshore waters adjacent to the Coastal Plain for 
more than two decades. The State of Alaska has been leasing lands 
within the three mile limit--some areas touching the shore of the 
Coastal Plain. Wells are being drilled in these waters and discoveries 
are being made. Yet, the environmental dangers presented by development 
in these icy, turbulent, wind-driven waters far exceed any conceivable 
risk of development in the flat onshore Coastal Plain. Why is the 
organized environmental community advocating a policy which makes no 
sense from our people's view and from the stand point of environmental 
policy?

Legislative Recommendations for H.R. 39

a. Need for Impact Aid for Kaktovik Village
    ASRC recommends that Federal legislation to open the Coastal Plain 
include provisions for impact aid for Kaktovik Village and the North 
Slope Borough to provide essential infrastructure and necessary social 
services. A decision to open this area will bring increased visitor 
traffic and other social pressures on this small Village. The Inupiat 
people who live in Kaktovik support oil and natural gas development. 
But they want and insist on to retaining their privacy, their culture 
and their character as a traditional subsistence Eskimo community.
    With advance planning, and modest Federal financial aid, both the 
North Slope Borough and Kaktovik Village can play an important role in 
meeting the legitimate needs of both the industry and the Federal and 
State government in connection with a program of Coastal Plain 
exploration and development. The impact aid provision should also be 
made available for any other Alaska community that might be effected by 
leasing and development.
b. Land Use and Environmental Provisions
    I have carefully watched oil exploration and development over the 
course of my life on Alaska's North Slope. In the 1960's, like many of 
my people, I had very real concerns, about the impact of exploration 
and development.
    More than thirty years of experience have demonstrated that our 
initial fears were largely unfounded. A quality environment and healthy 
stocks of fish and wildlife are clearly compatible with responsible oil 
exploration and development. Our lands remain pristine. Our subsistence 
lifestyle has not been adversely impacted. The Central Arctic caribou 
herd, for example, at Prudhoe Bay is larger than ever--3,000 in 1972 
and as high as 28,000 in recent years--and thriving.
    The footprint of oil development has constantly been getting 
smaller. Technology has made major gains. Horizontal drilling means 
more wells able to reach out much farther from very small drilling pads 
made of ice rather than gravel. Better land use planning consolidates 
common facilities. Gravel roads are being replaced with winter ice 
roads and drill pads which melt without leaving a trace of man's 
activity. The new Alpine oil field is producing over 100,000 barrels a 
day from a 500 million barrel reservoir using only a 90 acre pad with 
no permanent roads!
    These gains did not happen by chance. They are the product of 
careful regulation and hard work by an industry that is constantly 
being pushed by the North Slope Borough, by the State of Alaska and by 
the Federal Government. The regulatory objective is to produce the oil 
we need more efficiently with fewer and fewer impacts on the land, the 
environment, fish and wildlife and the subsistence activities of the 
Inupiat people.

Wildlife in the Coastal Plain
    Mr. Chairman, there are those who oppose leasing and, instead, 
advocate designation of the Coastal Plain as Wilderness. Congress 
previously designated nine million acres of ANWR as Wilderness in 1980. 
The advocates of Wilderness for ANWR have advanced a wide range of 
shifting arguments over the years. In recent times, they have turned 
their arguments on the need to protect the Porcupine Caribou herd.
    The Inupiat people are subsistence hunters. We live on the North 
Slope. We give priority to the need to protect all forms of fish and 
wildlife. This includes the Porcupine Caribou Herd. Fortunately, we 
know how to do this. Prudhoe Bay demonstrates the compatibility of oil 
production with the well-being of the Central Arctic Herd. It also 
demonstrates years of caribou-friendly planning and operational 
experience.
    The caribou is a very adaptive animal. The Canadians showed us this 
when they drilled fifty or more oil wells just east of the Coastal 
Plain in Canada over the past twenty five years. Canada also 
demonstrated this compatibility when they built the Dempster Highway 
through the heart of the range of the Porcupine Caribou herd.
    There are many known and proven ways to explore for and develop oil 
and gas fields in ways that are compatible with caribou. These included 
raised pipelines and covered ramps to assist pipeline crossing; 
seasonal closing of exploration during the short calving season; and 
concentrating year round activities such as maintenance facilities in 
areas least used by caribou and other wildlife.
Alaska Federation of Natives Support
    The Alaska Federation of Natives (AFN), the state-wide organization 
of Alaska's Native institutions, is on the record in support of leasing 
the Coastal Plain. AFN supports leasing in the Coastal Plain for 
reasons that are very important to Alaska's Native Americans. Enclosed 
are AFN Resolutions on this subject.
    Over 80 percent of our State's revenues for education, medical 
care, public sanitation and other programs come from taxes and royalty 
on North Slope oil. North Slope oil provides many jobs for Native 
people, including many Gwich'in people, and much of the economic 
activity that is essential to Native-owned businesses and our State 
economy.
    Many of Alaska's rural native villages lag way behind urban areas 
in employment, public services and opportunity. Closing this gap 
requires the jobs and the resources that North Slope oil and gas and 
the Coastal Plain can provide.

Local Opposition
    In recent years The Gwich'in Steering Committee has been vocal in 
opposition to Coastal Plain development. I want to make a couple of 
points about this opposition.
    First, I do not believe the Steering Committee represents the views 
of the majority of the Athabascan Indians who live in the interior of 
Alaska or of Doyon, their Regional Corporation. A major Doyon business 
enterprise, for example, is owning and operating the rigs used in 
drilling North Slope oil wells.
    Second, in 1980 the Gwich'in Indian Tribe leased all of their 1.8 
million acres of land on the Venetie Indian Reservation. This oil and 
gas lease was sold to the Rouget Oil Company for $1.8 million.
    Third, this oil and gas lease, which was recorded as a matter of 
public record, did not contain any provisions to protect the Porcupine 
Caribou herd which periodically passes through the reservation during 
its annual migration.
    Fourth, after the expiration of the original Gwich'in oil and gas 
lease, the Gwich'in Tribal Government for the 350 residents of the two 
Villages on the Venetie Reservation again advertised and offered to 
lease all of their 1.8 million acres of land to any other oil company.
    Fifth, a number of the present members of today's Gwich'in Steering 
Committee were among the Tribal officials who signed the oil and gas 
leases as well as the subsequent offer to the oil company to again 
lease, their sacred tribal lands for oil and gas development.
    Mr. Chairman, to keep the record straight, I submit these lease 
documents for the hearing record.
    The Inupiat people want what the Gwich'in people have already had. 
We want the opportunity to have the economic benefit of developing our 
92,160 acres of private lands at and near Kaktovik Village. We also 
believe that the public land area of the Coastal Plain should be 
developed for its highest and best use--which is oil and gas. This will 
benefit the American public and all Native people in Alaska.

The NPR-A Precedent
    The Clinton Administration prepared a comprehensive EIS and 
conducted an in-depth review of all issues associated with the 1998 
decision to lease 5 million Northeast portion of the (NPR-A).
    As a part of this review, Secretary Babbitt personally visited the 
North Slope. He camped out, ran rivers and toured NPR-A. He also 
visited the new Alpine oil field near our Village of Nuiqsut, west of 
the Kuparuk field. The Secretary reviewed the latest in land use plans, 
saw the newest oil field technology, and weighed the benefits of 
development against the environmental impacts within NPR-A.
    The Secretary also visited one of our shareholder's subsistence 
hunting and fishing camp west of Teshekpuk Lake. He had lunch with 
Governor Knowles and others, and dined on Native food in a subsistence 
camp site. Secretary Babbitt learned a good deal about Native culture, 
the subsistence life style, and Native knowledge about our land and 
wildlife resources.
    Subsequently, Secretary Babbitt approved the lease sales and 
exploration and development in the Northeast NPR-A. This approval 
reflected scientific judgements in the Department about the 
compatibility of oil development in NPR-A with wildlife, environmental, 
and subsistence values. The Secretary personally weighed the evidence. 
We believe he made the right decision. And the Nation will benefit.
    It is important to recognize that the same careful land use 
planning and new technology used at Alpine and at other new fields and 
in the NPR-A, would also be used in the Coastal Plain. The differences 
are that:
    <bullet> The Coastal Plain's wildlife, environmental and scenic 
values are not as significant as the Northeast NPR-A's wildlife values;
    <bullet> The oil and gas potential of the smaller Coastal Plain 
area are, according to the best geologic studies available, greater 
than the potential of the Northeast NPR-A; and
    <bullet> Most land-based subsistence activities of the Inupiat 
people on the North Slope occur within the NPR-A, where the majority of 
our people live.
    I urge this Committee, to look at the Coastal Plain's potential on 
the merits. If you apply the same standards the Clinton Administration 
did in the opening Northeast NPR-A, you will support H.R. 39 to open 
the Coastal Plain.
CONCLUSION
    Mr. Chairman, I appreciate the opportunity to present our Inupiat 
Eskimo shareholder's views. Development of the Coastal Plain is of 
critical importance to our children's future and maintaining our 
culture.
    We strongly urge the Committee to adopt H.R. 39 and open the 
Coastal Plain to a carefully regulated, environmentally sensitive 
program of leasing, exploration and development.
    Thank you.
                                 ______
                                 
    The Chairman. There is no further business before the 
Committee. I thank the witnesses, I thank the members of the 
audience for attending, and the Committee is adjourned.
    [Whereupon, at 1:08 p.m., the Committee was adjourned.]

    [Additional materials submitted for the record follow:]
    [The prepared statement of Mrs. Cubin follows:]

  Statement of The Honorable Barbara Cubin, Chairman, Subcommittee on 
                      Energy and Mineral Resources

    Mr. Chairman, I speak today in strong support of H.R. 39, the 
Arctic Coastal Plain Domestic Energy Security Act.
    We need to increase domestic production and lessen our dangerous 
dependence on oil from foreign nations, many of which do not share our 
interests and values. We're paying them nearly $300 million per day--
$100 billion per year--for oil that could be produced here.
    Over the next 20 years, America's oil consumption will rise, even 
after factoring in healthy increases in renewable energy supply and 
efficiency.
    Unfortunately, not only will domestic production fail to keep up 
with rising demand . . . it will drop unless new fields are opened.
    Alaska and the Rocky Mountain region are good places to look for 
new oil and gas. Some of the largest oil fields in the world have been 
found in Alaska, including the largest and second largest oil fields 
ever found in the United States.
    The bill proposes to open only a small fraction--8 percent--of ANWR 
for oil and gas exploration. The rest of ANWR, which is the size of 
South Carolina, will never be touched.
    This small fraction of ANWR is called the ``1002 Area.'' President 
Clinton's Energy Department called it the ``largest unexplored, 
potentially productive onshore basin in the United States.'' The U.S. 
Geological Survey estimates there are up to 16 billion barrels of 
recoverable oil there.
    Sixteen billion barrels is enough to offset all Saudi imports for 
the next 30 years. The mean estimate of oil (10.4 billion barrels) 
would make ANWR the largest oil field discovered in the world in the 
last 40 years.
    The Eskimo people who live on Alaska's North Slope, including the 
only community in ANWR, overwhelmingly support oil exploration and 
production.
    Exploration would be done using 21st century technology:
    <bullet> Supercomputers and 3-D Seismic testing reduce the need 
for exploratory wells
    <bullet> Use of ice roads in the winter that melt in the spring
    <bullet> Horizontal drilling of multiple oil deposits from a 
single surface location
    <bullet> Injection of wastes deep into the earth where they 
originated.
    As a result, the production footprint will total only 3 square 
miles within the 30,600 square-mile ANWR. This is equivalent to four 
average American family farms in an area the size of South Carolina.
    The average well at Prudhoe Bay produces over 550 barrels per day, 
more than 45 times the 12.5 barrels of oil produced per day by the 
average oil well in the United States. If the oil in ANWR is locked up, 
a lot of oil wells will have to be drilled to replace it.
    More than 700,000 jobs could be created across the U.S. through 
development of the 1002 Area, and wildlife and habitat will be 
protected under the world's strictest Federal, State and Local 
environmental regulations and monitoring.
    To see environmental success of development in Alaska, you need 
only look just to the west of ANWR at Prudhoe Bay, the nation's largest 
producing oil field. It has produced 20% of our nation's oil for over 
20 years.
    The caribou herd in and near Prudhoe Bay's oil field has grown from 
3000 in 1970 to 27,000 today. All other wildlife species are doing 
fine. Oil development has not endangered any species.
    Chairman Pombo, I look forward to the testimony as we search for 
solutions to our dependence on foreign oil. I yield back the remainder 
of my time.
                                 ______
                                 
    [The prepared statement of Mr. Gallegly follows:]

Statement of The Honorable Elton Gallegly, a Representative in Congress 
                      from the State of California

    Mr. Chairman, I have been a longtime supporter and cosponsor of 
former Chairman Young's legislation to open up Alaska's Arctic National 
Wildlife Refuge to oil exploration. I believe it is timely that we 
consider this legislation now as a possible war with Iraq looms.
    Developing domestic sources of energy is a national security issue. 
It is much better for our nation to be energy secure then it is to 
escalate our reliance on foreign dictators, such as Saddam Hussein, for 
oil. We currently import a record 57 percent of our oil. Among the 
regimes we import from are Saudi Arabia, Venezuela, Iraq and Nigeria.
    Initial projections suggest that there is enough oil within these 
few Alaskan acres to dramatically reduce our dependence on foreign oil 
from these countries and thus reduce our high gasoline prices. 
According to a recent article in Environment and Energy Daily, ANWR 
production could result in 1.9 million barrels a day for the U.S. 
According to the Department of Energy, we import .79 million barrels of 
oil per day from Iraq, 1.6 from Saudi Arabia, 1.5 from Venezuela, and 
.885 from Nigeria. Isn't opening ANWR to oil exploration worth it if we 
could replace the oil we get from even one of these countries, which 
are either politically unstable or at the very least located in 
unstable regions?
    Combined with new technologies that will extract the oil with 
minimal impact on the environment, I believe this measure is an 
important step towards making America energy-secure. I believe we have 
a responsibility to see that we develop this important resource.
                                 ______
                                 
    [The prepared statement of Mr. Gibbons follows:]

 Statement of The Honorable Jim Gibbons, a Representative in Congress 
                        from the State of Nevada

    Thank you Mr. Chairman for the opportunity to speak on this 
critical issue before us today.
    There has never been a more pressing time for the United States to 
become self-reliant on oil.
    As the time draws closer to a potential war in Iraq, it is 
absolutely imperative to develop our own natural resources and wing 
ourselves from the oil of the Middle East.
    While we continue to increase funding for renewables, such as 
georthermal, we have to face reality that today--America still relies 
on coal, gas and oil.
    We cannot afford to let OPEC continue to manipulate production 
levels and prices.
    However, our friends on the other side of the aisle will tell you a 
different story.
    They believe that we should not do anything to lessen our 
dependence on foreign oil and they hide behind an emotional 
environmental argument that has absolutely no scientific basis.
    For example, the caribou herd in and near Prudhoe Bay's oil field 
is five times larger than when development began.
    All wildlife species are healthy and there are no endangered 
species. Furthermore, wildlife and habitats will be protected under the 
world's strictest environmental laws.
    But honestly, lets keep this in perspective. We are talking about 
creating roads of ICE which melt in the spring. The entire affected 
area is only 1/5th the size of Dulles Airport in an area equal to the 
size of the state of South Carolina!
    It is absolutely mind boggling and simply outrageous that Democrats 
think that it is more important to keep a minuscule parcel of land free 
from oil drilling than to become less dependent on imported oil from 
countries controlled by radical fundamentalist.
    I am absolutely confused as to why this issue is even 
controversial. The reasons for exploration are compelling. The science 
and technology are extremely sophisticated. Environmental impacts are 
minimal. Most importantly, we have an obligation to the American people 
to ensure that they are able to maintain the quality of life that we 
all enjoy.
    Thank you Mr. Chairman and I reserve the balance of my time.
                                 ______
                                 
    [The prepared statement of Mr. Pallone follows:]

  Statement of The Honorable Frank Pallone, Jr., a Representative in 
                 Congress from the State of New Jersey

    Thank you. Mr. Chairman, I oppose H.R. 39 and strongly believe that 
this Administration's effort to authorize oil and gas development in 
1.5 million acres of the coastal plain area of the Arctic National 
Wildlife Refuge is wrong. Oil and gas development in this 
environmentally sensitive and pristine wilderness area will have only 
negative long-term consequences. Any short-term gains in oil production 
will be just that, short-term gains, and when the resource is exhausted 
we will be required to consider yet another sensitive area for oil and 
gas production. What will this Administration want us to authorize 
next--drilling leases in our beautiful Yellowstone National Park? (I 
probably shouldn't give them any ideas.) Authorizing oil and gas 
exploration in the Refuge merely perpetuates the strangle hold that the 
oil industry has on our country's energy use and production--it does 
nothing to reduce dependence on fossil fuels.
    Last week, the National Academy of Sciences released a report 
titled, the ``Effects of Oil and Gas Development Are Accumulating on 
Northern Alaska's Environment and Native Cultures.'' I was very 
concerned by a number of findings in the report, including an item that 
notes that the oil and gas industry has not set aside any funds to 
dismantle the $50 billion worth of infrastructure in the North Slope, 
nor has the industry taken any steps or made any plans to restore the 
affected tundra--the cost of which could be in the billions of dollars. 
There is no evidence to suggest that the industry will operate any 
differently in the Refuge as it has in the North Slope should Congress 
authorize oil and gas development, and this will result in our country 
losing yet another piece of pristine wilderness.
    The impacts of oil and gas development on this natural ecosystem 
cannot be understated. More than 100 species of wildlife rely on the 
coastal plain for habitat and survival. It is a calving ground for the 
Porcupine caribou herd, an important land denning habitat for polar 
bears in the Alaskan Arctic, and it provides critical habitat for 
wolves, grizzly bears, muskoxen, arctic foxes and a vast array of other 
species including birds. We have witnessed the environmental 
consequences of oil crises--such as the Exxon Valdez and the Prestige 
just this past fall. Drilling poses an inherently detrimental risk to 
every bit of nature that surrounds it. It is estimated that 400 spills 
occur from oil related activity in Alaska and from 1996 to 1999 over 
1.3 million gallons were released from faulty spill prevention systems, 
sloppy practices and inadequate oversight and enforcement. Clearly, the 
risks to wildlife increase with increased development.
    Finally, I would like to note that drilling in the Arctic Refuge 
will not reduce our reliance on foreign oil as proponents claim. More 
practical and long-term policies, such as returning our automobile 
fleets to the average fuel efficiency levels we had in the late 1980's 
will save far more oil than will ever be produced from the Arctic 
Refuge. This country needs to implement policies that provide for 
alternative transportation opportunities and better mass transit 
infrastructure, as well as efficiency and conservation efforts that 
reduce our dependence on fossil fuels. Until we do so, this country 
will never be free from its reliance on imported foreign oil.
    This issue is a simple one. The Arctic National Wildlife Refuge is 
a wildlife refuge--an area that must remain protected from danger or 
distress. There is no question in my mind that allowing oil and gas 
exploration in this pristine wilderness is wrong.
    Thank you and I look forward to hearing the testimony from our 
witnesses.
                                 ______
                                 

    NOTE: The report submitted for the record entitled ``Potential Oil 
Production from the Coastal Plain of the Arctic National Wildlife 
Refuge: Updated Assessment'' has been retained in the Committee's 
official files. The report can be viewed at the following web sites:
http://www.eia.doe.gov/pub/oilXgas/petroleum/analysisXpublications/
        arcticXnationalXwildlifeXrefuge/html/anwr101.html and
http://www.eia.doe.gov/pub/oilXgas/petroleum/analysisXpublications/
        arcticXnationalXwildlifeXrefuge/pdf/anwr101.pdf.

    [Ms. Clark's response to questions submitted for the record 
follows:]

                      NATIONAL WILDLIFE FEDERATION

                             March 25, 2003

The Honorable Richard Pombo
Chairman
House Resources Committee
1324 Longworth House Office Building
Washington, DC 20515-3554

RE: Follow-up Questions for Jamie Clark, National Wildlife Federation

 Dear Chairman Pombo:

    Thank you once again for the opportunity to testify before the 
House Resources Committee. Following are my answers to the written 
questions that you asked I provide for the record:

1. Are you aware that you misstated a key conclusion of the 1987 report 
        with respect to potential impacts of oil development on the 
        Porcupine caribou herd?
    I respectfully disagree that any misstatement was made. As you 
know, I am a scientist by training. In my view, the Reagan 
Administration's 1987 Legislative Environmental Impact Statement (LEIS) 
concludes that the kind of development proposed and anticipated in HR 
39 would have a major impact on the Porcupine Caribou herd. You'll note 
that in the ``Summary of Unavoidable Impacts'' (p. 144), the LEIS 
projects ``Reduced use by caribou of up to 37% (303,000 acres) of 
concentrated calving areas.'' Elsewhere, the report predicts that ``a 
change in distribution of the PCH could reasonably be expected.'' (p. 
124). In its ``Summary of Effects'' chart (p. 166), the LEIS concludes 
that the Porcupine Caribou herd would suffer a ``major'' impact if full 
leasing of the Arctic Refuge coastal plain were authorized. 
Furthermore, the report states ``effects on caribou from oil-field 
development, production, transportation, and rehabilitation would 
result from direct habitat modification, displacement, obstructions to 
movements...'' (p.118). It also states ``oil and gas development would 
result in long-term changes in the wilderness environment, wildlife 
habitats, and Native community activities currently existing, resulting 
in an area governed by industrial activities.'' (p.165).
    The caribou science is presented even more clearly in the 1986 
draft LEIS, which was reported to have been watered down by political 
appointees at the Interior Department (see National Geographic, 
December 1988, p.862). For example, the draft report found that 
``Disturbance would occur from the presence and activities of up to 
6,000 people, hundreds of vehicles, and major construction and 
production activities scattered throughout the 1002 area, including 
sensitive caribou calving areas.''
    It was based on these and other scientific conclusions that I 
founded my statement that the 1987 report concluded ``oil development 
would have a major impact on the Porcupine caribou herd...''
    Finally, I would note that the Department of Interior's work since 
1987, including work done during my tenure as director of the U.S Fish 
and Wildlife Service, supports the veracity of my testimony. As the 
U.S. Geological Survey determined just last year, full leasing would 
result in displacement of caribou calving. Calf survival would decline 
by 8.2% (p. 31, emphasis added).
2. Will the National Wildlife Federation immediately correct this or 
        similar factual misstatements that may be contained in any and 
        all literature, commercials, and other messages sponsored by 
        the National Wildlife Federation?
    We respectfully disagree that there are factual misstatements 
regarding caribou in our materials. In fact, the sections on caribou in 
the literature you refer to were written by Ken Whitten, who served as 
the chief biologist for the Porcupine Caribou herd during much of his 
24 year career with Alaska's Department of Fish and Game.

                               Sincerely,

                         Jamie Rappaport Clark

              Senior Vice President Conservation Programs


</pre></body></html>
